<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 2015</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




                   INTERIOR, ENVIRONMENT, AND RELATED

                    AGENCIES APPROPRIATIONS FOR 2015

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED THIRTEENTH CONGRESS
                              FIRST SESSION

                                ________

       SUBCOMMITTEE ON INTERIOR, ENVIRONMENT, AND RELATED AGENCIES
                    KEN CALVERT, California, Chairman
 MICHAEL K. SIMPSON, Idaho          JAMES P. MORAN, Virginia
 TOM COLE, Oklahoma                 BETTY McCOLLUM, Minnesota
 JAIME HERRERA BEUTLER, Washington  CHELLIE PINGREE, Maine
 DAVID P. JOYCE, Ohio               JOSE E. SERRANO, New York
 DAVID G. VALADAO, California       
 CHRIS STEWART, Utah                

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
              David LesStrang, Darren Benjamin, Jason Gray,
                 Rachelle Schroeder, and Colin Vickery,
                            Staff Assistants

                                ________

                                 PART 7
                                                                   Page
 U.S. Forest Service FY 2015 Budget Oversight Hearing.............    1
 National Park Service FY 2015 Budget Oversight Hearing...........   61
 Fish and Wildlife Service FY 2015 Budget Oversight Hearing.......  109
 Bureau of Land Management FY 2015 Budget Oversight Hearing.......  181
 Bureau of Ocean Energy Management and Bureau of Safety and 
Environmental Enforcement.........................................  233
                                ________

         Printed for the use of the Committee on Appropriations

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE

 87-847                     WASHINGTON : 2014






                                  COMMITTEE ON APPROPRIATIONS

                    HAROLD ROGERS, Kentucky, Chairman

 FRANK R. WOLF, Virginia              NITA M. LOWEY, New York
 JACK KINGSTON, Georgia               MARCY KAPTUR, Ohio
 RODNEY P. FRELINGHUYSEN, New Jersey  PETER J. VISCLOSKY, Indiana
 TOM LATHAM, Iowa                     JOSE E. SERRANO, New York
 ROBERT B. ADERHOLT, Alabama          ROSA L. DeLAURO, Connecticut
 KAY GRANGER, Texas                   JAMES P. MORAN, Virginia
 MICHAEL K. SIMPSON, Idaho            ED PASTOR, Arizona
 JOHN ABNEY CULBERSON, Texas          DAVID E. PRICE, North Carolina
 ANDER CRENSHAW, Florida              LUCILLE ROYBAL-ALLARD, California
 JOHN R. CARTER, Texas                SAM FARR, California
 KEN CALVERT, California              CHAKA FATTAH, Pennsylvania
 TOM COLE, Oklahoma                   SANFORD D. BISHOP, Jr., Georgia
 MARIO DIAZ-BALART, Florida           BARBARA LEE, California
 CHARLES W. DENT, Pennsylvania        ADAM B. SCHIFF, California
 TOM GRAVES, Georgia                  MICHAEL M. HONDA, California
 KEVIN YODER, Kansas                  BETTY McCOLLUM, Minnesota
 STEVE WOMACK, Arkansas               TIM RYAN, Ohio
 ALAN NUNNELEE, Mississippi           DEBBIE WASSERMAN SCHULTZ, Florida
 JEFF FORTENBERRY, Nebraska           HENRY CUELLAR, Texas
 THOMAS J. ROONEY, Florida            CHELLIE PINGREE, Maine
 CHARLES J. FLEISCHMANN, Tennessee    MIKE QUIGLEY, Illinois
 JAIME HERRERA BEUTLER, Washington    WILLIAM L. OWENS, New York
 DAVID P. JOYCE, Ohio                 
 DAVID G. VALADAO, California         
 ANDY HARRIS, Maryland                
 MARTHA ROBY, Alabama                 
 MARK E. AMODEI, Nevada               
 CHRIS STEWART, Utah                

               William E. Smith, Clerk and Staff Director

                                  (ii)

 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                        APPROPRIATIONS FOR 2015

                              ----------                             
                                          Wednesday, April 2, 2014.

                          USDA FOREST SERVICE

                                WITNESS

THOMAS TIDWELL, CHIEF OF FOREST SERVICE

                  Opening Remarks of Chairman Calvert

    Mr. Calvert. The Committee will come to order.
    Chief Tidwell, I would like to welcome you to today's 
hearing. Our hearing today will address the fiscal year 2015 
budget priorities in the U.S. Forest Service.
    As you know, I will start off with my home State of 
California, which is suffering through a severe drought crisis 
that threatens to bring us the worst fire season we have seen 
in recent years, maybe ever. Already in the first quarter of 
fiscal year 2014, California has experienced twelve large 
wildland fires with suppression expenses totaling $205 million, 
compared to the first quarter of fiscal year 2013 when 
California only saw seven large wildland fires totaling $14 
million.
    When measuring the first quarter of fiscal year 2014 
against the first quarter of fiscal year 2013, we have already 
spent $191 million more on large wildland fires this fiscal 
year. The fiscal year 2013 fire funding shortfall for the 
Forest Service was $600 million, and the shortfall for the 
Department of the Interior was $28.5 million, all of which 
Congress repaid in fiscal year 2014. If the fires in California 
are any indication of what is to come, I am concerned about 
where we might be headed in terms of a fire funding shortfall 
for fiscal year 2014.
    I say all of this to highlight the need to fundamentally 
change--and I am just saying this because Mr. Simpson is 
sitting next to me--how we should fund wildland fires in the 
future, and I appreciate the Administration's recognition of 
the hard work done by Chairman Simpson here in the House, and 
Senators Wyden and Crapo in the Senate, by including a similar 
provision to their respective cap adjustment bills in the 
budget request for fiscal year 2015. I look forward to working 
with you this year to try to address that issue.
    The Forest Service is certainly more than just wildland 
fire, so I would like to take a moment to comment on the budget 
request in general. Excluding the request of $954 million for 
the wildland fire budget cap adjustment, the total Forest 
Service request for fiscal year 2015 is $4.8 billion, a $726.4 
million, or 13.3 percent, reduction from the fiscal year 2014 
enacted level, including the $600 million in suppression 
shortfall repayment. With suppression costs growing from 
approximately 13 percent of the agency's total budget just 10 
years ago to 47 percent through fiscal year 2014, and a total 
budget that is shrinking, it appears as though the Forest 
Service will be doing less forest management and restoration 
than it should be.
    I have concerns about the proposed reductions of $17.5 
million in research and development, $4.5 million in urban and 
community forestry, and $5.8 million in grazing management, to 
name just a few. I do understand that the reduction in grazing 
management is proposed to be offset with a new administrative 
fee, estimated to generate approximately $5 million. The 
grazing fee was proposed in fiscal year 2014 and Congress 
denied the request. I am sure there are some members here that 
probably would have plenty to say on this topic, so I will not 
belabor the point, but suffice it to say, I cannot imagine the 
outcome for this request would be different this year.
    In closing, Chief Tidwell, I would like to express my 
appreciation to your fine professional staff. Our Subcommittee 
simply could not do its work without the folks sitting behind 
you. Thanks to each of you for everything you do.
    And with that, I am happy to yield to the gentleman from 
Virginia, my friend, Mr. Moran, for any opening remarks that he 
would like to make.

                      Opening Remarks of Mr. Moran

    Mr. Moran. Thank you, Chairman, my friend from California.
    I share the view of the Chairman on a number of points with 
regard to the budget. I do think it is a mixed bag, although 
there is no question but that you are doing a terrific job, 
Chief Tidwell. It is nice to see Mr. Dixon. And you have got a 
great staff. So any of our comments and concerns are not 
personal reflection but it is a matter of the environment in 
which we have to operate here.
    I support the request for fire, and I know we are going to 
discuss it at length here, but funding a portion of the fire 
costs under the disaster budget cap, it will free up monetary 
resources. I think it makes sense.
    But a number of the programs that the Chairman mentioned, I 
also think they are not a lot of money which they need not have 
been cut, and I am not sure why they needed to be, Urban 
Forestry, for example, Recreational Heritage, the Wilderness 
program, you know, a cut of $2.6 million below last year, it is 
not a lot of money but it comes on the heels of a series of 
stagnant budgets. So it kind of sends the wrong signal. The 
Forest Service is the national leader in providing a variety of 
outdoor recreational experiences along with the Park Service 
and it really forms the genesis on the National Wilderness 
Preservation System. The Forest Service manages 440 wilderness 
areas, 36 million acres, and yet the budget request would cut 
Wilderness Management by 7 percent.
    I have got a quote but I am going to hold off on the 
quotes. The point is, the wilderness should not be viewed as an 
afterthought but really needs to be front and center in the 
agency's mission. I am concerned about the impact of the 
message sent by their proposed cuts to forest and rangeland 
research, which the Chairman referred to, and state and private 
forestry. We understand the demands placed on the Forest 
Service but cuts in research and stepping back from the 
agency's national and even international leadership role on a 
variety of forestry matters seems to be a little bit 
shortsighted and detrimental not only to the forest environment 
but to the Forest Service's long-term interests.
    Now, with regard to grazing, it is kind of ironic that on 
this side of the aisle we seem to find ourselves on the side of 
the market, you know, let the market determine what is a 
competitive rate, let's look at the way that private landowners 
charge and let's get away from these government subsidies, 
which I would have thought my good friends on the other side 
would have found to be particularly troubling, and it seems 
like that is what the Administration wants to do is get away 
from these government subsidies and let the market determine 
what the real costs of grazing on public or private land ought 
to be. They ought to be more consistent, and they certainly are 
not now.
    But nevertheless, we will pursue that, and since we are in 
the minority, we will lose it, but I do not think that you have 
a very good point to be made with the budget in that regard. We 
know these are challenging times for the Forest Service, 
dealing with fires and their costs, and I am afraid the fire 
costs are going to get ever larger as we clearly have more 
extreme weather events that we have experienced recently, and 
it is just going to get worse. The aftermath of the sequester 
is not going away. You are still having to deal with it. The 
people on this Subcommittee and I think really for the most 
part on the entire full Committee want to restore the money 
that was cut by the sequester. There are very few people on the 
Appropriations Committee, at least, that did not think that the 
sequester was an aberration and just simply wrong, a wrong way 
to budget.
    But we want you to be able to maintain your leadership role 
in forestry management. We appreciate the leadership you are 
providing and all of your staff and look forward to your 
testimony and the Q&A to follow. Thank you.

                    Opening Remarks of Chief Tidwell

    Mr. Calvert. I thank the gentleman for his statement. I am 
going to yield to Mr. Simpson. I can take his rotation after 
Mr. Tidwell makes his opening statement.

                             FY 2015 BUDGET

    Mr. Tidwell. Mr. Chairman, members of the Committee, once 
again, it is a privilege to be here today with you to talk 
about the fiscal year 2015 budget request, and once again, I 
just want to thank you for the support that you have provided 
us over the years.
    Last year when I was up here testifying, a key part of my 
testimony was to ask for your support for a couple of our key 
authorities that were about to expire--stewardship contracting, 
and the Good Neighbor Authority--so thank you. Thank you for 
the good work to get the forestry title in the Farm Bill. Those 
programs are going to continue to help us to be able to get the 
work done, be able to create more jobs, and be more effective 
in our management. So thank you for that.
    This budget request, I think recognizes the opportunity, 
and the responsibility that we have to do more to restore our 
national forest and grasslands to make sure that they will 
continue to provide that full mix of benefits: clean air, clean 
water, wildlife habitat, recreational settings, commodity 
production, jobs, and economic activity. Four hundred and fifty 
thousand jobs are supported from the activities off our 
national forest and grasslands. A hundred and seventy million 
visitors every year enjoy these areas.

                       SUPPRESSION CAP ADJUSTMENT

    As you mentioned, and I appreciate your recognition about 
the proposed budget cap adjustment for fire suppression 
funding. It will finally stop this disruptive practice of 
having us shut down our operations almost every August, 
transfer funds to pay for the fire suppression costs and then 
just to have Congress repay those funds, usually within 3 or 6 
months following that.
    I want to thank Congressman Simpson for his leadership to 
introduce the bill, Mr. Chairman and the majority of this 
Subcommittee, I want to thank you for being cosponsors on this, 
recognize that this is a problem that goes way beyond just 
fire. It affects every single thing that we do. We have to 
shift over $500 million out of our other programs over the 
years into fire suppression as the 10-year average continues to 
go up year after year. In just the last 3 years, we have had to 
increase our fire suppression funding by $156 million. So with 
a constrained budget, we have to make those shifts and it 
impacts every program that we have. So thank you for the 
recognition of a need to stop the transfer, and at the same 
time, with the budget cap adjustment, as you have mentioned, it 
does free up some constraint space for us to increase the 
investment in Hazardous Fuels, to increase the investment in 
restoring our national forests, and to increase the investment 
in our Collaborative Forest Landscape Restoration programs. 
These are key programs that will allow us to address the 
problems, reduce the threat of wildfires, reduce the threat to 
communities, help restore our forests to make sure they 
continue to provide the full mix of benefits. We will still 
have adequate funding in preparedness to make sure that we 
continue to suppress 98 percent of every fire during initial 
attack.
    This budget request also makes sure we can continue the 
research that is so essential for us to be able to have the 
science to understand what we need to do to restore these 
forests, to deal with the invasive species, to be able to 
address the effects of a changing climate. It also continues 
our work with state and private programs to be able to support 
private forests, to support urban forests that are so important 
to this country.
    Now is the time for us to increase the investment to help 
restore these national forests, not only for the present 
generation but for the next generation. The science is clear, 
supported by results on the ground that we can reduce the 
effects of fire, reduce the effects of insect and disease 
outbreaks, but we need to be able to increase the investment. I 
believe this budget request is a modest increase in those key 
programs to allow us to be able to move forward but at the same 
time be able to demonstrate the fiscal restraint that is so 
necessary as we deal with deficit reduction in this country.
    Mr. Chairman, thank you for the time to be here today, and 
I look forward to answering your questions.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT


    Mr. Calvert. Thank you for your statement, and I will now 
recognize Mr. Simpson.
    Mr. Simpson. Thank you, Mr. Chairman. I appreciate the 
opportunity to go first so that we can start the Energy and 
Water hearing with the Secretary at 10 o'clock.

                            WILDFIRE FUNDING

    Let me ask you a couple of questions, Chief, about this 
wildfire funding proposal. As you know, obviously I support it. 
I have introduced a bill to do the same sort of thing. But what 
I hear are concerns that allowing wildfire suppression to be 
funded through a disaster cap adjustment would increase overall 
discretionary spending. How do you respond to that?
    Mr. Tidwell. Mr. Congressman, it will not increase 
discretionary spending.
    Mr. Simpson. That is a good response. I like that.
    Mr. Tidwell. Your proposal provides for the funding during 
the year where the fires occur versus having Congress repay 
that. The concept here is that within every budget there are 
discretionary funds that are available for disasters, and for 
this year I think it is close to $12 billion that is available. 
The Federal Emergency Management Agency (FEMA) has the 
authority to use between $5 and $6 billion of that. There is 
another $6 billion that is already available for disaster 
relief. It is time for us to just recognize that certain 
wildfires are a natural disaster, and yes, they occur every 
year, but just like many of the other natural disasters, 
whether a hurricane, tornados, floods, we have some of those 
almost every year. It is time for us to recognize that. Your 
proposal is that 70 percent of our suppression costs will be in 
our discretionary budget. That will cover about 99 percent of 
our fires. It is 1 percent of our fires that create 30 percent 
of the costs. It is those large fires, usually around 
communities, that really drive the cost of this. So your 
proposal will not increase discretionary spending but it will 
just stop that disruptive practice of us having to shut down 
operations in August, put people out of work and then just to 
have the money to pay back a few months later.
    Mr. Simpson. Really what we are trying to do is change not 
the amount we spent on fires--I would like to reduce the amount 
we spend on fires by having less fires, but the reality is, we 
are going to pay whatever it costs to fight these wildfires. We 
are either going to do it through the way we have been doing it 
with fire borrowing and then repaying those funds later on 
after the season is over so you cannot go in and do hazardous 
fuels reduction, even though we have paid back those accounts. 
Really what we are talking about is a better way to manage the 
account, not increase funding for wildfire fighting.
    One of the other concerns that I have heard expressed is 
that it will create less accountability within the Service on 
wildfire fighting costs. How do you respond to that?

                          FIRE RISK MANAGEMENT

    Mr. Tidwell. It will not. The accountability will stay the 
same, and we are committed to doing our best job when it comes 
to financial management, and our focus on risk management, to 
be able to really factor in risk management into our decisions 
has made a significant reduction by avoiding tactics that are 
not successful. For instance, in fiscal year 2012 when we 
looked at the change in our approach, our strategy on the fires 
we had during fiscal year 2012, we estimated we saved $377 
million of costs versus the way we approached fires a few years 
ago by recognizing that under certain conditions going in there 
and building that line that is just going to burn over the next 
day and to recognize we need to fall back until we get to the 
right landscape, the right set of fuels, the right conditions 
so we can make a stand and hold it. Because of the science that 
has been developed over the years, we can make better 
decisions, and we are avoiding risk and avoiding some costs.
    In addition to that, we will continue to do our reviews of 
each large fire to be able to analyze those costs, and there is 
still the incentive that as fire costs go up, that is still 
going to have to come out of our discretionary budget. For 
instance, if total fire costs go up $100 million, the 10-year 
average goes up $100 million, in the past it would be $100 
million that would have to come out of other programs. Well, 
even under your proposal, there is still going to be $70 
million, 70 percent of it, that is still going to have to come 
out of other programs. So the incentives are still the same.
    I just need to be able to do a better job to help people 
recognize how the conditions have changed. We are doing a 
better job fighting fires today than we ever have. We have 
better technology. We are making better decisions. But you 
cannot change the fact that our fire seasons are 60 to 70 days 
longer than they used to be, and that is a combination of the 
change in climate, the conditions we have on the landscape and 
then also the millions of acres of wildland-urban interface. 
Even in your State and definitely, Mr. Chairman, every place in 
your State, whenever we get a fire, the first thing we have to 
do is protect homes, keep the fire out of communities before we 
can even think about suppressing that fire. That has 
contributed to the costs. That is not going to change. I 
understand why people want to live next to the national forest. 
I want to live there too. But in combination of what we are 
talking about here and then continuing to work with our States, 
we can do a better job to reduce that threat, but it is just 
essential that we stop this disruptive practice.
    Mr. Simpson. Well, I need to thank you for the work that 
you did up around Ketchum this last summer. It was amazing when 
I went up there, the homes you saved. There is absolutely no 
reason any of those homes are still standing today except for 
the great work the Forest Service and hotshot crews from all 
over the country that came in and did fantastic work.
    But what everybody needs to understand is, if we budget 
according to the request as 70 percent of the 10-year average 
and we do not get the cap adjustment, we will be in worse shape 
than we have been in the past, because all of a sudden you will 
be borrowing a lot more because you will only be funded at 70 
percent of the 10-year average. So the cap adjustment is 
vitally important if we are going to budget this way.

                               AIRTANKERS

    One last question if I could ask it, Mr. Chairman. In the 
defense authorization bill last year, the Forest Service 
acquired a number of C-130s. My understanding is that these 
planes required retrofitting and work to be able to meet the 
Forest Service needs. What is the status of those planes? Where 
do you intend to base them? And what is your plan to maintain 
those planes? I suspect this does not address the full need of 
the Forest Service for planes. What is our standing there?
    Mr. Tidwell. Okay. The status is that we are working 
already with the Air Force to begin the process of retrofitting 
those planes and then transferring them. It is going to take 
probably close to 3 years before all seven of them are in 
restoration. The rest will come on in another year or two. We 
will contract out the maintenance and operation of these 
aircraft where we have several different offers of facilities 
that have the hangar space, et cetera, to be able to do the 
maintenance of these planes, so we are in the process of making 
that decision.
    It will not be enough. Our large air tanker strategy 
estimates between 18 and 28 planes that we need. Our budget 
request in fiscal year 2015, we are asking for funding to be 
able to have 25 large air tankers, and that will be a mix of 
our legacy contracts, our next-generation aircraft, and even in 
fiscal year 2015 we may still need to be able to contract with 
Canada for use of some of their aircraft. We feel this is the 
right number we need to have with the mix of aircraft that we 
have, and so that is our plan. So these seven aircraft will be 
very helpful. It will be part of the fleet but it will just be 
part of it.
    [The information follows:]

    We expect one Forest Service owned and contractor operated 
C-130 H aircraft to be operational in early FY 2015.

    Mr. Simpson. Thank you.
    Mr. Calvert. I thank the gentleman.
    Mr. Moran.

                       SUPPRESSION CAP ADJUSTMENT

    Mr. Moran. Mr. Calvert, before Mr. Simpson leaves, I do 
want to put on the record, because I do not know whether it has 
been reported on much but what he did in terms of the fire 
budget showed real leadership. He really deserves a lot of 
credit on that. It is also bipartisan and it gave an 
opportunity for the Administration to work with the legislative 
branch. That is probably why we will never read about it. It is 
a real success. So nice going, Mike.
    Mr. Simpson. Thank you.
    Mr. Moran. Mr. Chairman, Ms. Pingree has a hearing at 10, 
so I would like to defer to her for questions.
    Mr. Calvert. Ms. Pingree, you are recognized.

                     FOREST INVENTORY AND ANALYSIS

    Ms. Pingree. Thank you very much, Mr. Chair. Thank you to 
the Ranking Member, my colleague, for just giving me a minute. 
I will not take up a lot of your time, but thank you so much 
for the good work you do, and to my colleagues who I know are 
diligent on these issues who have a lot of Forest Service land 
and who have to deal with the devastating losses due to forest 
fires, I appreciate some of the challenges that they face.
    I come from the opposite end of the country, and in New 
England, we do not have that much land managed by the Forest 
Service but our forests are extremely important to us 
economically in Maine. They have been just sort of the backbone 
of our economic landscape for a very long time.
    I am going to ask you just about one tiny little program 
that we are concerned about. So the FIA, the Forest Inventory 
and Analysis program, is critically important to us because of 
the information it provides us, and right now we are obsessed 
with the winter moth in Maine and the damage that it is doing 
in coastal areas, the defoliation that started to occur, and 
then the other places where people have observed the winter 
moth and are just starting to see some of the effects. I know 
that we are able to access some biological controls, and that 
has been very useful to us, but we are concerned about what 
will happen in the future, and particularly I am concerned 
about the budget cuts in this area and whether we will be able 
to continue to access assistance on this, so it is just one 
tiny piece of a multitude of things that you do, but can you 
comment on that and what concerns you have about how we will be 
able to access that in the future.
    Mr. Tidwell. Thank you for your question. First, with FIA, 
the budget request will allow us to continue to be able to do 
all the surveys in all the states in the lower 48 and 
everywhere except interior Alaska. There is an increasing 
concern, especially in the East, to accelerate the pace and 
rereading the plots, and so we work very closely with the 
states that are able to contribute, to be able to accelerate 
that, and because of situations like with the winter moth, that 
is a good example of the need to probably get in there and do 
reread the plots a little more often than we currently do.

                        RESEARCH AND DEVELOPMENT

    The other key part of it is our research. We continue to 
have species come in like the winter moth. It is essential that 
we maintain our research to be able, ideally, to find a 
control, whether it is hopefully a biological control that will 
help slow that down, but then also to really understand these 
species, how they move about and what can we do on the 
landscape. Maine has incredible forests, and our role there is 
to help support through our research and development, through 
our state and private programs to work with the State to make 
sure that we are providing the science that they need and not 
only with control, biological controls, but also how we maybe 
need to manage the species a little different. There are 
different things we need to do silviculturally to address the 
stresses, whether it is winter moth or the next invasive we 
will have to deal with. This budget will maintain our research 
and development.
    It is also essential with the Opportunity, Growth, and 
Security Initiative that is outside of our discretionary 
budget, but it does provide, another $18 million for research 
that is so essential for us to be able to expand our research 
and not only to deal with invasives but also to make sure that 
we are continuing to understand the effects of the changing 
climate on our forests. I cannot stress how important it is. 
Our forests, right now sequester 14 percent of the 
CO<INF>2</INF> that is emitted every year. The majority of that 
is off of our private land forests. If we ever lost that 
forested landscape, imagine another 14 percent of 
CO<INF>2</INF> in the air in any given day, so that is just one 
of the benefits of our forests, and Maine does more than its 
fair share. Thank you for the work there.
    Ms. Pingree. Thank you very much for your answer, and I 
will continue to stay in touch on that particular issue. Thank 
you. And we will keep our forests working for the rest of New 
England and the East Coast.

                                RIM FIRE

    Mr. Calvert. Thank you.
    Chief, August last year, as you know, we had a catastrophic 
fire in California, the Rim Fire, which burned 256,000 acres 
including 154,000 acres in the Stanislaus National Forest. I 
understand that the burned area emergency response work to 
address imminent hazards had been completed, and efforts to 
accomplish NEPA for the salvage of hazard trees and burned 
timber and restoration activities had begun.
    I also understand that the Stanislaus National Forest has 
formed two interdisciplinary teams. One team will produce an 
environmental assessment for proposed hazard tree removal along 
194 miles of high-use forest road, administrative and 
recreational facilities, and areas adjacent to private 
infrastructure. The second team will produce an environmental 
impact statement regarding salvage and restoration. The 
objective of that project is to implement actions designed to 
reduce potential for future catastrophic fire by reducing the 
fuel loading created by the Rim Fire including capturing the 
perishable economic commodity value of the fire-killed trees 
through timber salvage in support of that objective.
    My question is, where is the Forest Service in the process 
of producing the necessary environmental assessment and the 
environmental impact statement?
    Mr. Tidwell. Mr. Chairman, for the first phase on the 
roadside, we will have our decision out in May, and I expect 
that the forest will be starting to implement that contract 
right after that. For the Environmental Impact Statement (EIS) 
for the larger restoration work, that EIS will be completed in 
August, and once again, I expect we will be able to move 
forward to issue a contract for removal of that biomass and 
doing that work within a few weeks after that.
    The forest has done a great job working with the 
collaborative that has been in place there. We have good 
support from the Council on Environmental Quality (CEQ) to be 
able to shorten the time frames that require the public comment 
that have saved months in our process, and then we are in 
position ready to use my authority so that as soon as a 
decision is made, the contracts can be let and we will deal 
with the objections while we are doing the work. So we are 
doing everything we can to expedite this work.
    Mr. Calvert. Approximately when do you think that salvage 
operation will begin?
    Mr. Tidwell. I expect the roadside salvage will start 
probably in late May or early June. The rest of the work--the 
decision will be out in August. They should be able to get the 
contracts going by mid to late September.

                               AIRTANKERS

    Mr. Calvert. Good. Another subject quickly. We talked about 
this new technology, PCADs, and you discussed the limitations 
you have with aircraft and trying to get aircraft online, 
certainly the C-130s, in the timeline that we have to put them 
onboard. But this PCAD technology of being able to air-drop 
suppression on these fires directly and supposedly, once we 
test this and make sure it works, allowing for immediate and 
accurate response and being able to use an assortment of 
aircraft in the inventory of the United States government, 
potentially being able to borrow, say, a C-17 or a C-130 
without having to accommodate for typical changes on the 
aircraft that would have to be necessary in order to use it for 
firefighting. So if in fact that works, I think it would help 
us have a lot more potential for additional aircraft and 
flexibility. So there could be some advantages. On paper, it is 
sounding like a cost-efficient alternative to retrofitting in 
fighting wildfires. So I would hope that the Forest Service 
will continue to research this PCAD system, and I would ask, do 
you think it is a viable option for use in fighting fires?
    Mr. Tidwell. We looked at that technology back in 2011 and 
had concerns about the accuracy of the retardant delivery and 
then also the concern about potential safety from the 
containers when they hit the ground. That has been a couple of 
years ago. So now if the technology has advanced or addressed 
some of the problems that we identified back in 2011, we would 
be more than glad to be able to take another look at it. We are 
always interested in using the latest technologies to improve 
our effectiveness.
    Mr. Calvert. Thank you.
    Ms. McCollum--oh, excuse me, Mr. Moran.
    Mr. Moran. Either way. Do you want to go?
    Ms. McCollum. No, that is fine.

                      URBAN AND COMMUNITY FORESTRY

    Mr. Moran. Chief, the Urban and Community Forest program 
has--I know you are aware, 83 percent of all Americans live in 
metropolitan areas, so their access to national forests is 
pretty limited, and yet this Urban and Community Forest program 
has been able to provide access to towns and cities across the 
country to advance forest management, even though they are much 
smaller forests we are talking about in many communities, and I 
do think it provides more political support for the Forest 
Service around the country than would otherwise be the case, 
whether it be restricted to western and rural areas where 
national forests predominate.
    So that is why we question the cut for $4.3 million. A 16 
percent cut is fairly significant one. Can you tell us what 
activities are going to be cut as a result of that reduction in 
the budget?
    Mr. Tidwell. There is no reduction in our Urban Community 
Forestry program. We have moved money that we have in the past 
into the Landscape Scale Restoration or Redesign part of our 
state and private programs. The concept there is to take 
several of the state and private programs and put them together 
so that the state foresters can do the same thing that we want 
to do, which is look at larger areas together. So the Urban and 
Community Forestry funding, the reduction that you indicated, 
has been moved to that program. We increased Landscape Scale 
Restoration by $9 million.
    The communities will still need to compete for it but I am 
confident that especially in our urban settings, because of 
some additional advantages they have, they probably have the 
competitive edge versus some of the states that have less 
population. But that is our approach so that state foresters 
can look at these larger landscapes together and have several 
different funds come together versus having to pick this 
program or this program.

               COLLABORATIVE FOREST LANDSCAPE RESTORATION

    Mr. Moran. Thanks for explaining that for the record. This 
Collaborative Forest Landscape Restoration program is something 
we are very pleased to see the authorization doubled, and I can 
understand the $60 million request but just know that we are 
very supportive of the program, however much you want to 
request and use of it because it has been very successful in 
terms of leveraging resources.

                    INTEGRATED RESOURCE RESTORATION

    The Integrated Resource Restoration program, this past year 
you are continuing a pilot program in three regions. Can you 
share with us a little information on how well the pilot 
programs are doing and compare it to the change in the way they 
were operating prior to the IRR approach?
    Mr. Tidwell. Yes. In fact, we will be sharing with the 
Committee shortly the independent review that we commissioned 
last year to take a look at what is going on, how well this is 
working, and what the review has found is that it has helped to 
take the separate different programs, whether it is wildlife, 
watersheds, fisheries, forest management, or road 
decommissioning effort and bring those programs together to 
increase more effective application. It has also reduced the 
administrative burden of having to deal with multiple budget 
line items, and we are increasing the integration, which helps 
us to do a better job.
    So the initial results are very positive, that this is a 
better way. Also, this is something that we did a couple 
decades ago when we had the authority to have majority of our 
budget in one budget line item. It was my personal experience 
at that time--I was a district ranger--that it was a lot easier 
to be able to look at the landscape, determine what work needs 
to be done and be able to do all of it together at the same 
time versus lining up. We had this amount of forest management, 
we had this amount of watershed, this amount of fisheries and 
had to design different levels of projects. So the initial 
results are very positive, and we appreciate the support to be 
able to have this pilot and to continue this pilot. I think 
this independent review--there is another phase that they need 
to complete--and once that is done, I think it will be time for 
us to really sit down and have the discussion about expanding 
this across the board.

                           TRAVEL MANAGEMENT

    Mr. Moran. Very good. Just one other question, if it is 
okay, Mr. Chairman?
    The budget justification on the success of the Legacy Roads 
and Trails program where you decommission old timber roads that 
are damaging forest resources you tied to the implementation of 
these forest travel management plans. You got more than 300,000 
miles of open roads in the national forest. It is six times as 
large as the interstate highway system. Give us an update on 
your success in implemented these travel management plans? And 
that is the last question I have.
    Mr. Tidwell. We completed 80 percent of the forest and 
grasslands that completed the travel management plan, which 
identifies the system of roads and motorized trails that we 
need to maintain to provide access to do our management work 
but then also for the public. So we still have another 20 
percent.
    Travel management is not about closing roads. It is about 
identifying the transportation system that we need to be able 
to manage forests and provide access. The forest Legacy Roads 
and Trails that you are referring to, it provides the funding 
to be able then to decommission the roads that are no longer 
needed and to reduce the sedimentation that is occurring off of 
these roads. As you pointed out, we have a larger road system 
that we need, but at the same time, we need to be able to make 
sure we have the right system in place, but for those roads 
that are no longer needed or causing a lot of degradation, they 
need to be dealt with. And so between the two, it helps us to 
be able to work with the public to identify the system we need 
and then to be able to move forward and decommission roads that 
are no longer necessary.
    Mr. Moran. Good. Well, that is what we want you to do: 
identify the best roads and then close off those that are not 
being used to preserve the forest. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Calvert. Thank you.
    Mr. Stewart.

                              BARK BEETLE

    Mr. Stewart. Thank you, Mr. Chairman.
    Chief, thank you for being here with us. Mr. Dixon, your 
job has been easy so far today. We appreciate your being with 
us as well. A couple comments if I could and then questions.
    Chief, just as an aside, I used to be CEO of a company 
calling the Shipley Group. We trained probably half of your 
employees on environmental policy and NEPA policy. I am quite 
familiar with the good work that the Forest Service does. Like 
any agency, it is not perfect. There are some things that we 
are concerned about and would like to see improvement. If I 
could offer you a sincere compliment and the good experience 
that we have. I noticed in your bio, you were the regional 
forester in the northern region and you talked about 
collaborative agreements, especially some community-based 
collaborative agreements. We have some issues with endangered 
species in the southern part of my district. I represent Utah, 
and we wrap around west and go all the way down south, 
particular with the prairie dog, and the commissioners down 
there and other local leaders and some citizens tell me they 
have very good response working with the Forest Service, that 
they have had an actual collaboration. They are grateful for 
that, as am I. I wish I could say the same thing of some of the 
other agencies, BLM in particular, which has not been helpful, 
and in fact, actually quite unhelpful in our efforts there, but 
they do not feel that way about the Forest Service and so we 
are grateful for that.
    Harking back again in my own experience, I was an Air Force 
pilot for a lot of years, and I flew helicopters for a while, 
and I remember, I was stationed in Spokane and flying all over 
the Northwest. We would do rescues, and you spend a lot of time 
in the forest pulling people who had been injured or whatever, 
and at the time I would notice a difference in the forest, and 
some appeared just different. I did not know what it was, and I 
know now that some of them were very healthy and some of them 
were not, and that has been exaggerated in the years since, and 
what I realize now is that many of the healthy forests were 
state-managed and some of the unhealthy forests were federally-
managed. Again, going to my own district now, you go to 
southern Utah and you look at some of those forests and you 
just want to cry when you see what the bark beetle has done to 
them, and it is frustrating, and frankly, to make the point 
that has been made already, if we are worried about fire 
management, then we have to consider the bark beetle and what 
that has done to some of these forests. I mean, they are a 
nuclear bomb waiting to go off, should lightning strike or 
another source of fire. Help me understand what we can do about 
that, what your intentions are on that.
    Mr. Tidwell. Well, Congressman, first of all, thank you for 
recognizing the good work that our folks are doing, and I also 
thank you for all the training that you provided. I have 
personally attended some of those courses myself. So thank you 
for that.
    To answer your question, it is what we have been focused on 
here for about the last four years, to increase the restoration 
of these forests. We recognize that there is 65 to 80 million 
acres of our national forests that need some form of 
restoration to restore their forest health, restore the 
resiliency so they can withstand fires, insect, disease, 
drought, et cetera. So that is what we have been working on the 
last few years. We have made continued steady progress to 
increase the number of acres that are treated each year, to 
increase the outputs that are coming off of those lands.
    Your recognition of collaboration has been the key. We used 
to spend a lot of time in this country having a lot of 
controversial debate, criticism about how forests should be 
managed. Today in more and more places in this country, there 
is agreement about what needs to be done, and it is through 
these collaborative efforts that we have been able to expand 
our work at the same time, where budgets have been flat and 
what has happening to our staffing. Today, compared to 12 years 
ago, we have 49 percent fewer foresters in the Forest Service. 
All of our national forest system staff is down 35 percent, and 
our folks are doing the same level of production as we were 10 
years ago, and they do it through collaboration, improved 
effectiveness using better job with National Environmental 
Policy Act (NEPA) to reduce that, but I can tell you that I 
think we have hit the max, and that is one of the reasons it is 
so important about this budget request. It does ask for some 
additional funding in these key program areas so that we can 
continue to accelerate restoring these forests and that is what 
we need to do. So thank you.

                             TIMBER SALVAGE

    Mr. Stewart. We agree that the bark beetle is a concern in 
the West particularly, I am sure.
    A concern that is kind of tangential to that is that there 
is salvable timber in many of these cases, and because of 
interest groups who--and I have seen this again and again, that 
they come in, they file suit. They know that they can delay 
that activity for a number of years until that timber no longer 
has any value. Do you share that concern and do you think we 
can make some progress on that?
    Mr. Tidwell. We are making progress. I go back to my time 
when I was a regional forester in the northern region following 
the fires in 2007, we were able to implement every one of our 
salvage projects. We were sued on one, but by the time it was 
addressed in court, we had completed the work.
    The Chairman was talking about the large Rim Fire in 
California, and the idea that we are going to be able to move 
forward to decision to salvage that material less than a year 
after the smoke left, it shows the difference in collaboration.

                         LAND MANAGEMENT PLANS

    Mr. Stewart. I agree. That is great progress.
    Mr. Chairman, if I could, just one more minute, and that is 
a concern I have with forest management plans. Many of them are 
outdated. Again, you see the same effort where groups will come 
in in, I believe, a disruptive effort. They will sue. Many of 
these NGOs, in my opinion, are using these as a vehicle for 
raising money and raising their profile. Are we going to see 
some progress, do you think, on implementing updated forest 
management plans?
    Mr. Tidwell. Yes. We are moving forward already with our 
new planning rule that will accelerate the process and do a 
better job to require collaboration up front. We also have a 
Federal Advisory Committee Act (FACA) committee that is helping 
us to develop the directives, and I can tell you that group has 
done an outstanding job, very diverse interests. All interests 
are represented on that FACA committee but they have been able 
to find ways to really bridge the gap between the differences 
to come up with the recommendations that are going to help us 
to have a better set of directives. The directives are 
basically the how-to. The rule is the rule, and those 
directives are essential, but we are already seeing that 
progress is being made and in 2014 we will have 27 forests that 
are under forest plan revision.
    Mr. Stewart. Okay. Good. Thank you, Chief.
    Mr. Chairman, I yield.
    Mr. Calvert. Thank you.
    Ms. McCollum.

                         INTERNATIONAL FORESTRY

    Ms. McCollum. Thank you.
    There is lots to talk about, but I am going to go back to 
one of the topics that Mr. Moran was talking about in a second, 
but first I want to talk about international forestry. It is no 
surprise how I feel about the program, and I want to thank the 
Chairman for hearing me out on this.
    The international forestry protects American interests 
abroad, and in fact, without it, I never would have voted for 
the Peru trade agreement, and that was one of the reasons I 
voted for it was to show on good faith that when you really sit 
down and try to address environmental concerns and work it out 
in a country partnership, we can have free and fair trade. So 
that was critical, and as we have more and more trade 
agreements, especially in Latin America, forestry projects are 
going to be part of it.
    The other thing that we do is, we export working with our 
embassies the best soft power in the world. It is a win-win for 
the world. It is a win-win in addressing climate change. It is 
a win-win addressing deforestation. It is a win-win in 
addressing water shortages which, which came first, the chicken 
or the egg, on deforestation and what happens with water quite 
often.
    For every dollar we invest, we leverage $3 from other 
federal agencies and for nonprofit organizations, and I have to 
tell you, our capital is being the United States government. We 
are here to work with you in partnership with the international 
forestry. You cannot do much better than what perhaps the parks 
or USGS does when they work internationally.
    So Mr. Chairman, thank you for restoring the funds but here 
we go again. So I am hearing that OMB has a problem with this, 
I am prepared to talk to President Obama one on one but I just 
want to let you know that I am going to work really hard to 
maintain this program, and it is not about personalities in 
here. I know you are making tough decisions and tough choices 
working with the Administration, but if we let this program go, 
we are not going to be able to pick up other future in trade 
like mine possibly on a lot of these things, and we are going 
to let something go that we are never going to be able to 
reconstitute again but it is huge soft power and also speaks to 
our working in partnership with climate change and forest 
restoration. So a lot of the other things that we are doing 
internationally, whether it is feed the future or whatever, 
indirectly you play a role in it, so that is more of an 
editorial comment, because your number is your number, and I am 
not going to put you on the spot.

                            INVASIVE SPECIES

    But I want to go back to this urban forestry and tie it in 
with the invasive species. We have bark beetles and eventually 
everything likes to come to Minnesota and eat our trees, and 
when they do, they create unhealthy trees. They create fuel in 
future. So one of the things that I would like to understand 
better, there are things in the Ag budget that affect some of 
the research and some of the work that you do, and I am 
wondering if when budget time comes for where those places 
intersect if you are having a conversation with Ag on it 
because if you have done a cut and Ag has done a cut, then it 
is a bigger cut than maybe people of the committee realize.

                      URBAN AND COMMUNITY FORESTRY

    The other thing I wanted to talk about is, what is going on 
with our urban forests right now. I understand you have this 
pilot. I would like to see a breakdown on this pilot. Did you 
work with the League of Cities or the National Council of State 
Legislators or the Governors Association or other organizations 
when you came up with this pilot.
    Mr. Tidwell. I have been working with the State Foresters.
    Ms. McCollum. You have been working with the State 
Foresters? Okay. In all 50 states?
    Mr. Tidwell. Yes.
    Ms. McCollum. Okay.
    Mr. Tidwell. First of all, I appreciate your concern in 
understanding the importance of our urban forests, and as you 
mentioned, so many of our pests, the invasives, they often come 
in through the ports. They get into urban forests and then they 
spread through the forests of the country, and so that is why 
it is so important for us to care for our urban forests, not 
only to reduce infestations but at the same time we have over 
100 million acres of urban forests in the country. They are 
doing a good job to help clean the air, improve the quality of 
life, increase the property values, et cetera. So there is a 
long list of benefits from those forests.
    We do work very closely with our other agencies in the 
Department of Agriculture, and especially with the Animal and 
Plant Health Inspection Service (APHIS), who has the lead on 
many of these species, these invasives, as far as basically 
eradicating that. We provide the research for how to do things 
and the technology, so we work very closely with them.
    In the budget request, there are some areas that we have 
had to reduce our program request just with the recognition of 
deficit reduction that needs to be dealt with, and so there are 
various programs that we have had to reduce but at the same 
time we are trying to coordinate everything as well as we can 
to make sure that the Federal government, and the Federal 
agencies are working very closely together.
    Your concern about the League of Cities is probably 
something we need to do a better job to be able to reach out to 
them to make sure that as we are looking at a pilot, that they 
understand the benefits of that, and once again, it is a pilot. 
It is something that based on our past experience, we think it 
will work. We will provide you the crosswalk that you have 
asked for, and I will be glad to do additional briefings about 
just how this would play out and how the urban part of this 
landscape restoration and redesign would work.
    Ms. McCollum. So I would like to see a breakdown about how 
much, Minneapolis-St. Paul, Milwaukee, Salt Lake City, other 
urban areas, what they are really going to be looking at doing 
because as you said, this stuff transfers through. I was just 
talking to Ms. Pingree, and I said now I need to learn about 
the winter moth soon to visit Minnesota. Why? Because of the 
railcars that are going along the northern border, and that is 
how the Asian ash borer really kind of took off. We found out 
when we did some research on that, there were hotspots with 
that. So I really want to see a breakdown about how this is 
working.
    And then the other thing about pilots, and I am all for 
pilots, but this is really a lot of money for a pilot project, 
so I would be curious how the pilots were selected too.
    I would like to close with a comment. One is, when I was on 
the agriculture environmental committee when I was in 
Minnesota, we worked to establish a forestry council. I will 
tell you, they are wonderful and it really opened up the eyes. 
People really listened to each other. It really changed the 
tone and the way timber sales and everything were conducted in 
Minnesota. So they can work miracles, and if we need to put 
more funding into doing that in some of the western states or 
something, to launch that, I would be in favor of that. What 
did you say, 49 percent reduction in foresters?
    Mr. Tidwell. Yes.
    Ms. McCollum. Well, I have two foresters in my family. They 
are both girls, my nieces, and they just changed the way the 
University of Minnesota calls its forestry department because 
people were not getting hired. There were not jobs there for 
them. So I think we not only have a potential of seeing what 
our forestry service is experiencing, our State forestry 
services are experiencing with cuts but eventually there is 
going to be a huge labor shortage because as people are 
retiring out, we are not putting the graduates into the field, 
and so that is something that we need to think about too if we 
are really going to manage our lands.
    Thank you, Mr. Chairman.
    Mr. Calvert. Thank you.
    Ms. Herrera Beutler.

                             TIMBER HARVEST

    Ms. Herrera Beutler. Thank you, Mr. Chairman.
    Thank you, Chief Tidwell. I do not think I have seen you 
since you came out and visited some of our forests. I really 
appreciated that, and I appreciate the time you took to come 
see some of the challenges.
    Every time I sit through a Forest Service hearing, I get 
excited and frustrated because I feel like we have got a 
partial solution. Ms. McCollum was talking about the 49 percent 
reduction in foresters. Part of the challenge is, we are not 
harvesting anything. That is part of what they did to your 
budget, right? We have talked about this. You know, I hear all 
this talk about bark beetle infestation, disease and invasive 
species or catastrophic wildfires, and yes, I think we can 
definitely acknowledge there are more people moving into 
certain areas, that climate is changing, it is evolving, but we 
are also not actively managing our forests the way we used to, 
and to not acknowledge that is a huge part of the problem.
    You have made some progress on this. Mr. Stewart was 
talking about the lawsuits, and I recognize they are a huge 
piece of it. In the Northwest, we operate under the Northwest 
Forest Plan, which means we are allowed to harvest about 62 
million board feet per year out of the Gifford Pinchot. I do 
not have this year's numbers. I think we got about 16 million 
out of it, and we got sued for that. So the fact that we are 
not going in and doing what we are supposed to do under the 
current law means there is more fuel, and there is more 
foliage. You were talking about CO<INF>2</INF> emissions. When 
a tree falls and then rots, it begins to let off methane, which 
is 24 times more potent than CO<INF>2</INF>. So for us to go in 
and harvest like what you are trying to do with the Rim Fire 
and put things on a fast track, not break any rules, you can 
follow all of the rules and the laws and NEPA and SEPA and so 
on and so forth. The problem that we have is when you finally 
get through all that, you have checked all the boxes, you have 
dotted all the i's, and then someone says we are going to sue, 
and then we settle. I think that is probably discouraging to 
the morale of your foresters, probably to the folks who work on 
these collaboratives, who have put all this effort and good 
faith in, and we need a change. I recognize not all these 
policy decisions are driven by you. The fact that OMB told 
Committee staff last year that they do not believe the fuel 
buildup is contributing to fires, and it goes on to name global 
warming and expansion of timber communities as the main causes 
of fires burning faster and hotter accurately displays some of 
the challenges you are up against.
    Having said all that, this is one of my number one most 
important issues. I have so many blue-collar communities who 
are just dying. The forests are dying. You can walk, like you 
did, from a State forestland to a Federal forestland and it is 
just night and day. So we are hurting the species, we are 
hurting the forests and we are hurting the families that depend 
on the forest. We need your help. So as you can imagine, timber 
targets on Gifford Pinchot, I was not super happy about the 
2014 targets that came out. They were put out before the 
omnibus. Should we expect a change based on the omnibus? Are 
you going to set that a little higher?
    Mr. Tidwell. Well, Congresswoman, first of all, thank you 
for taking the time to be with me and our staff and folks out 
in the field. I think those are such productive times to be 
able to have that type of discussion. You know, the Gifford 
Pinchot is one of our better performing forests as far as being 
able to get work done. Last year, with as tough a year as we 
have had with sequester, they exceeded their target. For fiscal 
year 2014, we estimate our targets based on the amount of 
funding that we receive, and we have kind of a set amount, 
costs X amount to produce 1,000 board feet off of every forest. 
We know those are the costs. So we just do a quick analysis 
based on X amount per 1,000 board feet, how much budget do we 
receive. Then the forest will look at their program of work, 
and it all depends on how things line up as to when decisions 
can come out, but it is a very high-performing forest.
    Ms. Herrera Beutler. When you say high performing, you mean 
in terms of timber sales?
    Mr. Tidwell. Yes.
    Ms. Herrera Beutler. Compared to? I heard the exact 
opposite, and we are not hitting anywhere near the 62 million 
under the Clinton Forest Plan. Literally, I think we are under 
10 million.
    Mr. Tidwell. Five hundred million dollars less over 10 
years, 49 percent staff in just foresters, 35 percent fewer 
Forest Service employees doing the same amount of work as we 
were doing 10, 12 years ago.
    Ms. Herrera Beutler. So you are hitting the same target?
    Mr. Tidwell. To me, that is extreme high performance. Our 
employees are overtaxed. You see it in the employee viewpoint 
survey. What I hear from our folks constantly is that you keep 
asking us to do more with less.
    Ms. Herrera Beutler. I appreciate that. I appreciate that. 
What I am talking about are timber harvests and the amounts.
    Mr. Tidwell. They have exceeded their targets. Their 
performance has continued to go up year after year.
    Ms. Herrera Beutler. We have been harvesting more timber 
year over year for the last 10 years?
    Mr. Tidwell. Well.
    Ms. Herrera Beutler. We have hit the 62 million board feet 
that we were supposed to hit?
    Mr. Tidwell. No, we are not funded for that.
    Ms. Herrera Beutler. Okay. That is what I am getting at. 
That brings in more funds, and that means that the work your 
folks are doing is not wasted work. I mean, they have to be 
frustrated when they work with the collaboratives, they do 
amazing work on the ground with my folks. I know it. But when 
they get sued, and then their work is for naught, I would 
assume that morale is pretty low.
    Mr. Tidwell. There is a high level of frustration with our 
employees because of the need to do more work. I have led out 
on that to identify how much work needs to be done. You see it 
in our forests. There is no question about that. But I will 
tell you, they are doing a tremendous job with the resources 
that they have. On that forest, there is less litigation there 
than in many other places because of the collaborative work 
that they are doing there and to be able to implement projects. 
So when I talk about a high-performing unit, it is about what 
they are actually getting done with the resources that they 
have.
    When we were out there on the ground that time, Ted 
Stubblefield, the previous forest supervisor, was there, and in 
the time he was there they were able to do a lot more work. But 
the thing that Ted shared with all of us, he said there is no 
way I can manage this forest with the budget that I have. These 
have been the consequences. I understand the reductions that we 
have had to make. I understand the deficit reductions. So we 
are doing everything we can to do that. But I think we have to 
come to the point to realize there is only so much that can get 
done with the staffing that we have.
    Ms. Herrera Beutler. Absolutely, which is I why I encourage 
you to utilize one way to bring money into the budget, which is 
to selectively harvest some of the timber, which will reduce 
the forest fire budget, reduce the invasive species because you 
are going to--you are heading off the problems at the pass. In 
Region 6, one of the challenges we are seeing is some forests 
are getting more than others because you make those decisions 
here. One of the things we talked about, and Ted supported, is 
doing some sort of a demonstration project that allowed you to 
harvest in an area and return some of the funds to that area 
for restoration work.
    I recognize you have less funds. I mean, if you look at the 
Forest Service budget over the last 25 years, it has been 
straight down, but that straight down correlates with the 
amount of actual harvest you do in the forest, which is the 
purpose or was the purpose of the Forest Service.
    Ms. McCollum. Mr. Chairman.
    Ms. Herrera Beutler. I am not saying that your people do 
not do good work. I am saying we need to work together to make 
sure that some of these missions are fulfilled, and under 
current law, under the Clinton Forest Plan, hitting some of 
those timber targets.
    Ms. McCollum. Mr. Chairman, on this point, if the 
gentlewoman would yield, I am trying to understand----
    Mr. Calvert. If the gentlelady would yield?
    Ms. Herrera Beutler. Yes.

                              TIMBER SALES

    Ms. McCollum. I am trying to understand some of the budget 
correlations, so Mr. Tidwell, when you sell out, you are not 
making--a large enough profit where you can reinvest and rehire 
more staff on timber sales, are you, because of the way it is 
charged out and what happens in the budget? Are you even 
breaking even on the timber sales?
    Mr. Tidwell. It would depend on a sale but we have never, 
ever been in the business to make money. We are there to manage 
the national forests for how the public wants those managed 
under multiple use, and so when we do a timber sale and there 
are revenues that are generated through stewardship 
contracting, we are able to use those receipts to be able to 
get more work done, create more jobs. Twenty-five percent of 
the receipts go to the Treasury for Secure Rural Schools. There 
is a certain portion that if it is under a timber sale 
contract, the money will go into the Knutson-Vandenberg plan or 
the Bush Disposal plan to be able to do some restoration work 
through that.
    But at especially today's prices, we are still in a very 
depressed market, and I think nationally, our base rates are 
$57 a thousand. That is like it was back in the 1970s. So these 
sales, and on your forest, it is bringing a little more than 
that. It is probably closer to maybe 80 because of the quality 
of the material, and the road system that is in place, it is 
more efficient. This needs to be about the work that needs to 
be done on the forests. I think that the majority of the 
controversy that we have dealt with when it comes to forest 
management has been driven by, when someone thinks that we are 
managing the national forests for individual profit versus what 
is the best thing for society versus what is the best thing for 
the land, that is when we run into trouble.
    Ms. Herrera Beutler. I understand that. I am not saying 
commercially harvest our forest. I am not saying undo the 
Clinton Forest Plan. I am not saying break current law. I am 
not going there at all. What you just said is true. If we are 
able to harvest some more of that timber, which is healthy for 
the species, it is healthy for the trees, it is healthy for us, 
we want to recreate there because we are not afraid of the--I 
mean, it is a win-win-win, and my dying communities who can 
help manage these things, the schools that are reliant on them, 
I mean, it boggles my mind that we have a challenge with this 
piece. We are not talking about commercially harvesting the 
forest. Nobody is advocating that. I am talking about 
protecting our federal forests. I do not want a burn to come 
through and wipe out what is part of our heritage in the 
Northwest.
    So regenerating some of that revenue is not for commercial 
profit. It is so that you can hire more foresters who can do 
more work on the forest. I am not saying we are going to use 
that money to go, I do not know, build a monument to ourselves. 
I want it to go back into the forest. I want us to take care of 
the forest.
    So with that, I think my point is made. Thank you, Mr. 
Chairman.
    Mr. Calvert. Thank you.
    Mr. Moran.

                         FOREST SERVICE MISSION

    Mr. Moran. Thank you, Mr. Chairman. I do not have any 
further questions, but I wanted to point out that--well, 
actually, I do have one other question. While harvesting is 
obviously an integral part of forest management, just for the 
record, the Forest Service was actually initially established 
to protect clean sources of water. That was the original 
mission because the haphazard timber process was blocking 
streams and so on and the people downriver were not getting 
clean water. Is that not accurate in terms of the original 
mission of the Forest Service, to protect the sources of clean 
water in downriver communities?
    Mr. Tidwell. Originally back in 1905, it was to provide 
clean, abundant flows of water and a sustainable flow of timber 
off the land.

                      URBAN AND COMMUNITY FORESTRY

    Mr. Moran. Thank you. And just one other thing I wanted to 
underscore, Mr. Chairman. You know, granted, we have very 
different constituencies, and I have no forests in my district, 
but we have people who are desperate to be able to get out into 
open space, so that is why we continue to underscore this urban 
and community forestry. You say that the reason for the cut is 
that you have more money in landscape-scale restoration but 
there is no word in that LSR budget about using any of those 
funds in urban and metropolitan areas. So again, there is 
reason for us to be concerned. We take it on your assurance 
that that is the intent but I have a suspicion that it is going 
to be real tough to get that money put into metropolitan areas.
    And with that, Mr. Chairman, I want to thank Mr. Tidwell 
for his extraordinary leadership. He comes from the ranks of 
the Forest Service, and he has done a great job, and Mr. Dixon, 
who did not have an opportunity to show all the stuff he knows 
today also serves all of us very well. Thank you, Mr. Chairman.
    Mr. Calvert. Thank you. If there are no other questions, I 
will be closing up.
    Ms. McCollum, do you have any other comments or questions?

                      LANDSCAPE SCALE RESTORATION

    Ms. McCollum. Just that I look forward to seeing a 
breakdown in the pilots on this new landscape program as well 
as we are going to look at the Ag budget for research on 
insects and then compare it. I think we need to do a melding of 
that and seeing if we need to watch what is going on in the Ag 
budget in order to make the money that they have work 
effectively.
    Thank you, Mr. Chair.
    Mr. Calvert. Duly noted.

                       SUPPRESSION CAP ADJUSTMENT

    Well, Chief, I want to thank you for coming. Obviously some 
passions in the West are hot as fire, and certainly in 
California, certainly in the States of Washington, Oregon, 
Idaho, many of the states, Utah, where these forests are 
located. There has been a lot of change in the last 20, 25 
years when I first came here, but I know you are doing the best 
with the resources you have, and I look forward as we move 
through this process, I am hopeful that Mr. Simpson's 
legislation is going to pass because under the budget rules, 
you are probably aware, that we are subject to a point of 
order. I would encourage you to talk to Mr. Ryan and to Ms. 
Murray, the respective chairs of the Budget Committees in the 
House and the Senate, about the need to get a change in how we 
budget for wildfire.
    I have some other questions regarding overhead costs and 
program costs and things like that that I will submit for the 
record and allow you to get back to work.
    With that, this hearing is adjourned.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT


                                           Thursday, April 3, 2014.

               NATIONAL PARK SERVICE 2015 BUDGET REQUEST

                               WITNESSES

JONATHAN JARVIS, DIRECTOR
BRUCE SHEAFFER, COMPTROLLER

                  Opening Remarks of Chairman Calvert

    Mr. Calvert. The Committee will come to order. Ranking 
Member Moran is stuck probably on the bridge. I live here on 
the Hill so I do not have that problem, but he will be here 
shortly.
    Mr. Simpson. Some of us cannot afford the Hill.
    Mr. Calvert. Okay. Moving on.
    Director Jarvis, I want to thank you and your colleagues 
for being with us today to discuss the important work of the 
National Park Service and your priorities for fiscal year 2015. 
It is nice to see our friends, Bruce Sheaffer, and a member of 
our Subcommittee family, Grace Stephens, with you today.
    As you know, our Subcommittee worked very hard to restore 
funding to a number of critical areas within the Park Service 
budget in the enacted fiscal year 2014 appropriations bill. We 
were particularly focused on reversing some of the detrimental 
effects of sequestration on the operations accounts. I am 
pleased that we were ultimately able to restore funding to 
fiscal year 2012 levels. We fully intend to follow the regular 
order process this year and have a funding bill enacted for 
fiscal year 2015.
    Overall, the proposed funding level in your fiscal year 
2015 budget request is $2.6 billion, which is $55 million above 
the fiscal year 14 enacted level. The largest increase, about 
$40 million in discretionary funding, is proposed for efforts 
relating to the Centennial of the National Park Service. We 
look forward to hearing in some detail the Service's plans for 
celebrating its 100th anniversary and the role Park Service 
partners and the private sector will play in this effort. One 
proposal related to the Centennial worth noting is the revival 
of the Bush-era Centennial Challenge, a concept which proposes 
to leverage $10 million in federal dollars with private sector 
dollars through a one-to-one matching of funds.
    Ironically, the largest funding increases proposed for the 
Park Service, well over $1 billion, through proposed changes in 
mandatory programs outside of the jurisdiction of this 
Committee. It appears that the vast majority of the 
Administration's request to address the deferred maintenance 
backlog and to fund a larger piece of the Centennial requires 
legislation by the authorizing committees of jurisdiction, not 
the Appropriations Committee.
    Another issue addressed in the budget request is the 
authority the Park Service uses under the Federal Lands 
Recreation Enhancement Act--FLREA--to levy entrance fees. This 
authority, which is set to expire at the end of this calendar 
year, is critical to providing revenue to our national parks. 
It is also important to the Forest Service and other Department 
of the Interior land management bureaus. We hope you will shed 
some light today on the importance of this authority to your 
overall mission, and make a strong case for why the authority 
should be extended.
    Like any number of my colleagues on the Committee, I look 
forward to seeing the remaining scaffolding on the Washington 
Monument come down in the coming weeks and having this famous 
landmark reopen to the public. This subcommittee is very proud 
to have played a role in providing $7.5 million of the $15 
million required to repair the damage from the earthquake 
several years ago with the remaining funds provided by 
philanthropist David Rubenstein. Members of the Subcommittee 
and our staff look forward to visiting the Washington Monument 
when it reopens in mid-May.
    Mr. Calvert. Director Jarvis, we look forward to hearing 
from you on these and other issues but first, I will yield to 
my friend, Mr. Moran, but I don't know if Betty wants to make a 
few comments.
    Ms. McCollum. Yes.
    Mr. Calvert. I recognize Ms. McCollum.

                    Opening Remarks of Ms. McCollum

    Ms. McCollum. Thank you, Mr. Chair.
    We are very pleased to have you here today. I am glad that 
the Chairman brought up sequestration because I want to take a 
second and thank all the people who work in the Park Service 
but especially those who had direct contact. I was up at 
Voyageurs when sequestration was going on, and the way that the 
Park Service handled it, the comments that were made in 
International Falls and other places as they were afraid things 
weren't going to go well for them. The Park Service is to be 
commended for just doing everything that they could to continue 
to make sure that visitors had good experiences keeping some of 
the facilities open for the boaters when they came in at 
Voyageurs. I am sure you did that in other parks as well to the 
best of your ability. So I just want to thank you and all the 
federal employees but the Park Service employees that I 
interacted with too.
    I am very excited about hearing more about the Centennial. 
I had the honor and the privilege of being at Gettysburg, 
having family that fought with the Pennsylvania Regiment but 
representing the Minnesota Regiment. When I was out there, the 
work that you did on moving staff around at Gettysburg because 
of a high visitor turnout.
    So thank you and all the people who work in the Park 
Service for all the flexibility that you have shown this 
committee and our Nation during the sequestration shutdown, and 
I share the Chair's optimistic view that we will not go back 
there again.
    Mr. Calvert. From your lips to God's ear.
    My family was on the opposite side in Gettysburg, but we 
were all there.
    Ms. McCollum. I hope we did not get any of you.
    Mr. Calvert. With that, I am happy to recognize the 
Director.

                   Opening Remarks of Director Jarvis

    Mr. Jarvis. Thank you, Mr. Chairman and members of the 
Subcommittee, and thanks for this opportunity to appear before 
you for the 2015 budget request for the National Park Service. 
I would like to summarize my testimony and submit the entire 
statement for the record.
    First, I would really like to express my deep gratitude for 
your support for the work we do, being stewards of the Nation's 
treasured resources. We look forward to working with you, and 
particularly as we lead up to the Centennial in 2016 and really 
the beginning of our second century of stewardship and public 
engagement.
    The roots of the National Park Service lie in the parks' 
majestic, often isolated national wonders and in places that 
exemplify our cultural heritage, but our scope now extends to 
places really difficult to imagine 100 years ago, into urban 
centers and rural landscapes, deep within oceans and across 
night skies. The 100th anniversary will draw the attention of 
the Nation and the world, and we must be prepared to welcome 
new and returning visitors excited to learn, explore and be 
inspired by the national parks.
    In partnership with the National Park Foundation, our 
official nonprofit partner, we have embarked on a campaign to 
increase the public awareness of the opportunity presented by 
these extraordinary natural and cultural resources.
    The highlight of the 2015 request is the Centennial 
Initiative, which includes a $40 million increase in 
discretionary funding and an investment in the national park 
system that includes $4 million to engage a new generation 
through the 21st Century Conservation Service Corps, $2 million 
to provide opportunities for increased volunteerism, $16 
million to invest in the rehab of high-priority assets such as 
visitor use facilities, historic structures and trails, and $8 
million to hire seasonal employees to support visitor 
experience. Seasonals are really the face of the national parks 
to our visitors. They provide ranger talks and guided hikes. 
They operate visitor centers, maintain trails, keep visitors, 
employees and resources safe. The remaining $10 million will 
reinvigorate, as you indicated, the successful Centennial 
Challenge program where partners match federal dollars one to 
one to leverage our ability to protect resources and tell 
America's stories.
    In addition to the discretionary request, the Centennial 
Initiative includes $400 million annually in mandatory funding 
including $100 million for the Centennial Challenge, $200 
million for the Second Century Infrastructure Investment to 
address deferred maintenance and $100 million in a multiagency 
competitive Centennial Land Management Investment Fund. 
Separately, the Administration's 2015 Opportunity, Growth, and 
Security Initiative includes $100 million for the Second 
Century Infrastructure Investment and $100 million for the 
Centennial Land Management Investment Fund.
    Overall, the budget would restore 1,700, or 20 percent, of 
the high-priority park assets to good condition, create 
thousands of jobs, provide more than 10,000 work and training 
opportunities to young people, and engage more than 265,000 
volunteers in support of public lands.
    The results of a new economic report highlight the value of 
investing in the national parks. In 2012, the parks received 
more than 282 million visits. Visitor spending generated more 
than $26 billion in output, which supported more than 243,000 
jobs. Every dollar invested by taxpayers in the national park 
system returns $10 to the U.S. economy.
    The operations request also includes a $2 million increase 
for seasonals to support visitor services at new parks like 
Cesar Chavez National Monument and new responsibilities like 
the new visitor center and museum at Fort Davis National 
Historic Site.
    The request includes a $1 million increase for line item 
construction to address the most critical health and safety 
improvements. The Administration again proposes a reduction in 
the National Heritage Area program, which supports the 
directive in the 2010 Interior Appropriations Act for 
established heritage areas to become more self-sufficient.
    The budget includes an increase of $6 million for federal 
land acquisition projects to acquire more than 4,400 high-
priority acres in authorized parks.
    The request also includes a $192 million mandatory proposal 
for NPS land acquisition and recreation grants for the LWCF 
including $115 million for federal land acquisition projects, 
$52 million for state conservation, and $25 million for UPARR, 
the Urban Park Recreation and Recovery program.
    The remainder of the 2015 request is largely flat from 2014 
plus fixed costs.
    As we prepare for our second century, the National Park 
Service must recommit to exemplary stewardship and public 
engagement for our national parks. We must promote the 
contributions of the national parks and our community 
assistance programs to create jobs, strengthen local 
communities and support ecosystem services. We must 
strategically integrate our mission across parks and programs 
and use their collective power to leverage resources and expand 
our contributions to society.
    Mr. Chairman, thank you. That concludes my statement. I 
will be pleased to answer any questions.
    [The statement of Jonathan Jarvis follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT


    Mr. Calvert. I thank the gentleman. In the interest of 
allowing Chairman Simpson to start his Energy and Water 
Committee, I am going to recognize him for the first round of 
questions.
    Mr. Simpson. Thank you, Chairman, and I appreciate that 
courtesy from you.
    I appreciated your testimony. I appreciated our 
conversation the other day. Just for the record, what is the 
first unit of the national parks?
    Mr. Jarvis. Yellowstone.
    Mr. Simpson. Thank you. I just like to throw that out there 
for everyone to know.
    Mr. Jarvis. There is some debate between California and----

                       NATIONAL MALL RESTORATION

    Mr. Simpson. I know, but that was a State thing. That is 
okay. Every time I go to Yellowstone, I say man, this is the 
most unique and beautiful park, and I go to Glacier and say no, 
this one is, and then I go to Yosemite and say no, this one is. 
They are beautiful places, and you have a great responsibility 
trusted with these jewels of America, so I appreciate the job 
that you do. I am concerned. I spoke with you the other day 
about the backlog in maintenance that we have to do. About half 
of that is in roads and in other systems that need to be 
addressed, and it is something that we need to start looking 
at.
    This is not so much a question but a statement that I hope 
is heard beyond the walls of this room. We are putting hundreds 
of millions of dollars into fixing up America's front yard. 
That is the National Mall. We are replanting the grass. We are 
actually putting in sprinkler systems. Imagine that. Things 
that we can actually maintain. A large complaint I hear from 
people from Idaho that come out here and see the Chamber of 
Commerce pictures of the Mall and then walk down it, or have in 
the past, and come into my office and say gee, why do you guys 
not maintain that thing? You have crabgrass going all the way 
down the Mall and it is, you know, rock hard.
    We are putting money into saving that. There are no 
sacrifice zones on the National Mall. We love the National Mall 
to death, unfortunately. There are a lot of activities, and 
everybody wants to do them on the National Mall. We can't 
overuse it. We have to be responsible for it, and while there 
are a lot of activities that I support that are important and 
that people love, we have to take care of this place. I am not 
going to be a part of spending millions and millions of dollars 
to restore this only to see it sacrificed 20 years from now 
knowing that we have not achieved what we are trying to 
achieve. So I want to work with the Chairman and Mr. Moran to 
try to solve the challenges that we have with other 
organizations that want to use the Mall, because historically 
they have done it. We all know who we are talking about, and it 
is not just the Smithsonian. There are a lot of other 
organizations that use the Mall too. We have to be more 
thoughtful in how we preserve that Mall because it would be a 
shame not to protect the investment that we put on there, and 
as I said, there are going to be no sacrifice zones on the 
Mall.
    So I appreciate all the work you do. I do not really have a 
question for you except make sure that Yellowstone remains the 
number one premier park, because there is a sliver of it that 
goes through Idaho.
    Mr. Cole. Will the gentleman yield?
    Mr. Simpson. Sure.
    Mr. Cole. I sit on the Smithsonian board. If you will work 
our appropriation, we are going to work with you on the Mall.
    Mr. Simpson. Okay.
    Mr. Moran. If the gentleman would yield, I could not agree 
with him more for what it is worth, and in fact, we had a 
conversation almost identical yesterday afternoon. You are 
absolutely right, as far as I am concerned, and we are not 
going to spend $30 million on that grass, for example, and then 
have it all killed for a one-time activity. So you are right 
on, and I appreciate you making that point, Mr. Simpson. And we 
like Yellowstone too but there are lots of other parks too.
    Mr. Simpson. Thank you.
    Mr. Calvert. I will put in a little thing for Yosemite too. 
It is a good park.
    Mr. Moran, you are recognized.

          LAND AND WATER CONSERVATION FUND COMPETITIVE GRANTS

    Mr. Moran. Thank you very much, Mr. Chairman.
    While you ought to have one of the best jobs in government, 
it certainly was not last year during the shutdown, Director 
Jarvis, and I know you underwent some real tough times, but the 
parks were a symbol of the government but it was a symbol that 
people had taken for granted, and when they were shut down, 
they thought holy smokes, well, we can't have this, and I think 
it underscored how much the American people love their national 
parks. It also underscored how important the work of the 
National Park Service is in maintaining them.
    Mr. Simpson raised the same issue, and I am going to be 
more specific. The Smithsonian Folklife Festival, I think we 
are going to have to, Mr. Chairman, side with the Park Service 
in terms of the protection of this investment we have made in 
America's front lawn, if you will, and let you know that you 
are going to have our support in terms of making the tough 
decisions in terms of where they ought to be located, but we 
are not going to create the sacrificial areas on the Mall, not 
with how important it is and how much of an investment we made 
to make it presentable.
    Let me ask you about the competitive grant program within 
the Land and Water Conservation program. Have you developed the 
grant criteria at all, and when do you expect that to start? 
Because I really do think having a competitive grant proposal 
is going to get more communities involved in land and water 
conservation.
    Mr. Jarvis. Thank you for that question, and we really 
appreciate this Committee's support with this concept around 
having a component of the Land and Water Conservation Fund as a 
competitive grant program. It is something we have been wanting 
to have because we feel that an investment, particularly in the 
urban landscapes, is going to reap great benefits to 
communities, and by establishing a set of criteria by which it 
is an open competition amongst all States and communities 
across the Nation, this is a perfect example. We have been 
working for about a year to develop criteria. We have been 
working with the State park systems, the NRPA and the State 
liaison officers around these kind of criteria as well, and our 
hope is to have grants out the door by this summer. We will be 
glad to come back and brief any of the Committee about the 
criteria that we have developed. It is very close to release.

             HISTORIC PRESERVATION FUND COMPETITIVE GRANTS

    Mr. Moran. Good. I am glad to hear that.
    We also have another competitive grant program that is 
targeted at underrepresented communities on the National 
Register of Historic Places. You requested $3 million last 
year, but now this year you are only requesting half a million. 
I doubt the need has changed. Do you want to just explain why 
that kind of measly little sum? I have a suspicion.
    Mr. Jarvis. No, the need certainly has not changed. As we 
have testified in the past, if you look at the National 
Register, which is over 70,000 sites across the Nation that are 
owned privately and publicly, they really in total represent 
only less than 10 percent of minorities and women in this 
country, so we feel an investment is incredibly important to 
draw these out. We have a number of initiatives in this area 
that will complement this $500,000 in working with the States 
that are independent of this. We have launched an American 
Latino Initiative, we have launched an Asian American-Pacific 
Islander Initiative, and we have launched a Women's Initiative 
in the last year or so to identify sites around the Nation. 
With this grant funding we can seed the actual development of 
the proposals through the State historic preservation officers 
to get these to roll out, so that is our goal, and we have a 
group already that we have developed. For instance, for the 
National Historic Landmarks program, we have the murals of 
Diego Rivera in Detroit, which are fantastic, a story of the 
auto industry, that were painted by American Latino artists. So 
that is the concept that we are trying to do here.

                       NEW UNITS, ANTIQUITIES ACT

    Mr. Moran. Well, you did not really answer the question why 
you are only asking for half a million, but we can reach our 
own conclusions.
    Just one last thing. You added some new units to the 
National Park Service. Fort Monroe, Cesar Chavez, Harriet 
Tubman, you mentioned those. I wanted to say that what I know 
about the Fort Monroe designation as a national monument under 
the Antiquities Act, boy, that worked well because it got the 
State involved, it got the localities involved, it got the 
private sector and leveraged a lot of money. It was really a 
terrific example of collaboration and protecting national 
treasures with everyone having a role. I wanted to thank you 
for your kind role of spearheading that, and I assume it 
occurred with the other two units that I am less familiar. Is 
there anything you want to say about the national monuments 
designation?
    Mr. Jarvis. Well, we did have the opportunity to use the 
President's power under the Antiquities Act to designate Fort 
Monroe, Harriet Tubman, Charles Young, Cesar Chavez and First 
State National Monuments, all adding to the National Park 
Service's responsibilities, but we very carefully crafted them 
in such a manner to not take on large operational costs. Fort 
Monroe is a perfect example of a partnership park with the 
redevelopment authority and the Commonwealth of Virginia, where 
we narrowed on what we wanted and felt that this was sort of 
the perfect example to tell the story of Fort Monroe, the 
contraband decision and the book-ins and the beginning and end 
of slavery. Also, these sites are intentional in that they 
represent, much like the national register program, the story 
of all Americans, and obviously Harriet Tubman, who led the 
Underground Railroad and network to freedom, and Colonel 
Charles Young, the leader of the Buffalo Soldiers, Cesar 
Chavez, the American farm workers movement, all of these are 
incredibly important stories and the Antiquities Act allowed us 
to capture just a little piece of that and make them a part of 
the system.
    Mr. Moran. Good for you. Thanks, Mr. Chairman.

                       NATIONAL MALL CONCESSIONS

    Mr. Calvert. Thank you. Since we were talking about the 
National Mall, I think I will just continue on that for a 
second and then get back to my original questions.
    One of the ideas that is being discussed for additional 
non-federal revenue is for our parks to review and make changes 
to the concession operations at the national parks, and as you 
know, the trust for the National Mall is a nonprofit providing 
support for the future of the National Mall, has evaluated 
current concession operations on the Mall and I understand is 
working closely with you and the Park Service to increase 
revenues, improve the quality of the visitor experience and 
providing additional options for food, guests, restrooms, 
facilities that are needed in the Mall, and the trust proposes 
to increase the revenue from these concessions and invest that 
revenue into long-term improvements and continuing maintenance 
of the Mall, and I think that is what Mr. Simpson was referring 
to. If you maintain the Mall all year long, 365 days a year, a 
lot of the problems that we have experienced in the past would 
not be experienced in the future.
    So I guess the question is, with the present status of the 
ongoing dialog with the trust over concession services on the 
Mall, do you expect to come to a timely agreement in the 
future, and how much annual revenue is being brought in by 
concessions on the National Park and how do you believe an 
agreement with a trust will affect future concessions?
    Mr. Jarvis. Thank you for that question. Absolutely, we are 
pleased to have a partnership with the Trust for the National 
Mall, who brings both initially their philanthropic support to 
our work on the National Mall. We completed a management plan 
for the Mall just a year or so ago that really directs us to 
reinvest in all kinds of components, and you have seen some of 
it already, and thanks to this Committee, the sea wall at the 
Jefferson Memorial, the reflecting pool at the Lincoln 
Memorial, really making these far more sustainable. The next 
major project besides repairing each of the panels on America's 
front lawn is Constitution Gardens. It is an area that really 
has never been sort of developed in a way that it can be the 
kind of urban park that it really deserves here on the National 
Mall, including the potential for a really nice restaurant. 
There was always the concept of a restaurant at Constitution 
Gardens.
    So the concept with working with the Trust is to create a 
revenue stream for them that would be reinvested directly into 
the Mall. We have other models of that around the system, and 
so this would be an opportunity where you have a combination of 
both philanthropy and a leverage opportunity out of revenues. I 
do not know exactly what the current revenues are out of the 
Mall because it is a combination contract. The current 
concession contract has everything from the marinas to things 
on the George Washington Parkway, so we are in the process of 
working to sort of break that up and then create an opportunity 
for a revenue stream out of the Mall operations that would be 
turned back. It is an old contract, and we are working with the 
Trust. We are working with the authorizers because it would 
take some change to make that happen.

              NATIONAL PARK SERVICE FUNDING AND OPERATIONS

    Mr. Calvert. As we discussed recently, getting a fiscal 
year 2014 appropriations bill completed has made a big 
difference in the National Park Service. One of our goals, our 
Subcommittee's goals, in which we were ultimately successful 
was to reverse the detrimental effects of sequestration and 
restore funding for your operation accounts to the fiscal year 
2012 levels, as I mentioned in my opening statement. What are 
the practical effects in terms of staffing, park maintenance, 
overall visitor experience of restoring that funding to the 
2012 level?
    Mr. Jarvis. Well, thank you for doing that. Sequestration 
is a particularly difficult challenge for the National Park 
Service, so having worked for the Park Service for almost 40 
years and having been a park superintendent, I know exactly 
what that feels like. A typical park, if they have managed 
their funding provided by the Congress well, might have 
somewhere between 85 to 90 percent, somewhere in that 
neighborhood, fixed costs on an annual basis. That is salary, 
utilities, fleet, fuel, all of those components, that sort of 
money that is going to go out the door to run basic operations. 
So you might have 10 percent, and some parks have less than 5 
percent of what we would call discretionary funds on an annual 
basis, and that is your seasonal workforce. Your entire 
seasonal workforce comes out of that discretionary money, and 
that is the frontline rangers that are there to meet and greet 
the public, to provide search and rescue, to do firefighting, 
all of that, because the permanent work staff tends to be much 
more of a skeleton crew.
    So that seasonal workforce was hammered by the 5 percent 
across the board because, in the Congressional budget 
justification, every park is a line in the budget. So I do not 
have the discretion to take 5 percent out of one account. It 
hit every park in the system at 5 percent whether it was 
Whitman Mission or Yellowstone, and they had to absorb that. So 
you saw reductions in hours of operation, you saw a significant 
reduction in the seasonal workforce, our ability to host 
programs, evening walks and talks, all of the kind of stuff 
that is sort of bread and butter to the national park system. 
So restoring that, and in the 2015 budget, restoring fixed 
costs, the fixed cost increase, which is $16 million, in this 
budget is an incredible reestablishment of our ability to do 
basic operations in the parks.
    Mr. Calvert. Ms. McCollum.

                CENTENNIAL OF THE NATIONAL PARK SERVICE

    Ms. McCollum. Thank you, Mr. Chair.
    I want to follow on the reduced budget a little bit and the 
effect on seasonal employees. When I spoke with some of the 
seasonal employees, especially at Voyageurs, a lot of them are 
also firefighters that are used by the Forest Service. It is a 
precarious income that they are living on to begin with, and 
the other thing that became abundantly clear is, many of these 
seasonal workers eventually hope when openings become available 
in the Park Service that they will be able to get them so they 
would gain some experience and some knowledge. So if you could 
elaborate a little more on why it is important we get the right 
balance of seasonal workers?
    The other thing is, and I have not been to as many parks as 
I am going to get to, but all politics being local, I spend a 
little more time in Indian Run and on the St. Croix. So on the 
St. Croix Scenic River National Park, we have, I think, only 
one law enforcement officer for a whole stretch of park, which 
just gets inundated in the summer with people. I know that they 
are very concerned about bathroom facilities for people to use, 
and we have people that are pulling houseboats and boats up and 
camping in areas that they should not be.
    Now, if this is happening here, I know it is happening in 
other places. I know it is not my park superintendent's choice 
and I know it is not your choice and other park 
superintendents. So I am very excited about what we are doing 
for the Centennial. With some of the Centennial improvement 
projects, do you think you are going to be able to 
significantly knock down some of the backlog?
    Mr. Jarvis. I will start with the seasonal question first. 
We typically hire when we are more or less fully funded, 
somewhere around 9,000 seasonals a year, and that has declined 
over the recent years, and this budget will restore about half 
of that decline but not fully. The seasonals, they are our farm 
team for future employees in the park system, and many of our 
seasonals work multiple seasons for us, and over time gain 
significant skills, firefighting being one of those, and they 
get dispatched when there is a large fire. We work interagency 
on fire response and fire suppression, and we will get a call 
if there is a big fire in the West like the Rim Fire last year, 
and we will get a request for fire crews and line officers and 
the like throughout, and we draw from our seasonal workforce, 
absolutely. This country fights its fires with the land 
management employees and from BIA as well, and it is really 
important to have them, and to have them skilled and have them 
trained through multiple years of experience as well.
    Law enforcement as well. As we gear up for our summer 
operations and we get hundreds of millions of visitors coming 
to our national parks, our law enforcement staff and rangers 
are incredibly important to provide safety, rescue. Our rangers 
do not just do law enforcement. They do emergency medical, they 
do firefighting, they do structural fire, all of those things. 
It is a little different than your typical urban law 
enforcement in most cities.
    The second component here is that we do have a request in 
the budget for maintenance backlog at $16 million. On the 
mandatory side, this is where the real bulk of the requests 
exist for maintenance backlog to take on these challenges of 
new restoratives or repair of our existing responsibilities. I 
think if you look in total at the request, the full request, 
which counting the mandatory and the component that is in the 
Opportunity, Growth, and Security Initiative, it is over $600 
million. That is a bigger figure of what the real need of the 
National Park Service is to address its backlog, to take on all 
these issues.
    Mr. Moran. But you did not ask for that money?
    Mr. Jarvis. It is in here but it is not on the 
discretionary side.

                         INTERNATIONAL AFFAIRS

    Ms. McCollum. Mr. Chairman, I have a little time left.
    I want to talk about the international relationship that 
you have with international parks. The more I delve into some 
of the work that U.S. Fish and Wildlife does, the Park Service 
does, USGS does, and when I am traveling in Africa and in Latin 
America with some of our embassies, you are kind of the anchor. 
The embassy staff is rotating in and out. You are there. You 
are providing, soft power as well as some real expertise in 
some of these developing nations and protecting some of their 
natural resources, and in Africa in how to set up an economic 
engine of tourism. Could you tell me what missed opportunities 
we are having? Because I am very concerned about, when people 
start attacking your small travel budget, that means you are 
not bringing, people out in the field. Could you maybe 
elaborate a little more about if you had just a little more 
money or if there is any cuts, what it would impact on the 
international park program, which is very, very small but I 
think plays a very significant role in our national soft power 
influence.
    Mr. Jarvis. Thank you for that question. The total 
International Affairs Office of the National Park Service is 
three employees, so we have three positions that provide 
services at the request of the State Department. We are 
frequently requested by the State Department to provide what 
they call soft diplomacy around the world and helping countries 
protect their history and their sites of conservation. The Park 
Service is the world-recognized leader in that, and we have 
provided consultation to Angkor Wat in Cambodia or to the 
fantastic park system in Costa Rica, and we are currently 
providing assistance to Colombia, Cambodia, South Korea, parts 
of Africa and others, but we do it on a shoestring, frankly. 
Generally they pay our travel for us to come and provide 
assistance, and we draw from our field staff. We have great 
expertise in the concessions and business opportunities because 
most countries do not have the kind of appropriated funding 
that we have in the United States for our national park system. 
Their park systems often struggle so part of it is basic 
training for their employees and for the business side of their 
opportunities as well. But we host hundreds if not--well, I 
would not say thousands but hundreds and hundreds of 
delegations that come to the United States every year to see 
how we ran our national park system, from China, from all over 
the world.
    We carry on with a very small operation but do provide 
great service and great representation for the country.
    Ms. McCollum. Thank you, Mr. Chairman.
    Mr. Calvert. Thank you.
    Mr. Stewart.

                    DEVELOPMENT NEAR NATIONAL PARKS

    Mr. Stewart. Thank you, Mr. Chairman.
    Mr. Jarvis, thanks for being here today. Thank you for your 
many years of service, and thanks for coming in and speaking 
with us.
    You may not remember, we sparred a little bit last fall 
when we had a hearing on another committee that I used to sit 
on dealing with sequestration, which by the way, I think all of 
us would like to avoid another government shutdown, which was 
the primary focus of this, or at least that hearing, and we 
were exploring some of the implications on national parks and 
how many of us felt like that maybe it was a way to minimize 
the impacts on the American people because of the shutdown, and 
harkening back to that, again, I think you and I share goals 
there. We would like to avoid shutdown if possible. We would 
like to have more access to these national parks in the event 
of that, and I am sure you would agree with that.
    I am from Utah. If you love to play outside, as I do--I 
love to climb, I love to hike, ski--I mean, there is no better 
place than my State. That is why I chose to live there, 
frankly. We have five national parks, six national forests, 
seven national monuments--some of them are huge--you know, a 
number of national recreation areas, historic sites, et cetera. 
You and I share a love for those types of things, and we 
appreciate your efforts to do that.
    A comment which leads me to kind of a broad question I 
would appreciate your input on. About a year ago, I had kind of 
an interesting experience in my office. We received two pieces 
of correspondence in the same day from actually the same 
organization, the National Parks Conservation Association, and 
one of them was one of their newsletters where they were proud 
of the fact that they had stopped some oil and gas development 
that were within proximity to one of the national parks in my 
district, not very close. Honestly, I think some of these 
groups feel like if you can see development from the park, that 
is intrusive, but heavens, in the West, on a clear day you can 
see 120 miles sometimes, and on the same day we received this 
newsletter with them so proud that they had stopped this 
development, they also approached me and asked me to increasing 
funding for the national parks, which led to an interesting 
conversation within our office regarding the apparent irony 
there.
    What I would like to ask you is, do you have ideas or do 
you have a philosophy where we can bring these two what seem to 
be competing interests and have some coalition around some 
goals that both would be served? You know, I think in some 
cases they consider again the proximity around these national 
parks as being de facto national parks. You cannot have any 
development at all there, whether it is in energy extraction or 
many other types of development as well. Share with us your 
thoughts on that, will you please, and how we can maybe reduce 
the conflict and have some community involvement and other team 
building on that?
    Mr. Jarvis. Thank you for that question, and I think it is 
a great point. By the way, I just saw Utah's Mighty Five 
advertisement for the five national parks in Utah, and I was in 
Salt Lake last week and met with your State tourism director, 
and she indicated that Mighty Five tourism has been very 
effective and obviously a fantastic resource in Utah.
    I think we have today the analytical tools through 
geographic information systems, Google mapping and others to 
strike the right balance about where energy development occurs 
as it relates to national parks. If you stand at the Island in 
the Sky at Canyonlands and you look across the Canyonlands, not 
all of that land is protected, right? Some of it is in the 
park, and some of it is in BLM and available for development. I 
think there is a public expectation, though, when they stand at 
that point, that incredibly awe-inspiring spot or if they are 
out in Arches and they are standing in one of the delicate 
arches that the viewshed is not totally compromised. There can 
be some things going on in there. What we have today is, I 
think, the analytical ability to look across that, and that is 
one of the things, the MLP, that is going on in Utah, the 
multiple leasing plan, that we are working directly with BLM to 
say if you are going to develop oil and gas in this particular 
area, there are ways to site and develop that minimize its 
impact visually for the park, and part of it is height of the 
structure, some of it is color, some of it is location, some of 
it is using geographic relief to tuck it behind a hillside, 
those kinds of things. So I think that is the model that we are 
looking for. It is not avoidance completely but it is how you 
do it.
    Mr. Stewart. Yes, and of course, some people would not 
agree with you in the sense that any impediment on that view 
shed at all is unacceptable, and like I say, literally you can 
see hundreds of miles and, you know, the irony is, in another 
location we have a windmill farm, which I support, by the way, 
370 or so of these wind turbines. Heavens, you can see those 
things forever.
    Mr. Jarvis. They are tall.
    Mr. Stewart. They are very tall, and there are, like I say, 
hundreds of them, and there is a much greater footprint by 
something like than there is with a little bit of oil and gas 
development. I am not saying they have to be one or the other, 
I am saying they are not incompatible, and we would appreciate 
your support and others in finding a solution, because I think 
there is a way we can find a solution that most people would 
agree with.
    Mr. Jarvis. And I assure you that not in the public eye but 
in the hallways and meeting rooms of the Department of the 
Interior, this is what we do almost every day. There are 
meetings with the Bureau of Land Management, also with OMB 
about offshore wind, this Administration has been pursuing all 
of the above so there is a lot of oil and gas and a lot of 
renewables, and we are at the table working with them with how 
we do both in terms of siting and minimize--because, there is a 
public expectation at these sites. You are right that you can 
see hundreds of miles, and distance does matter in terms of 
that viewshed, and I think we are working to achieve both.
    Mr. Stewart. All right. Thank you.
    Mr. Calvert. Thank you.
    Ms. Pingree.

                    ACADIA NATIONAL PARK CONCESSIONS

    Ms. Pingree. Thank you, Mr. Chair.
    Thank you much for being here with us today, and I want to 
let you know how much I appreciate the great work you are doing 
and the vision you have incorporated into looking forward to 
the Centennial and engaging as many people as possible and 
understanding our national parks and upgrading them to be 
ready. I am very excited about all that you are doing, and I 
apologize that like so many of my colleagues, I have another 
meeting to rush off to and I will not be able to stay for all 
of your conversation with us today but I will submit a couple 
of things for the record, and I have had a chance to be updated 
with your staff about a variety of things.
    Just two quick things I will throw out there. I know we 
have mentioned this before but I just want to put it on the 
record, on the issue of the concessioners representing Acadia 
National Park in my State who is going through a concession 
change this year, and there was certainly a lot of controversy 
around that and deep concerns about people in the local 
community about making this change. I understand and have had 
the opportunity to converse about this with you and some of 
your staff, and I do appreciate how important it is for the 
park service to upgrade their concession contracts to have the 
best possible value for our visitors and to yield the greatest 
return. The one concern that came up over and over in leaving a 
locally based concessioner for one that was not based in our 
state with deep concerns about loss of jobs, sales of local 
products, whether people will have similar relationships in 
very historic sites that we feel very protective of, having 
loved our park for almost 100 years.
    So the only thing I want to have on the record as I have 
suggested to you when the opportunity comes up to review how we 
choose concessioners, that there might be some thought given to 
the significance of adding, you know, points or however it is 
looked at for continuity of quality or commitment to a variety 
of local products because of people's great interest in being 
able to buy local products or work with other local vendors, 
and seeing if that could be incorporated into future decision 
making. I totally respect, you know, again, the importance of 
having high-quality concessioners and the work that you are all 
doing to make sure that is done well, but I do not even need 
you to comment. I wanted to let you know that I am going to 
keep thinking about that, and I know our very vocal four-person 
delegation in the State of Maine is probably thinking about it 
all the time too, so I am not the only one.

                     NATIONAL REGISTER DIGITIZATION

    Just a kind of another small maybe somewhat obscure point 
is, the Historic Preservation Fund impact on digitalization. 
Again, I will submit a little bit more information on this but 
Maine has 1,581 listings on the Register of Historic Places, 14 
national natural landmarks and 43 national historic landmarks. 
Just last week, some of the Tribes in our State--we have four--
received an award from the Tribal Historic Preservation Offices 
to help them preserve the stories of the Penobscot, 
Passamaquoddy and Micmacs. So much wonderful work has been done 
in our State using the Historic Preservation Fund and being 
able to digitize particularly photographs. The city of Portland 
recently did that and gave people an opportunity basically to 
open up a computer and visit the city back in 1924 and see the 
history of all that is gone on. I hope many of those same 
things can be done with this tribal grant. I know you are 
talking a lot about the celebration of the 100th year 
anniversary and, you know, how well you are using that in parks 
like Acadia, which is also going to celebrate at the same time, 
and what an important landmark that is.
    But I just want to point out that it is the 50th 
anniversary of the National Historic Preservation Act, and I 
want to--while that may be obscure, it does touch a lot of 
people in a lot of ways. It allows us to preserve our history 
and gives people yet another way to come in contact with a 
tremendous amount of great work that you do.
    So if you could give me a couple of thoughts on work with 
that, and it doesn't seem to be an area where there is 
sufficient funding or there is a funding focus, and I hate to 
have that disappear when we think about, you know, America's 
parks being the big places out West that we go visit even 
though the places out East are equally as fun.
    Mr. Jarvis. Great question, and thank you for it, because I 
agree with you 100 percent. We are slowly pecking away at 
digitizing the records of the National Register. We have never 
been adequately funded on that but we basically have, one of 
those things from Raiders of the Lost Ark with a warehouse full 
of paper files of the National Register, which makes them 
unavailable to the American public. It is one of our Centennial 
projects, and it is also a project that we are seeking 
philanthropic funds for. We think it is actually a project that 
we can find some donors to help us complete the digitization of 
the National Register. If we were able to do that, you could 
actually do a GPS Google Map reference and you could actually 
design thematic tourism around specific types of theme sites, 
whether they are Native American, civil rights, women's rights, 
any of those kinds of things, and line them up and people can 
actually tour and see these incredible pieces of American 
history. Right now it is not available. They are all in paper 
files. So this is a great project. We will continue to peck 
away at it with our existing preparations but we do think it is 
a viable philanthropic project as well.
    Ms. Pingree. Great. Well, thanks for your interest, and 
thank you, Mr. Chairman.
    Mr. Calvert. Thank you. Amazon or Google would just be 
perfect for that, would they not?
    Mr. Cole, you are recognized.

                      SUPPRESSION FUNDING PROPOSAL

    Mr. Cole. Thank you very much, Mr. Chairman.
    Director, good to see you again. I want to focus on a 
couple of areas that we had an opportunity to discuss but I 
think it would be helpful for the Committee.
    First, we touched a little bit on the problem of wildfires, 
but I want to look at it from a budgetary standpoint because it 
really impacts our budget. Mr. Simpson, of course, has 
legislation to help try and get a handle on that. The 
Administration has a proposal. They are actually quite similar. 
Can you tell us what the impact of wildfires is on your budget?
    Mr. Jarvis. It can be significant. The suppression costs 
are going up every year for a variety of reasons, you know, 
more development in the wildland-urban interface, the WUI 
lands, as we call them. There are more and more homes in those 
areas, which require a higher degree of suppression activities 
as well, plus the fires are burning more intensely and we are 
seeing fires even this year that look like summer fires in the 
Los Angeles area as well.
    What happens is that fire suppression costs have to be 
absorbed and our accounts get swept frequently, so you have 
funds that you are intending to use for construction or 
operations that are sitting in an account and they need it. It 
just gets gathered up and it is gone into fire suppression 
responsibilities. So it really does curtail our ability to 
complete projects, to have sort of basic operations that are 
very unstable from an operational standpoint, but we have this 
routine that we do. We know our seasonality of our operations 
and, the public flows through the parks, and we line up a set 
of projects to complete, whether it is accessibility or 
construction or repair, rehab, and these things just get swept 
up as a result of the current model for funding of fire. So the 
proposal both with the Administration and from Mr. Simpson 
would help resolve that with going to the 70/30 kind of split. 
Bruce, do you have any details that you want to add to that?
    Mr. Sheaffer. You actually stated it very well. It has had 
in years past a direct effect not just in the borrowing but 
actually in one fiscal year resulted in a cut to our operating 
programs in order to come up with the shortfall. We have 
demonstrated that the current model simply does not work and is 
not the way, frankly from our perspective, emergencies can and 
should be handled, and it is the not the way that we know of 
any other major issue like this being handled. So this is a 
wonderful proposal from our perspective, and we hope very much 
that--and I know that should it not be adopted, it is going to 
have a rather significant impact on our request for 2015.
    Mr. Cole. I suspect frankly if it ever got to the Floor, I 
do not have any doubt it would pass with overwhelming 
bipartisan support, and that is something our colleagues on the 
authorizing committee need to consider. I bet every member on 
this Committee could tell you of some instance where they lost 
something that was important in the National Park Service or 
somebody was involved in that is under your jurisdiction, Mr. 
Chairman. I know in one case we lost a visitors center 
because--and it was legitimate. There were fires out in the 
West and the money needed to be deferred. We never got it back, 
and it just disappeared, and that happens frequently, and I do 
not know how we can expect any of you to budget or, frankly, 
this Subcommittee to be able to think through consistently what 
to do until we get this structural fix, so I just want to use 
this opportunity to encourage in a bipartisan sense that the 
Administration and the Congress work together to resolve this 
issue so you guys can have some certainty in your budgeting and 
we can have some certainly on our side of the table.
    Mr. Calvert. Will the gentleman yield on that?
    Mr. Cole. I will certainly yield.
    Mr. Calvert. And I would encourage you and I would 
encourage Chief Tidwell to talk to the Budget Committee folks 
on how we move forward on this. Both Mr. Cole and I serve on 
the Budget Committee. There is a difference of opinion between 
OMB and CBO of whether or not this is affecting the 
discretionary account. So we need to deal with that.
    Those of us in the West believe that--as you know, 99 
percent of fires are put out within the budget. It is the 1 
percent of fires that are catastrophic. And most of us in the 
West have to experience this, and we believe that massive 
wildfires are as catastrophic as an earthquake or a hurricane 
or any other natural phenomenon. So we have a little educating 
to do.
    With that, I yield back to the gentleman. Did the 
gentleman----
    Mr. Moran. Thank you.
    My only question is actually how is the Budget Committee 
considering the proposal?
    Mr. Calvert. Well, we marked the budget up last night. We 
had some discussions about it. It was not addressed as an 
amendment yesterday. But I think there is a consensus growing 
that this has to be dealt with, and it cannot be dealt with as 
we have been budgeting in the past. You can't manage these 
accounts responsibly if we continue to react to this problem, 
so we need to deal with it.
    Mr. Moran. I do note that the gentleman is correct. There 
is bipartisan support for it. So, it should not be a partisan 
issue. Thank you.

                          TRIBAL PARTNERSHIPS

    Mr. Cole. One additional question, one other area if I may, 
Mr. Chairman. I want to be specific but I want you to be 
general in your answer. I know we have a developing partnership 
on a national recreation area between the National Park Service 
and the Chickasaw Nation, which I think is a very good thing as 
they have demonstrated--that park was originally, the core of 
it was actually donated to the Federal Government by the Tribe 
to preserve it during a really difficult time in their history 
during the Dawes Commission when they were having their lands 
essentially taken away from them and individually divided up. 
They did not want this to fall into private hands. They wanted 
a government of some kind to protect it because the springs 
were sacred sites, and then the Federal Government has built 
this wonderful facility. I will not compare it to Yellowstone 
to offend the chairman but in our neck of the woods it is an 
awfully nice place and a very important area, and the Tribe in 
the county in which most of it sits is actually invested a 
quarter of a billion dollars in a variety of facilities around 
it, everything from a cultural center to a restored hotel to a 
conference center and retreat that really make it work with the 
park at the head of the core.
    So number one, I wanted to see how that relationship was 
developing, and number two, if you would give us your thoughts 
going forward because I know you have a number of these kind of 
things, and again, sometimes Tribes have the ability to come to 
the table with considerable resources and help as is the case 
with Chickasaw. Sometimes they do not, but it is still very 
important for them to have the opportunity to manage lands that 
were historically theirs and work in partnership, so if you 
could educate us and give us a little bit of idea of what you 
may need in the way of resources and/or authority.
    Mr. Jarvis. Thank you. I think that the relationship at 
Chickasaw is improving and headed in the right direction with a 
lot of encouragement from our office and from the regional 
office that here is a fantastic partner with thousands of years 
of association with these lands and a deep sort of core 
stewardship values. That is, for me, across the United States 
in our national parks, the Native Americans in so many ways 
share this long view of these lands both from their historical 
perspective but also in the way they think about the future as 
well, and we have been encouraging increased deepening 
relationships with Tribes about joint stewardship. We mentioned 
to you the other day, we have a project in the south unit of 
the Badlands in terms of returning those lands to the Tribe and 
establishing the first tribal national park in the country. 
This has been done in other parts of the world, and we think 
this is a great idea here in the United States as well.
    So this is something that I am highly interested in through 
my years of experience in working with Tribes, and I think this 
is a great opportunity to partner. Obviously there is a wide 
variety of tribal capacity out there. Canyon De Chelly is a 
unit of the national park system that is inside the Navajo 
Indian Reservation and has been a great partnership over the 
years where essentially they operate with our advice; and then 
there are other places where we are just beginning to build the 
capacity for the Tribes to actually do management. One of the 
areas we are working specifically in the Yellowstone system is 
to build tribal capacity to manage bison. We have excess bison 
coming out of the Yellowstone system and we want to build the 
tribal capacity to be able to take those and manage their own 
herds as well because they are so important culturally and to 
the Tribes, so that is another area that we are working on.
    Mr. Cole. Just for the record, Mr. Chairman, I will end 
with this. It is a wonderful two-way street in the sense that I 
think the Tribes do bring a lot, as you say, with their 
historic associations quite often and an immensity of knowledge 
that really nobody else has, but at the same time, these 
endeavors in a managerial sense allow them to develop an 
enormous amount of human capacity themselves which then they 
can use for other things. There is nothing like the opportunity 
to manage frankly large enterprises, which these quite often 
are, and which frankly these populations often do not get that 
opportunity and it creates--I have seen this happen in health 
care--it actually creates a human capital inside the tribe and 
allows them to sometimes divert that capital into other areas, 
and they can do something commercial. Again, they have trained 
people that are inside their tribal unit that have both 
credibility and authority. So it is a wonderful process. When 
it happened, it was an unintended byproduct in health care 
where Tribes had contracted that found all of a sudden they had 
a lot of people that were now joint venturing and running their 
own health care and have been for 35 years. Those people have 
then moved into commercial activities for us. They held out 
budgets, they held out funding. They know about capital 
requirements. They understand long-term planning. And so it has 
become a really tremendous asset. I think this could happen to 
other Tribes too that are again are starved, not just physical 
or financial capital but literally do not have the human 
capital that they could develop. It is not unlike the 
discussion that Ms. McCollum had with you on international 
parks. That exchange, that knowledge goes back and pays real 
dividends to the tribes. So I would really encourage you to 
continue down this line and expand it where you can. Thank you.
    Thank you, Mr. Chairman.
    Mr. Calvert. Ms. Herrera Beutler.

          PEARSON AIR MUSEUM, VANCOUVER NATIONAL HISTORIC SITE

    Ms. Herrera Beutler. Thank you, Mr. Chairman and Director 
Jarvis. I would be remiss if I did not mention the Pearson Air 
Museum at Fort Vancouver. As you both know, I have been really 
critical of the Park Service and how it handled this. I had 
hoped a lot of heartache could be avoided but I really would 
like to applaud you both and the Park Service. I feel like you 
and your staff in recent meetings with my office and throughout 
this process have really moved to the middle to find a 
solution, and I am grateful for your willingness to do that. It 
was a good-faith move, like I said, to come to the middle to 
find a compromise. So it is my sincere hope that the Park 
Service and the trust can come to a resolution on this and we 
can move forward and the community can move forward.

                                RIM FIRE

    One of the things that had come up in a meeting, was fire 
suppression and managing resources. It will continue to be a 
hot topic, and I was really impressed with--so we talked about 
the Pacific Rim Fire yesterday here when we were talking with 
the Chief Forester and how you all were really able to protect 
the park--because of your practices and your management to 
really mitigate the impact on the actual park so the area 
around burned but the park actually did really well, and I was 
hoping you could speak to why that happened just a little bit.
    Mr. Jarvis. Well, for a long time, many decades, the 
National Park Service has been investing in managing for fire, 
recognizing that fire is part of our system, and you can only--
if you just put it out over and over and over again, you are 
just postponing the inevitable, and so these fire-dependent 
systems like in the Sierras have to burn at some point or else 
they have to have significant fuel reduction, and the 
combination of that is incredibly important to us. And so in 
Yosemite in particular, Sequoia and others where we have some 
of our most critical assets and in Yosemite you have the Hetch 
Hetchy Reservoir, which is a critical water infrastructure for 
the city of San Francisco and then the giant sequoias and the 
old-growth forests, you really cannot just wait until fire 
comes. So we have been actively managing the watershed in lock 
units for a significant amount of time, both in terms of where 
there is development using wildland-urban interface funds to do 
fuel reduction, do removal of ladder fuels and pile burning, 
and then within the larger landscape using prescribed fire 
burning when we want it to burn, not necessarily when lightning 
strikes.
    And as a result, you can significantly see this. I have 
seen all of the maps both pre and post in terms of the Rim Fire 
and how it moved through the forest and on lands. We were able 
to go up to the Tioga Road and backburn down to the fire and it 
resulted in really no significant impact within the park. It 
burned much more in a mosaic. We did not lose any of our old-
growth big trees at all as a result of that fire, and the 
watershed for Hetch Hetchy Reservoir was also protected and it 
did not result in any significant impact to the water quality 
going into it, and that water is not treated. That water is not 
filtered, so what would go into that water was pretty important 
to the city, and again, that was protected, so that was the 
result.
    Ms. Herrera Beutler. That is great. Thank you.
    Mr. Moran. Would the gentleman mind explaining what does it 
mean to burn in a mosaic? I have asked everyone here, and they 
do not know.
    Mr. Jarvis. What it means is that, if you have a very heavy 
fuel load in any forest, western or eastern, essentially the 
fire will just burn through and burn everything, but if you 
have a mixed fuel load so you have some open space, you have 
some areas that we would call a shaded fuel break so that the 
fuels on the ground have been removed through repeated 
prescribed fire, the fire will actually go around the fire, go 
around those areas, not burn through, and burn on the other 
side. And so what you wind up with is essentially a patchwork 
afterwards. Instead of the whole ecosystem burned completely, 
you wind up with a patchwork, and as a result, trees that 
persist in the patchwork are new seed sources. Wildlife 
persists within those. And the ecosystem essentially remains 
intact, and that is the way fires would have burned 150 years 
ago, but essentially because of suppression and because we have 
not had the funding to get in and do the kind of pre-work that 
is necessary, pre-suppression work, we now have forests 
throughout the country that are going to have sand replacing 
fires and will not burn in a mosaic.

      FEDERAL LANDS RECREATION ENHANCEMENT ACT (FLREA) EXPIRATION

    Mr. Calvert. On that issue also, I mean, certainly 
harvesting in the national forests in the past, which has been 
obviously stopped to some degree in certain areas, also has an 
effect because as you point out, you remove those trees one way 
or the other. Either we are going to do it, or God is going to 
do it at some point in time. And if they do it responsibly, you 
have a good effect on a healthy forest.
    Okay. One other question, and we have a defense hearing too 
that we need to go to, but the Park Service has authority to 
levy entrance fees under the Federal Lands Recreation 
Enhancement Act, FLREA. As you know, it expires at the end of 
this calendar year. Your 2015 budget request seeks to have the 
authority extended by one year. We know that that authority, 
which is also important to the Forest Service and other land 
management bureaus, is critical to providing revenue to the 
national parks and maintenance facilities. Are you working with 
the authorizing committees of jurisdiction on a long-term 
extension of this current authority, and if so, what is the 
status of those efforts, and what are the ramifications of 
FLREA is allowed to expire at the end of the year.
    Mr. Jarvis. Thank you, Chairman. The fee program is 
incredibly important to the National Park Service for a variety 
of reasons. We collect about $175 million annually. That is 
entrance fees and campground, what we call recreation fees, 
campground fees and the like, and that money is retained in the 
park system. Eighty percent is retained at the collecting park. 
And then we have a variety of parks that are not allowed to 
collect for a variety of reasons. Great Smoky Mountains, for 
instance, is prohibited from collecting entrance fees. So we 
have what we call our 20 percent parks, and those are the parks 
that do not collect fees, so 20 percent of the fee program goes 
to the non-collecting parks.
    We specifically use the fee program principally for 
maintenance backlog, significant reinvestment into our 
facilities. Also, very high interest in accessibility, 
providing full accessibility across the system as well. So our 
fee program is incredibly important. We show the public your 
fee dollars at work, and we have always had a very positive 
response to the investment that we use with our fee program as 
well.
    A couple things about the expiration of the FLREA 
authority. One would be an inability at all to collect fees. I 
mean, that is the base authority upon which we can collect 
fees. So if we lose complete authority, if the law expires, the 
second piece is 12 months prior to its expiration we can no 
longer sell the annual pass. So it is really important because 
the annual pass would be worth 12 months of getting into the 
parks. And so beginning of January of this coming year, if we 
do not have reauthorization of FLREA, then we will not be able 
to sell the America the Beautiful pass and that serves BLM, the 
National Park Service, the Fish and Wildlife Service, and the 
Forest Service as well.

      PAYMENTS TO SCHOOL DISTRICTS NEAR YELLOWSTONE NATIONAL PARK

    Mr. Calvert. Certainly, we are going to work with you, I 
would suggest that if you meet with the authorizing committees 
and move that along, not that we do not do things outside of 
the appropriations process from time to time.
    There is another question I want to submit for you to 
answer for the record. We have a number of questions to be 
submitted. But one of my colleagues, Montana's Congressman, 
Steve Daines, brought my attention to the issue of three school 
districts in Montana that are near Yellowstone National Park 
were notified by the Department of the Interior they are 
required to repay millions of dollars in federal payments due 
to an oversight by current and past administrations, apparently 
overpayments issued to the school since 1977, since PILT was 
first enacted, so we will submit that question to you and a 
number of questions where we can get an answer for the record, 
and there will be some additional questions.
    Thank you for coming here today. I am sorry there are 
hearings going on everywhere. We are all going in various 
directions. But we thank you for your time and for your 
service. Have a good day.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT



                                           Thursday, April 3, 2014.

     U.S. FISH AND WILDLIFE SERVICE FISCAL YEAR 2015 BUDGET REQUEST

                               WITNESSES

DAN ASHE, DIRECTOR
CHRIS NOLIN, BUDGET OFFICER

                  Opening Remarks of Chairman Calvert

    Mr. Calvert. Good afternoon and welcome to the 
Subcommittee's hearing on the President's fiscal year 2015 
budget for the U.S. Fish and Wildlife Service. I am pleased to 
welcome Dan Ashe, Director of the Fish and Wildlife Service; 
and Chris Nolin, the Service's budget officer.
    The President's fiscal year 2015 budget proposal for Fish 
and Wildlife Service is roughly $1.5 billion in current 
appropriations, which is $49 million, or 3.4 percent above 
fiscal year 2014-enacted level. In any budget climate, that is 
a healthy increase and Director Ashe deserves credit for 
pushing it through the Department and OMB.
    However, because of the Subcommittee's competing priorities 
outside the Department of the Interior, because of our 
bipartisan commitment to correcting disparities in Indian 
country and because this Subcommittee is viewed as the funding 
backstop for other must-do programs such as PILT and Wildland 
Fire, we view the Fish and Wildlife Service budget through a 
different lens than does the Department or OMB, and that is why 
I look forward to your testimony today and to working with you 
in the days ahead to enact a reasonable though likely smaller 
budget that better balances what appears to be competing 
administration and congressional priorities.
    By far, the most pressing Fish and Wildlife Service issues 
in the district and in the State I represent, and I suspect a 
few other States at this table, have long centered around the 
Endangered Species Act regulation. In my view, the ESA is long 
overdue to be updated. Its single-species policies ignore the 
latest principles of ecosystem science and its inflexibilities 
regarding the allocation of scarce resources are dangerous at a 
time when society is coming to terms with major changes in the 
weather and climate. It is my sincere hope that proponents of 
the status quo will come to the table and work with Congress to 
update and improve and reauthorize the Endangered Species Act.
    In the meantime, the Subcommittee must address the question 
of whether and how to continue to invest in implementing 
current ESA policy. Many of my colleagues and I still feel that 
the 2011 settlement agreements were a raw deal. The pace of ESA 
listings has clearly accelerated despite modest yet annual 
budget cuts since 2010 and it is further evidence that ESA 
listing activities are limited more by politics than by budget. 
It is an issue that this Subcommittee will be considering 
closely for fiscal year 2015, particularly in light of the 
service proposal to restructure its ESA budget.
    In my opinion, the Service should put far more effort in 
prevention and recovery rather than new listings. This is why 
the proposed $8 million cut to the State and Tribal Wildlife 
Grant Program is troubling. This program partners with states, 
tribes, and territories to conserve species so that the ESA 
listings are unnecessary. In the coming weeks, the Subcommittee 
will be looking for offsetting cuts to restore this funding, 
along with considering whether or how to focus the program on 
the candidate species named in the 2011 settlement agreement.
    The Service's very public announcement that prevention and 
recovery shall be the National Fish Hatchery System's highest 
priorities, while recreational fishing shall be its lowest, has 
caused quite a stir. In addition to the $3.6 billion economic 
benefit that the hatchery system provides, a return, as I 
understand, of $26 for every $1 invested, many would argue that 
recreational fishing is one of the best ways to help America's 
youth develop a love of the outdoors. In light of the 
Secretary's proposed Youth Initiative in fiscal year 2015, the 
Subcommittee will ensure that recreational fishing will 
continue to be a priority.
    Again, though I would like to give Director Ashe his due 
credit, setting priorities guarantees controversy, which is why 
agencies frequently publish strategic plans so watered down 
that everything, and therefore nothing, is a priority. Though, 
what I would like to know is this: Why not set similar 
priorities for the rest of Fish and Wildlife Service? I think 
many Republicans would agree that preventing, recovering, and 
delisting species ought to be a higher priority. If the Service 
is going to try to hold the National Fish Hatchery System to 
that standard, why not hold the rest of the Fish and Wildlife 
Service to the same standard? It is a question that I know that 
the subcommittee will be considering in the coming days as it 
weighs its options in responding to the 2011 court settlements 
and the wave of ESA listings already underway.
    In closing, I would just like to thank you, Director Ashe, 
for sending Ms. Jackie Kilroy up here on detail, once again 
confirming that the Subcommittee's finest detailees are 
supplied by the U.S. Fish and Wildlife Service. I wonder where 
that came from.
    Mr. Calvert. I am pleased to now yield to our distinguished 
ranking member, Mr. Moran, who is not here. How about Betty 
McCollum though?
    Ms. McCollum. Mr. Chair, I am just realizing online I can 
get my fishing license but I am going to give you my full 
attention. You convinced me I have got to get my fishing 
license updated.
    Mr. Calvert. That is right.
    Ms. McCollum. I am with you.
    Mr. Calvert. You fish without a license, you are in 
trouble. With that, Ms. McCollum, do you have any comments you 
want to make?
    Ms. McCollum. No, Mr. Chair.
    Mr. Calvert. Okay. With that, I am pleased to invite 
Director Ashe to give his oral statement.

                    Opening Remarks of Director Ashe

    Mr. Ashe. All right. Well, thank you, Mr. Chairman, and 
Members of the Subcommittee.
    Today, we are at a key crossroad facing difficult and 
important decisions as we prepare, very soon really, to hand 
over stewardship of this planet to our children. So, as always, 
I will be pleased to answer your questions about the details in 
our budget and the way that we set priorities across the U.S. 
Fish and Wildlife Service. But I will use my remarks to 
hopefully give it a little bit of context.
    Today, the context of our work in the conservation field is 
too often and really too aptly described using the word 
``crisis.'' The California drought is an example of a crisis 
for natural systems as well as for the millions of people who 
rely on them for water and economic security. To help find 
solutions, our people are working in crisis mode. Nights and 
weekends are indistinguishable from workdays to them.
    Our budget includes a $1.1 million increase to support the 
Bay Delta Conservation Plan, a piece of a long-term solution, 
but today we are all hands on deck working on the California 
drought. So even work as important as the BDCP yields to the 
urgency of this drought crisis.
    And, Mr. Chairman, I believe you will see that our budget 
proposes additional field capacity that will help us deal with 
the urgent, but hopefully not neglect the important. Combined 
with booming energy and agriculture, economies are fueling 
unprecedented conversion of wetlands and grasslands in the 
prairie potholes which produce \2/3\ of the continent's 
waterfowl.
    Great partners like Ducks Unlimited are calling this ``the 
crisis on the prairies'' but the effects will go far beyond the 
crisis. Waterfowl hunters spend annually about $2 billion, and 
the difference between liberal and restrictive hunting season 
will literally mean the difference of hundreds of millions of 
dollars for local economies and small businesses.
    We need to get ahead of this crisis curve now, today, and 
our budget proposes an increase in the price of the Duck Stamp, 
which all members of the conservation community support. Land 
and Water Conservation Fund projects for key refuge 
acquisitions in the Dakota grasslands and other places and 
funds for partners for Fish and Wildlife and the North American 
Wetlands Conservation Act are all key elements in addressing 
this crisis.
    Whether it is cheatgrass across the West or white nose 
syndrome in bats, chytrid fungus in amphibians, quagga mussels 
in Lake Mead and Lake Tahoe, Burmese pythons in the Everglades, 
or Asian carp in the Ohio and Mississippi River systems and 
knocking at the door of the Great Lakes, invasive species are a 
scourge which present us with crisis after crisis. We need to 
get ahead and beyond this cycle. We need better science. We 
need more effective prevention. But in the meantime, we need to 
face these crises, and our budget contains important new 
funding to do this.
    Wildlife poaching and trafficking is a global-scale crisis 
imperiling iconic wildlife and national security. African 
elephant and rhino poaching is an epidemic and syndicated 
trafficking is decimating these iconic species. The United 
States' leadership is central and the U.S. Fish and Wildlife 
Service is the tip of our Nation's spear in this effort. Our 
budget contains a $3 million increase to deal with this crisis.
    And the litany goes on. We are seeing an emerging climate 
crisis. Scientists believe we are living amid the world's sixth 
great extinction crisis. Many people see crisis in an American 
population that is increasingly urban and increasingly 
disconnected from the outdoors.
    Our budget contains funding for new science that will give 
us better understanding, and support better partnerships and 
sound decisions. It emphasizes capacities to support endangered 
species recovery, cooperative conservation, regulatory 
certainty, and expand our abilities to work with States, 
industry, agriculture, and other partners. I think as we 
demonstrated recently in our listing decision on the lesser 
prairie-chicken, it increases our efforts to engage America's 
young people, including an exciting new Urban Refuge 
Initiative.
    Mr. Chairman, we work amid many crises but I believe I have 
given you a budget that allows us to face the urgency of crisis 
but also be optimistic that we are addressing what is 
important. And so I just want to thank you for your work on 
behalf of the American people, for the support that we have 
always felt from this subcommittee. I know you face difficult 
choices and I stand ready to answer your questions and help in 
any way that I can.
    [The statement of Dan Ashe follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT


    
    Mr. Calvert. I thank the gentleman for his statement. I am 
going to recognize Mr. Simpson.

                            INVASIVE SPECIES

    Mr. Simpson. Thank you, Mr. Chairman. And I really do 
appreciate those courtesies and I will try to return them when 
he has a hearing when he is in the Energy and Water Committee. 
It is a difficult time when we have so many hearings at the 
same time trying to get them through.
    But I have got to tell you, you brought up a very important 
issue. I know it is important to me, it is important to 
Representative McCollum and I think every member on this 
committee, and that is invasive species. And one of the 
problems that we have had looking at that whole area is what do 
we spend on invasive species? There is no line item for 
invasive species, and there are organizations that are trying 
to develop some legislation because their theory is or what 
they tell you is that about 80 percent of the money gets spent 
somewhere besides on the ground actually fighting invasive 
species. I do not know if that is true or not because there is 
no way to account for it. So we need to work together to come 
up with a plan so that we know what we are doing to attack 
these invasive species.
    And I have got to tell you in all honesty I am not going to 
the Everglades to get rid of them pythons. They scare the hell 
out of me.
    Mr. Calvert. I am not afraid of snakes but I am afraid of 
those things.

                               IVORY BAN

    Mr. Simpson. Yes, those are big babies.
    A couple of questions. One you could probably anticipate, 
one maybe not. Let me ask the one that you will not anticipate 
to start with. Recently, you signed a director's order on 
ivory----
    Mr. Ashe. Yes.
    Mr. Simpson [continuing]. And have announced that three new 
regulations regarding ivory will be unveiled soon. It is my 
understanding that the United States has banned commercial 
importation of ivory for decades, so what we are talking about 
here is not restricting illegal commerce and endangered species 
but banning anyone from selling an item that contains any 
amount of ivory, including firearms, jewelry, musical 
instruments, and a myriad of other objects. All of us here at 
this table are opposed to poaching and want to protect African 
and Asian elephants. That is why it is hard to understand why 
Fish and Wildlife Service is going to ban all domestic ivory 
from future sales, ivory that might have been legal at the time 
when it was used. Would it not be better to use the 
appropriated dollars to go after the poachers and stopping the 
illicit trade in ivory?
    Mr. Ashe. Thank you, Mr. Simpson. We are going to use the 
appropriated dollars to go after poachers, to work on demand 
reduction both here in the United States and in other countries 
to build our relationships worldwide, to do better law 
enforcement, to help our partners do better law enforcement, 
and to achieve better prosecution of traffickers globally. And 
so our priority will be to find the people that are trafficking 
in these products and find them and prosecute them and to stop 
the killing on the ground by supporting community-based efforts 
in range state countries.
    What we have to recognize is the U.S. is one of the world's 
largest markets for ivory, and so what has happened is we have 
a situation where legal trade in ivory is a smokescreen for 
illegal trade in ivory and you cannot distinguish ivory that is 
pre-Act from ivory that is not pre-Act. And so we have 
extensive trade. We cannot control it. You cannot distinguish 
between these commodities.
    Things that are more than 100 years old and have immense 
value as an antique have a provenance. That is relatively easy 
to track and they will be exempt, but the kind of what I would 
call day-to-day commerce, if we are going to control this, it 
simply has to stop. And it is important for the U.S. to be a 
leader, because when we sit across the table with the Chinese 
Government on this issue, they look at us and they say we are 
allowing trade the same as you are allowing trade.
    Mr. Simpson. Well, I appreciate that and I know what you 
are trying to do. I am concerned about making things illegal or 
valueless that had value when they were originally purchased 
and people have maintained them and held them for that purpose, 
and now we make them essentially valueless by this. So it is a 
concern that I have and I want to work with you on that.
    Mr. Ashe. We will propose regulations probably in June.
    Mr. Simpson. Okay.
    Mr. Ashe. We will be proposing regulations for comment so 
we will be taking comments on that.
    Mr. Simpson. I did notice when I was in Alexandria that we 
are going through some of the Homeland Security ports and they 
were taking some of these containers through the x-rays and 
stuff and we were trying to detect whether there was, you know, 
nuclear material and that kind of stuff in there, what they 
found mostly was ivory.
    Mr. Ashe. Right. Yes.
    Mr. Simpson. It is a big problem around this country.
    The second question that you will understand I was going to 
ask about sage grouse.
    Mr. Ashe. Right.

                          GREATER SAGE-GROUSE

    Mr. Simpson. Where are we with sage grouse? We are rapidly 
approaching the September 2015 deadline to determine whether it 
warrants listing or not. I think we are all trying to prevent 
sage grouse listing by making sure that we protect habitat and 
so forth. What is the status of the Idaho-proposed State 
management plan? And I am hearing reports of the State that the 
local Fish and Wildlife officials and BLM officials agree that 
the State has put together a good plan, and I do not want to 
see a good agreement on the ground messed up when it gets back 
to Washington, D.C. Can you tell me where, we stand on that? 
And that kind of leads to my next question so you can answer 
them both at the same time.
    States like Idaho put a lot of work into developing viable 
management plans. When this process began, then-Secretary 
Salazar welcomed the States to the table early on in the 
process and asserted that the State had a significant role to 
play in preventing the ESA listing. Unfortunately, they now 
feel that DOI and Fish and Wildlife Service have moved the 
goalposts and cut them out of the process. They have worked 
hard on state management plans that they now feel relegated to 
the public comment period instead of being treated like 
partners in the process. This is an issue that Governor Otter 
and I brought up when we met with you and Secretary Jewell and 
others about this issue last fall.
    Mr. Ashe. I would say on greater sage grouse in general, 
the effort that is ongoing is substantive; it is impressive in 
its scope and the degree of commitment. We have 10 of the 11 
range States working on comprehensive state-based plans for 
sage grouse. We have the BLM and the Forest Service, which 
control 50 percent of the habitat, working to revise 98 
resource management plans.
    We have the NRCS that has built a greater sage grouse 
initiative and has put nearly $200 million on the ground to 
assist private landowners. So we really have an unprecedented 
scale of effort ongoing with the greater sage grouse. I am 
encouraged by that effort and it is important that the effort 
continue.
    I would say with regard to the Idaho plan, we are happy 
with the Idaho plan and I think BLM gave special status to the 
Idaho plan. It is the only State that they gave the status of 
co-preferred alternative in their land management planning 
process. I think the Idaho plan is good. As we told the 
governor, I believe that they need to take one more step, which 
is to address private lands in the State plan. Their plan at 
this point looks at the State and Federal lands and it has to 
go that additional step. We are working with Idaho hand-in-
glove.
    On the criticism that we have cut them out of the process, 
I really do not understand that at all. I think we are working 
through and with the Western Governors Association. Secretary 
Salazar established the Sage Grouse Task Force. The governor of 
Wyoming and governor of Colorado are co-chairs. I attend every 
meeting. They meet every 2 months. Neil Kornze, Bureau of Land 
Management Principal Deputy Director, attends every meeting. 
The Forest Service is represented. The NRCS is represented. We 
are all at the table and have a robust dialogue and back-and-
forth at those meetings. And so I believe they are integrally 
involved. They are at the table and completely engaged. I would 
say there are items on which we do not agree, but we have a 
process to work that out.
    I would make one point about fire, which is an important 
issue before this committee. In the President's proposal to 
deal with the balance between suppression and prevention, 
prevention is going to be extremely important in addressing the 
sage grouse issue. The principal threat to sage grouse in the 
Great Basin region is fire. Being able to not be completely 
consumed by suppression but having the ability to focus on 
prevention and restoration and rehabilitation is a key aspect 
of addressing the threat to sage grouse in the Great Basin.
    Mr. Simpson. Thank you, Director. Thank you, Chairman.
    Mr. Calvert. Thank you.
    Ms. McCollum.

                               LACEY ACT

    Ms. McCollum. Thank you.
    The two questions I am going to ask are kind of 
interconnected oddly enough, wildlife trafficking and invasive 
species, because I want you to talk about different sections of 
the Lacey Act. How long it has been since the Congress has 
worked to improve and enhance the Lacey Act to the challenges 
that we face today?
    But to Mr. Simpson, Gabon, Kenya have destroyed their ivory 
piles. France is very proud that it was the first in Europe, 
although the royal family is going through everything that they 
have looking at what they are going to destroy, some things 
that they might just preserve out of sight for a while. Hong 
Kong is destroying ivory, Belgium is also, so the United States 
is only one of the countries to do it.
    Attitudes are shifting in China in part because of what we 
have done. Chinese athletes are speaking out and speaking up 
about it in social media and starting to transform and change 
that. But China is the biggest looker-away about what is coming 
into their country. Some of the activities in Africa like 
roadwork and airports are good things they are trying to do. 
But after the Chinese have done those projects, 
environmentalists and zoologists will tell you there is not an 
animal left in sight. They come in with boxcars, which are 
repacked. No one looks at them again and out they go to the 
port. As you said, then some of them unfortunately are landing 
up in the U.S.
    Ms. McCollum. So could you maybe kind of fill us in a 
little bit about, what the wildlife trafficking picture looks 
like? The President put more money into this initiative, what 
U.S. Fish and Wildlife's role is in it. I know there are other 
government agencies that you will be working with on this, too.
    And then, the python that are out in the Everglades, one of 
the reasons why they are indigenous and one of the reasons why 
they are here is because they were allowed to be sold as pets. 
There has been other problems with other releases in other 
countries, let alone deal with the pests that come in, whether 
it is, gypsy moth or some of the other things that we are 
dealing with that come in that were not brought in 
intentionally.
    So the Lacey Act is kind of there to do a couple of 
different things. One, it is to enforce penalties for illegal 
trade of animals and plants. But as we move towards a more 
interconnected world, if we were writing that today, what might 
be some of the things that, we would be looking at that we 
should be working with you to improve the Act?
    Mr. Ashe. Thank you. On trafficking, the most important 
thing to emphasize is the President's recent Executive Order. 
We now have an all-of-government approach here. I think as we 
move ahead, and as you and I spoke about the other day, we are 
being joined by the State Department and the Justice Department 
and the Treasury Department and the Defense Department. So the 
ability to apply an all-of-government approach to this 
trafficking crisis is key for us. I think that is important 
going forward.
    With regard to the Lacey Act, it was written in 1900 when 
trade moved principally by steam locomotive. Today, products 
move rapidly around the globe on a 24-hour cycle. I think if we 
were writing the Lacey Act today, it would be much more geared 
to an approval process for products to come in, much more like 
we do with agricultural plants and pests that, may not come in 
unless you have approval. We have a lot of things in trade and 
probably what we are relegated to at this point is trying to 
control them.
    This committee and all the appropriation committees have an 
interest in dealing with this because once invasive species are 
established, we have the burden of control, which is expensive, 
as opposed to saying we are not going to let something come in. 
I think if we were rewriting the Lacey Act, things that are not 
in trade today should not come into the country unless we have 
reviewed them and made a determination that they are not 
invasive. Exotic is one thing; invasive is another. 
Invasiveness is a relatively easy thing to measure and we have 
established protocols to do that. I think that would be the 
most important aspect if we were writing the law today.
    Ms. McCollum. Mr. Chair, I think it would also save this 
committee a lot of money to put towards other things, so maybe 
we need to talk to the Policy Committee and get them to take a 
look at it. And I look forward to learning more from the staff.
    You are concerned about hatcheries. They are a big 
investment in Minnesota. I even paid $5 extra for a walleye 
stamp to, improve walleye hatchery and habitats. So thank you, 
Mr. Chair.
    Mr. Calvert. You are doing your share.
    Next, Ms. Herrera Beutler.

                          NORTHERN SPOTTED OWL

    Ms. Herrera Beutler. Thank you so much, Mr. Chairman.
    And I know whether or not listing things is probably going 
to continue to be a topic of discussion on this committee, I 
actually wanted to talk about something that is already listed, 
the wonderful, amazing northern spotted owl.
    Mr. Ashe. I have heard of that.
    Ms. Herrera Beutler. I am sure you have, as have I since I 
was like 7.
    There seems to be a growing understanding that managing an 
entire ecosystem for one species is not as effective as we 
could be. In fact, what we are finding out of the experience of 
the last 20 years of policy is that it can actually be very 
damaging to other species. As you know in the last 20 years, 
specifically with regard to the northern spotted owl, we have 
seen reductions in early seral forests and the species that 
live in them, a decline in elk and deer population, a decline 
in more than 40 bird species in the forests, a decline in the 
spotted owl itself, which is what we are trying to protect, and 
a major decline in the jobs and the families that rely on 
healthy forests and forest and timber activities.
    So I know you understand all of this, and what I would like 
to hear from you, is Fish and Wildlife working with other land 
management agencies to address this because I have heard 
positive things about it from several of the folks that you 
work with, whether it is Forest Service, whether it is BLM, but 
address an ecosystem-wide approach versus a single-species 
approach.
    Mr. Ashe. Our emphasis, and it is reflected in our recently 
revised recovery plan for the northern spotted owl, is 
ecological forestry. It is our firm belief that healthy forests 
are good for spotted owls and that we can manage the forests 
and need to manage the forests. In the short run that can 
involve take of listed species, not only the spotted owl but 
potentially others.
    Ms. Herrera Beutler. Are you talking about the barred owl?
    Mr. Ashe. No, we are taking them, too. I am talking about 
salmon or marbled murrelet or other species that are listed and 
share some of the same habitat. Forest management is necessary 
to make a healthier habitat in the long run. Last year Tom 
Tidwell, the Chief of Forest Service, Neil Kornze from the BLM 
and I went up to the northwest. We met with all of our joint 
employees in Oregon, Washington, California, and we delivered 
that message, that we need to be working together to better 
define and implement this notion of ecological forestry. We are 
building pilot projects there. We need to manage forests. We 
need to look to the future, not manage the present. We cannot 
manage to a static environment. It will not work even if we 
wanted it to. We need to think at an ecological scale and we 
need to build recovery plans and forest management plans that 
do that. I think in the end that is good for the owl, it is 
good for the local economy, and it is going to be good for the 
economy.

                         NORTHWEST FOREST PLAN

    Ms. Herrera Beutler. Absolutely. I would agree. So with 
regard to the Northwest Forest Plan and the amount of timber 
that is supposed to be selectively harvested, you do not see a 
problem in there?
    Mr. Ashe. Well, we have always been a supporter of the 
Northwest Forest Plan and we have been writing biological 
opinions under the Endangered Species Act to support 
implementation of the forest plan.
    And there are many other factors. There is the National 
Forest Management Act, there is FLPMA for the BLM and there are 
other laws that come into play that often are challenging as 
well.
    From the standpoint of the Fish and Wildlife Service, we 
believe we can make this concept of ecological forestry work 
and we are writing biological opinions today that reflect that 
and provide the take coverage for both Forest Service and BLM 
to implement ecological forestry.
    Ms. Herrera Beutler. Okay. Good.
    With that, I yield back. Thank you.
    Mr. Calvert. Thank you. Ms. Pingree.
    Ms. Pingree. Thank you, Mr. Chair.
    Thank you very much for being here today----
    Mr. Ashe. Yes.
    Ms. Pingree [continuing]. And for your good work.
    I will start with one question. Before I do, I want to 
thank you, thank the Fish and Wildlife Service for their 
continued work with the Army Corps of Engineers throughout the 
Camp Ellis project, which is in the town of Saco, Maine, that I 
represent. The Service has been working with the Army Corps to 
make sure that the project benefits the endangered species, as 
well as the community, and I am looking forward to amenable 
solutions being found for the project to go ahead and move 
forward. But I have talked to the department. I know you guys 
are right in the middle of that and I appreciate your attention 
to that.

                    NATIONAL WILDLIFE REFUGE BUDGET

    I want to talk a little bit about the wildlife refuge 
budgets. As I am sure you know, there are 10 wildlife refuges 
in Maine, including the Rachel Carson National Wildlife Refuge 
which protects valuable salt marshes and estuaries for 
migratory birds along 50 miles of coastline just in my 
district, which is only about half the coast of Maine.
    As we learned from Hurricane Sandy, severe weather events 
can have a devastating effect on our refuges. We were able to 
provide supplemental funding of $68.2 million to make repairs 
to 25 national wildlife refuges and three national fish 
hatcheries from Florida to Maine as a result of Sandy and the 
money, but the underlying budget does not seem to have the 
capacity in the future to absorb such drastic events. As I read 
it, the fiscal year 2015 budget for refuges is $476 million. 
This is only $4 million above fiscal year 2014. I know we are 
not supposed to complain when anything goes above, but can you 
tell me a little bit more about the program needs that you will 
try to address with the increase, particularly given the 
incredible problems you have been facing due to extreme weather 
events, sea level rise, coastal impacts of storms and 
hurricanes, all of which we are witnessing and deeply concerned 
about on the coast of Maine and most of New England?
    Mr. Ashe. Thank you. In one of my former capacities with 
the U.S. Fish and Wildlife Service, I had the honor to be Chief 
of the National Wildlife Refuge System, so the refuge system 
certainly is near and dear to my heart. I have been to almost 
all of the refuges in Maine, they are spectacular.
    I would say for point number one that we have only a small 
increase in this proposed budget and that will principally go 
toward youth and youth engagement and law enforcement, a small 
increase for law enforcement. Thanks to the subcommittee and 
Congress, in the fiscal year 2014 bill we got a $20 million 
increase for refuges, very generous in today's context. Thank 
you for that because it has allowed us to begin to think about 
filling key vacancies in the refuge system.
    This is generally, not enough. Refuges by and large 
represent great opportunity.
    Mr. Chairman, you were speaking of the importance of 
recreation and fisheries. Hatcheries are an issue where we have 
put substantial investment and we have been successful in 
getting the Corps of Engineers and the TVA to step up and admit 
their responsibility to fund those mitigation hatcheries. I 
think we have alleviated a burden from us and from you in doing 
that. We are going to continue to operate those hatcheries 
because we believe that is important.
    In the context of refuges, we have extraordinary 
opportunity to host increased visitation within the refuge 
system for hunting and fishing and wildlife observation and 
what we call wildlife-dependent recreation. I think if I saw 
one big deficit in our capacity, it is the capacity to do more, 
to engage young people, to engage the American people, to get 
them outside and get them engaged in these great traditional 
pastimes.
    Ms. Pingree. Thank you.
    Thank you, Mr. Chair.
    Mr. Calvert. Thank you. I would like to congratulate Mr. 
Moran, who is not here, for getting credit for the fiscal year 
2014 refuge budget. He was very insistent and we made sure that 
that occurred, so----
    Mr. Ashe. Thank you.

                              DELTA SMELT

    Mr. Calvert [continuing]. Giving credit where credit is 
due.
    I want to bring up the delta smelt. I am sure that is a 
shock to you. The 9th U.S. Circuit Court of Appeals recently 
upheld the 2008 biological opinion by U.S. Fish and Wildlife 
that concluded that the Central Valley and the State Water 
Project, which provides water for more than 20 million people 
and 7 million acres of agriculture, jeopardized the continued 
existence of the delta smelt and its habitat. The court 
acknowledged the enormous practical implications of its 
decisions, but it was prohibited by the Endangered Species Act 
from making such fine unitarian calculations to balance the 
smelt's interests against the interests of the citizens of 
California. Resolution of that question, the court said, falls 
to Congress, the agencies to which Congress has delegated 
authority in the State of California.
    This is the question. While we wrestle with solutions, what 
flexibilities, especially now because we are going into summer, 
that you are afforded under the authorities in order to provide 
water for more than 20 million people in California and 
hundreds of millions elsewhere who depend on California's 
produce while at the same time meeting your ESA mandate to 
prevent the extinction of the delta smelt? How are your 
flexibilities limited by the resources at your disposal?
    Mr. Ashe. I think one way, Mr. Chairman, that demonstrates 
that vividly is this year for the first time because of funding 
from the Bureau of Reclamation, we are doing much finer-grained 
monitoring, we are actually doing real-time monitoring of delta 
smelt. We have been able to provide guidance to the Bureau and 
the State Water Project on a 24-hour basis, knowing where delta 
smelt are and that they are away from the pumps. I think that 
underscores the importance of our ability to access scientific 
information and the best science that the day can offer us. We 
can make much finer-grained operational decisions when we have 
that kind of information.
    Mr. Calvert. For the record, anecdotally, about a year ago, 
December a year ago, the pumps were operating at less than the 
optimum level and there was some controversy on how many delta 
smelt would be lost if they operated it at a higher level, and 
around 800,000 acre-feet of water was let to go out under the 
Golden Gate Bridge, which we wish we had right now. I was told 
later that less than 50 smelt were threatened under that 
pumping regime. Can you enlighten us on that?
    Mr. Ashe. When people talk about smelt and the pumps, the 
smelt that are taken at the pumps are an index. The adult take 
was limited to 110 smelt in our biological opinion for this 
year. That is a metric. So if you see 110 taken, actually many 
more have been taken. That is kind of an index to tell you 
about the level.
    Mr. Calvert. Well, as you can imagine, to the farmers and 
to the people in California, when they hear the number less 
than 50 delta smelt and 800,000 acre-feet----
    Mr. Ashe. Right.
    Mr. Calvert [continuing]. Being lost----
    Mr. Ashe. I hear you.
    Mr. Calvert  [continuing]. When 800,000 acre-feet--by the 
way, that is how much water we have stored in Southern 
California, which will get us another year-and-a-half. It is 
Diamond Valley Reservoir and a few other reservoirs.
    Mr. Ashe. I think----
    Mr. Calvert. That is a lot of water.
    Mr. Ashe. It is and I would say I think again our people 
have been doing extraordinary work hand-in-glove with the 
Bureau of Reclamation and with the State on the current drought 
and crisis. I would point out that there have been no pumping 
restrictions this year because of delta smelt.
    Mr. Calvert. Now, when you say there are no pumping 
restrictions, you mean they are pumping to their legal 
authority under the 2008 biological opinion, is that not right?
    Mr. Ashe. No, we have not had to impose any restrictions at 
all on pumping because the State restrictions for water quality 
purposes have been much more restrictive than our biological 
opinion. There have been no ESA, no delta smelt restrictions on 
pumping at all this year.
    Mr. Calvert. Well, I see Mr. Valadao came in. I am sure he 
will probably have some other questions regarding that issue in 
the Central Valley.

                  ENDANGERED SPECIES ACT: IMPROVEMENT

    Before I go to Mr. Serrano, I wanted to ask another 
question on ESA single-species approach. And obviously we have 
learned a lot in the last few decades about ecosystem science. 
And in 2010 former Interior Deputy Secretary Lynn Scarlett 
wrote specifically about such weakness when it was applied to 
the Bay Delta. In your opinion should Congress and the 
Administration take up the issue of updating, improving, and 
reauthorizing the Endangered Species Act?
    Mr. Ashe. It is almost a philosophical question. Yes, they 
should. My fear is that in this environment it is very 
difficult to do that because taking up a law like the 
Endangered Species Act requires building consensus around 
objectives and I am not certain that there is consensus around 
objectives. But I do believe that it is appropriate for 
Congress. The law was last reauthorized in 1990. I believe it 
is appropriate for the Congress to look at a law as 
consequential as the Endangered Species Act.
    Mr. Calvert. I suspect there would be a movement to do some 
incremental improvements.
    Mr. Ashe. There can be some incremental improvements and, 
again, I would extend on behalf of the U.S. Fish and Wildlife 
Service our willingness to work with the committee on a 
bipartisan basis to find those opportunities. I think we could 
find some opportunities to make incremental improvements.
    Mr. Calvert. Okay. Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman. And thank you for 
being here with us today.
    Mr. Ashe. Thank you, sir.

                    STATE AND TRIBAL WILDLIFE GRANTS

    Mr. Serrano. As a supporter of the State and Tribal 
Wildlife Grants, I was troubled by the reductions in these 
accounts. In your budget documents, you state that State and 
Tribal Wildlife Grants will be reduced by roughly $8.7 million 
to address ``higher priorities.'' And then the document 
continues to explain that the cuts will weaken the States' 
ability to respond to species' needs and to address the needs 
of non-game species. I am quite troubled to see this cut and 
frankly find the explanation a little confusing. I would expect 
to see an explanation as to why this does not weaken the 
States' abilities to respond to needs and what the higher 
priorities are.
    As a supporter of these important grants, which have such a 
large effect on the States and Territories, I would be 
interested in hearing how this justification should make me 
comfortable that this program is not being cut just for the 
sake of saving money by making a cut. Can you explain how, 
then, the cuts will affect the program?
    Mr. Ashe. Thank you, Mr. Serrano.
    I would say, first, that State fish and wildlife agencies 
are our most important partner.
    Mr. Serrano. Right.
    Mr. Ashe [continuing]. So I offer you no argument. The cut 
in the State and Tribal Wildlife Grants does weaken the 
capacity of the States', important capacity, and it should not 
make you comfortable at all and it does not make me 
comfortable. I said to the Chairman and the Committee earlier 
that I have presented you a budget that deals with crisis and 
hopefully allows us to work on things that are important. I 
think this is one area that is troubling in that regard because 
it is important that our State partners have this capacity, but 
we only had so much to work with. It does weaken our State 
partners in an important way and it should not make you 
comfortable. It does not make me comfortable.
    Mr. Calvert. If the gentleman would yield, I will be happy 
to work with you to help restore some of that funding.
    Mr. Serrano. I would be glad to. It is always good to 
include the minority party in enlarging the amount of money.

                            URBAN ENGAGEMENT

    I wanted to commend your efforts to engage and work with 
urban communities. I appreciate your efforts to engage urban 
youth and expose communities. I appreciate these efforts 
exposing them to the wonders of nature.
    I wanted to draw your attention to an effort that might be 
of use to your more strictly scientific mission. Your 
colleagues in the Forest Service have an innovative partnership 
with New York City Parks and Recreation which they jointly 
operate, an Urban Field Station in New York City. They focus on 
the science and research that they can carry out in an urban 
environment. Their collaboration at that field station along 
with other scientists and associated groups who joined them has 
proven extremely valuable to our city and its natural 
environment. It seems to me that the value of these 
interdepartmental and intergovernmental efforts is magnified in 
the current budgetary climate.
    I wonder if you have been approached to join their efforts 
at the Urban Field Station? If not, would you consider joining 
or perhaps opening your own outpost in urban areas built on 
this successful model?
    Mr. Ashe. I do not know if we have been invited but I will 
find out. I would like to come see you because what you are 
talking about is synonymous with our Urban Refuge Initiative 
and it sounds exciting. I think the opportunity to connect with 
a new generation of Americans, a diverse generation of 
Americans and really reach into urban audiences is an important 
part of making conservation relevant to the future of America. 
I would love to talk to you about that.
    Mr. Serrano. Right. Mr. Chairman, something I said last 
year and I will repeat it again is that if there has been a 
change in how we look at things in this country, I think it has 
been in the urban areas where growing up that was never an 
issue. The environment was never an issue. You know, the 
biggest environmental issue was how much black smoke was coming 
out of chimneys, you know.
    And now you have people working on rivers, creating 
waterways, you know, asking for Federal, State, and local help 
to be able to have a boat on a river in the Bronx, for 
instance, to bring wildlife back to parks, and so on. And so it 
is a whole different generation that understands that this is 
part of city life as much as it is part of country life.
    Mr. Ashe. Those of us who have been in the conservation 
community for a long time, are interested in wild lands and 
wildlife, but we are learning more and more that there are 
great opportunities to connect people in the urban environment. 
I think about, just a month or so ago, all the interest in the 
snowy owl that took up residence here in the District of 
Columbia. There is great opportunity----
    Mr. Serrano. Right.
    Mr. Ashe [continuing]. To engage people about wildlife in 
the urban environment and it is an opportunity for us as a 
community of professionals to bring that to the urban 
environment.
    Mr. Serrano. Thank you so much. Thank you, Mr. Chairman.
    Mr. Calvert. We are looking forward to doing a field trip 
to the Bronx to see Jose the beaver, maybe about the same time 
the Dodgers are playing the New York Yankees.
    Mr. Serrano. I would say the beaver is having a better 
season than they are.
    Mr. Calvert. That is probably true.
    Mr. Joyce.
    Mr. Joyce. Thank you, Mr. Chairman. Good afternoon, 
Director.
    Mr. Ashe. Good afternoon.

                               ASIAN CARP

    Mr. Joyce. You mentioned in your testimony the need to 
limit the Asian carp in major watersheds. I am afraid if the 
Asian carp make their way into Lake Erie or any of the Great 
Lakes it would be not only detrimental to the region but it 
would greatly impact all the fish in the Great Lakes. As they 
say at home, it is game, set, match. Can you address the 
specifics of the Service's plans to limit Asian carp from 
moving towards the Great Lakes? What is the status of where 
carp currently are? And what have you learned in the past year 
on what is working and what is not as far as keeping them in 
their current locations?
    Mr. Ashe. Wow. You are beyond my competence here. I would 
say that we are learning more and more about Asian carp every 
day. They literally are at the doorstep of the Great Lakes. The 
Fish and Wildlife Service, with the help of the subcommittee, 
has in recent past developed this technique of monitoring eDNA 
so we do not have to actually go out and find the fish. We can 
look for traces of their DNA in the water and learn more about 
where they are moving and where they may be without actually 
finding an adult or juvenile fish. So kind of pushing the 
scientific envelope is an important arena for us and an 
important role for the U.S. Fish and Wildlife Service.
    I am working with the Corps of Engineers to evaluate the 
effectiveness of the electronic barriers and analyze the 
feasibility and the desirability of maybe a more permanent 
solution, working with our State counterparts on a response so 
that should we find fish in the Great Lakes, we are prepared to 
respond and move quickly to suppress them, much along the lines 
of a wildfire so that we are prepared and we know what to do 
and who has responsibility for doing what in the event of an 
outbreak within the Great Lakes. I think all of the above are 
the things we are doing and the things we need to do more of 
and get better at if we are going to keep them out of the Great 
Lakes.
    Also, knowing Ms. McCollum's interest, we cannot limit our 
activities to the Great Lakes. We need to look into the Ohio 
River, into the Mississippi River basin to make sure we are 
also limiting the spread of Asian carp in those areas as well.
    In terms of the details that you are asking about, our 
expert on this is our Deputy Regional Director in Minneapolis, 
Charlie Wooley. Charlie is down here frequently, and I would 
like him to come in and see you and give you a presentation on 
where we are and what we can do with these additional funds and 
make sure that aligns with your understanding of what we need 
to do.
    Leadership by the U.S. Fish and Wildlife Service is going 
to be essential and I think we have been a leader and we have 
worked with our State partners very closely and we need to 
continue to do that.
    Mr. Joyce. I am glad you brought that up because part of 
that as my second question. Has there been any update in the 
science used to determine exactly how close the Asian carp are 
to entering the Great Lakes? And knowing that you are using the 
eDNA now that has been found in streams and rivers close to 
Lake Michigan, do you have any information on how credible that 
is?
    Mr. Ashe. We are learning about the credibility of eDNA. 
There have been some criticisms of its use, and so, again, I 
cannot give you a precise update of that. I would like to be 
able to do that but there have been criticisms about it. But 
like any new tool, we have to learn how to use it. I think it 
is promising. The committee gave us some new resources just two 
years ago and we are trying to put those into practice and then 
learn how to use them, and determine when we get information, 
what does that mean?
    I think what I would like to do is get our experts down 
here to give you a kind of up-to-the-minute update on where we 
stand and where we need to go. I would just underscore again 
the importance that we have the ability to build these 
scientific tools, learn from them, improve them, and get the 
next generation out there so we are making the best use of any 
flexibility that we have or that other agencies have to deal 
with those challenges.
    Mr. Joyce. I certainly appreciate that, sir. And one thing 
that would be worthwhile for us is that the Army Corps of 
Engineers came up with eight different plans that they had for 
stopping Asian Carp, one of them being nothing, which means 
there are really seven plans. We need to get focused on one 
plan because we cannot continue on the path of not doing 
anything. And once the carp are there, again, it is game, set, 
match.
    Mr. Ashe. We are in agreement about the potentially 
devastating impact that Asian carp could have on the 
recreational fisheries in the Great Lakes. Again, we are 
working hand-in-glove on native lake trout restoration and 
control of lamprey. We are putting hundreds of millions of 
dollars into the restoration and maintenance of these great 
fisheries and they could be put at risk.
    Mr. Joyce. I must commend you because you have done a 
tremendous job. When people talk about how they are going to 
create jobs, it is by creating new agencies. We do not need any 
more agencies. And we create jobs because of the things that 
you are doing. Just tourism alone in the Great Lakes is a 
tremendous industry for us. And I was just wondering if you had 
any position at all about fishing Asian carp into extinction?
    Mr. Ashe. Well, we joke about that. One thing that we seem 
to have done very well, especially in the past is over-fish. 
The thing about Asian carp is can you create a market for them? 
Once you create a market, can you not have it then become a 
resource that people want to manage? I think there has been 
some interest and some exploration in how to do that, but what 
we would have to do is really work probably with the 
Agriculture Department or Economic Development Administration 
or others to put in place the processing and shipment 
facilities that would be necessary to do that. There are people 
actively exploring those ideas and possibilities, and that 
could be part of a solution.
    Mr. Joyce. I look forward to working on a solution with 
you. And if I have any time left, Mr. Chairman, I am yielding 
it back.
    Mr. Calvert. You do. Mr. Stewart.
    Mr. Stewart. Thank you, Mr. Chairman. Mr. Ashe, it is good 
to see you again, sir.
    Mr. Ashe. Good to see you, too.
    Mr. Stewart. We had a conversation in my office sometime 
ago and I am going to continue that if we could.
    Mr. Ashe. Yes.

                            UTAH PRAIRIE DOG

    Mr. Stewart. I apologize, Mr. Chairman, for being late. We 
actually did a markup and passed a bill in the Legislative 
Affairs, which I am told was the earliest that they have done 
that in generations, so it was nice to be a part of that. And 
we look forward to doing the same thing here, insisting and 
actually passing legislation out of the Appropriations. Will 
that not be fun?
    For the record and to review, Mr. Ashe, because I know that 
you have thousands of issues, and I am going to go out on a 
limb and speculate that though I am late, I am not the first 
nor only person that once to talk about ESA issues. And we have 
some substantial concerns there in my district.
    We have the Utah prairie dog, which has been listed on the 
endangered species since the creation of the Act in 1973. There 
are three recovery areas for the species. All of them are in my 
district. And here is what happens essentially and then I am 
going to tie my question to something you said, Mr. Chairman, 
earlier in your comment.
    The Utah Division of Wildlife Resources goes out every 
spring and they count the number of these prairie dogs. They 
count them on both public and on private land. But then fish 
and wildlife only considers the number of these prairie dogs 
that live on public lands. Well, these prairie dogs, the 
lovable little things that they are, they are not dumb and they 
like to live where people like to live. They live where there 
is water, where there is cover, where there is protection from 
raptors, where there is, you know, irrigation in fields and all 
the things that the rest of us enjoy. They do not like sitting 
on rocks out in the middle of the desert.
    And so most of these prairie dogs have migrated to private 
lands and yet they are not being considered in the official 
count as to whether it would be appropriate to delist them, 
whether we have been able to protect the species to the point 
where we could.
    And so a few weeks ago I submitted a bill, the Endangered 
Species Improvement Act, which would just require--which seems 
so commonsensical to me; I cannot imagine this being 
controversial and I have been on a number of media programs and 
other venues to talk about this. I say how can someone disagree 
with this? If you are trying to measure the health of a 
species, if you are trying to protect that species, as we all 
want to do--none of us want to drive a species into 
extinction--but how could we not have this commonsense approach 
of actually counting and knowing how many of them there are, 
not differentiating between there is a certain number on public 
lands and a certain number on private lands?
    And I am wondering your response, Mr. Ashe, to that. Would 
you support us in that effort and does that not seem to make 
sense that we would count all the species before we would set 
policies and in some cases economically destructive policies 
and very prohibitive policies based on a number which may not 
be accurate?
    Mr. Ashe. I would agree that we need to count and we need 
to have a commonsense approach to how we set a recovery 
objective.
    Mr. Stewart. I am just going to stop you there. Thank you, 
sir.
    Mr. Ashe. I would just make one point that you and I talked 
about a year ago I think almost now, that we can do better. I 
think we have been working together and I think we need help on 
both sides of the street. And hopefully we can get more support 
from the local areas in Utah.
    I think the difference on public and private land is that 
when we make a delisting decision, it is one thing to say that 
we have X number of these critters out there. What we have to 
be able to show is that they will stay there, and in order to 
delist, we have to be able to show that they are secure. What 
we have not been able to do in Utah is show that if we delist, 
that these prairie dogs will be secure. I think we can get 
there but we need cooperation. And I know you have been helping 
us and so hopefully we will see a path forward.
    Mr. Stewart. I appreciate that. In our relationship I sense 
that you want to help us with this, that you do want to take a 
commonsense approach.
    And by the way, sir, I understand that it is not enough to 
just go count, that we have to be confident, as you said, that 
they can sustain themselves. Of course, we want to do that as 
well but the starting place has to be, it seems to me, knowing 
how many there are.
    Mr. Ashe. Absolutely. To come back to our budget, I think 
in our budget the increases that we have requested for our 
endangered species program, the bulk of those increases are in 
the portion of our program that supports recovery, that 
supports cooperative conservation, that supports the kind of 
scientific investigation that we will need to deal with these 
types of issues, delisting. So we are asking for a small 
increase in our listing program and the bulk of the increases 
are in the portion of our budget that supports recovery, 
delisting, and cooperative conservation.
    Mr. Stewart. Well, we appreciate that.
    And, Mr. Chairman, the policies have to be driven by the 
reality, and the reality cannot be established if we do not 
know how many there are through a fair accounting. Then based 
on that we can put together plans to assure that the species 
survives.
    I will end with this. One of the concerns that I have with 
this, and it is consistent because we see it so often, and that 
is it drives a wedge between citizens and the Federal 
Government when they see policies that they just say this does 
not make any sense. It has in some cases very real economic 
consequences for them. Both of us would like to see that 
reduced rather than exaggerated and this would be a step 
towards trying to do that, so thank you, sir.
    Mr. Ashe. Thank you.
    Mr. Stewart. And, Mr. Chairman, I yield back.
    Mr. Calvert. I thank the gentleman.
    Mr. Valadao.

                           CALIFORNIA DROUGHT

    Mr. Valadao. Thank you, Mr. Chair. You are correct; I do 
want to talk about water.
    Director Ashe, California is facing one of the worst 
droughts in recorded history. Farmers are fallowing fields and 
many of my constituents will be losing their jobs due to lack 
of water availability.
    Currently, the Sacramento-San Joaquin Delta is experiencing 
what could be the last significant storm flows of the season. 
The pumps that deliver water south to my constituents have a 
total physical capacity of nearly 30,000 acre-feet per day. It 
is my understanding that the current factors limiting pumping 
are the biological opinions issued by your agency and the 
National Marine Fisheries Service. What is the total amount 
being pumped under the current biological opinions?
    Mr. Ashe. The amount that can be pumped under the current 
biological opinion is at -5,000 acre-feet per day on a 14-day 
average. So we can go above that, below that, but on a 14-day 
average it has to be -5,000 acre-feet.
    Mr. Valadao. Can you explain that, please, -5,000? So that 
means we have to send water back up to the Delta----
    Mr. Ashe. When they pump out of the Delta it makes----
    Mr. Valadao. You are talking about the reverse flows?
    Mr. Ashe. It flows backwards so it is a negative flow in 
the river that we measure.
    Mr. Valadao. The question I am asking is, exactly what can 
be pumped through those pumps when water is going through the 
pipelines? What amount of water are we allowed to pump today? 
What are we pumping today as far as acre-feet that are exported 
south of the Delta?
    Mr. Ashe. I do not know. I can get that answer for you.
    Mr. Valadao. What we are being told it is 10,000 acre-feet 
per day. About \1/3\ of the potential of the pumps is what is 
being pumped today.
    Mr. Ashe. They do not pump to the full potential of the 
pumps and they have not under any circumstance in recent 
memory.
    The delta smelt biological opinion is not what is limiting 
the pumping today.
    Mr. Valadao. So what is?
    Mr. Ashe. The limiting factor on the pumps has been the 
restrictions that have been put in place by the California 
Water Resources Board for health and safety.
    Mr. Chairman, you asked me before about single-species 
management. We find when we are managing for something like the 
delta smelt we are managing salinity levels as water moves back 
and forth in the Bay Delta ecosystem. The same thing is 
important for people because for those municipalities, pumping 
saltwater does not really help them----
    Mr. Valadao. How much sewage is dumped in the Delta every 
day?
    Mr. Ashe. Excuse me.
    Mr. Valadao. How much sewage is dumped in the Delta every 
day?
    Mr. Ashe. I do not know.
    Mr. Valadao. It is about 380 million gallons a day. When 
people talk about their concerns for the environment and 
keeping the water clean, I guess maybe not dumping sewage would 
be a great start.
    But I will go onto the next question. Despite the fact that 
pumping operations have killed absolutely no delta smelt this 
season and less than 450 of the combined nearly 27,000 salmon 
and steel head allowed under the biological opinions, on 
Tuesday, my constituents were forced to send nearly 41,000 
acre-feet of precious water to the Pacific Ocean. That is 
enough water for 82,000 families for a year and almost 14,000 
acres of crops in just one day. That is just one day.
    Last week, I joined Chairman Calvert and other members of 
the San Joaquin Valley Delegation and Senator Feinstein in 
sending your boss, the Secretary of the Interior, and the 
Commerce Secretary a letter urging them to use all their power 
to pump the maximum amount of water from this week's storms. Is 
less than \1/3\ of the pumps' potential the best they can do? 
Do you consider 10,000 acre-feet of water per day to be the 
maximum amount of water? Can you tell us here today 
specifically what damage to fish would be if 50 percent of the 
water flowing to the Delta was pumped?
    Mr. Ashe. Congressman, we have to operate within a legal 
construct. We have a biological opinion which contains----
    Mr. Valadao. Do the biological opinions affect the pumping 
levels?
    Mr. Ashe. When you asked me about pumping to the full 
extent of the capacity of the pumps, it is not supportable 
under the biological opinion. So even if we wanted to do that, 
we would be sued and we would lose because our biological 
opinion outlines the conditions under which the pumps can 
operate and avoid jeopardy to the species.
    Mr. Valadao. So the biological opinions do have an impact 
on pumping?
    Mr. Ashe. Well, they do have an impact on pumping. They 
have not had an impact on pumping to date in the context of 
this year's operation to the project. There have been no delta 
smelt pumping restrictions in place.
    Mr. Valadao. But the State Water Resources Control Board is 
concerned with the environment so they restrict the pumping for 
the salinity levels?
    Mr. Ashe. Correct.
    Mr. Valadao. All right. I will have another round in a 
minute.
    Mr. Ashe. I think you are asking a question about the 
desire to take advantage of recent rainfall events and to 
harvest water associated with these recent rainfall events by 
pumping at very large levels, and that would be restricted 
potentially by the biological opinion.
    Mr. Calvert. I will come back to you.
    Mr. Moran.
    Mr. Moran. Thanks very much, Mr. Chairman. You are being 
missed over in Defense, you should know.
    Well, nice to see you, Mr. Ashe.
    Mr. Ashe. Nice to see you, Mr. Moran.

                              GRAY WOLVES

    Mr. Moran. I want to ask you about the gray wolves. The 
Fish and Wildlife Service's own peer-review panel released its 
report on the proposed delisting of gray wolves in the lower 48 
States and it found that the proposal does not represent the 
best available science. And I never supported the delisting in 
Montana and Idaho and Wyoming and, you know, it seems to me 
this report supports that view, which was controversial, and we 
did not put up a big fight last year because I was not really 
sure whether we were being too purist about it. But it seems to 
me that this peer-reviewed report should raise some major 
question.
    I know it seems like, it is a bunch of tree huggers and 
teddy bear huggers or whatever, but the wolves are an important 
element in the ecological balance. In Yellowstone, for example, 
we found that the population or trout in streams was 
substantially enhanced when the wolves were introduced because 
it balanced the deer and elk population, which meant that you 
had more growth of willows and vegetation over streams so that 
the trout had cool places in which to spawn. It is amazing that 
the ecology that returned to balance when the wolves were 
reintroduced.
    And it just seems to me that while the grazers get blamed, 
perhaps appropriately so, for the ones who want to get rid of 
the wolves. In large part, it seems to be these big game 
hunters who do not want competition for elk and so on.
    But I have a real concern about the direction in which we 
are going. So, I would like you to respond, if you would, Mr. 
Ashe. Understand, we are still friends.
    Mr. Ashe. We are.
    Mr. Moran. It is just you need to know I am concerned about 
this particular policy.
    Mr. Ashe. You have asked an important question. I would 
first point out we completely agree on the importance of 
wolves, and wolf recovery has been a tremendous success. Our 
colleagues in the Park Service and the Bureau of Land 
Management and the Forest Service are providing the great 
spaces where these wolves have their real strongholds. We also 
had support from some great partners in the conservation 
community. It is a great success.
    Part of that is being faithful to the agreements made when 
we started that exercise with the States of Idaho, Wyoming and 
Montana. We told them that what constitutes success is at least 
100 wolves, at least 10 breeding pairs per State. That was the 
deal. I believe that the Fish and Wildlife Service needs to 
hold up its part of the bargain. The reality is we do not have 
300 wolves and 30 breeding pairs in those three States; we have 
1,700 wolves and 78 breeding pairs. So we have been successful.
    Mr. Moran. In those three states?
    Mr. Ashe. Yes, in those three states. We are many, many 
fold above our recovery objectives and our State partners, I 
can pick nits with maybe Idaho about how they are managing 
wolves, but wolves in Idaho are roughly at the same place they 
were when we delisted them. The State of Wyoming has been an 
exceptional partner. Last year, they set a quota, a very 
conservative quota. When they hit that quota, they shut the 
hunting season down. This year we see the wolf population has 
increased in Wyoming. Their populations are increasing in 
Washington State and Oregon despite the delisting of those 
wolves. At the population level, I think the wolves are doing 
quite well actually.
    Like I said, I could pick nits with my State colleagues. It 
is not my job anymore. We delisted them. They belong to those 
States. I have to depend upon them to be responsible managers 
and I think they are for the most part.
    The peer review, the science you mentioned, peer review is 
a part of science. When I was a grad student, when I presented 
my research and did my first draft, it did not go over so well. 
Critical review is a part of the scientific process. We laid 
out our proposal. We got critical review. Right now we are in 
the process of assimilating that critical review and trying to 
decide how to go forward. However we decide to move forward, we 
will do it in view of that critical review and that will be an 
important part of our record.
    On the issue you may have mentioned with hunters, I am a 
lifelong hunter. I do believe that some of the rhetoric on the 
extreme wing of the hunting community has been problematic. I 
have said that to some of my friends in this community. In the 
mainstream, hunters continue to be one of the best and most 
reliable sources of support for conservation, including 
predator conservation. I will admit to the criticism; it is 
fair criticism. In the main, they are an essential constituency 
and partner.

                   ECOLOGICAL SERVICES RESTRUCTURING

    Mr. Moran. Mr. Chairman, I just had one other question if 
you do not mind. I am confused by this major restructuring of 
the Ecological Services Account. I mean if it is giving you 
more latitude to carry out your mission, that is fine, but we 
kind of like to have some idea of what you are doing with the 
money. And it is pretty hard to figure out what you are doing 
with the money and a whole bunch of different line items. Can 
you give us a little more clarification what you mean in your 
budget request? You are putting the largest amount in general 
program activities, which does not give us a lot of insight.
    Mr. Ashe. I will commit to providing the committee with 
whatever information it desires, and I think we have been 
responsive in the past and we will continue to be. The 
reorganization that we have done is to align our program 
structure with our field structure. In the field we have 
refuges, we have law enforcement, we have fisheries, we have 
migratory birds, and we have Ecological Services. We have 
aligned our budget structure so that our national budget 
structure reflects our field structure. We are trying to 
constrain the number of accounts that a field manager has to 
deal with, so they are not managing dozens of accounts; they 
are managing to a smaller number of accounts. That allows us to 
have a smaller staff in Washington, D.C. We have been 
downsizing our national staff.
    I think we are providing more flexibility to our field 
managers. We are downsizing our Washington and regional 
structures. That is what we are trying to accomplish. On the 
accountability end, we owe you accountability and I will make 
the commitment to provide you whatever information you need.
    Mr. Moran. You can understand when most of the money is put 
into general program activities why our reaction would be what 
the heck does that mean? I mean what do you do with general 
program activities? That does not really tell us much about 
anything in terms of the way it is being used.
    Thank you, Mr. Chairman.
    Mr. Calvert. Thank you.

                   VALLEY ELDERBERRY LONGHORN BEETLE

    For the record, we have a beetle up in northern California, 
elderberry beetle, that is going through the process of 
delisting and some of the Members from that area asked me to 
ask you to see how that recovery plan is coming. Apparently, 
they are very close and of course they are very anxious up 
there. They have put a lot of work into recovery plans and to 
make sure that the beetle is delisted. They believe that they 
have done a good job. And so if you could get back to us on the 
record on that, I would appreciate it.
    [The information follows:]

                   Valley Elderberry Longhorn Beetle

    The Service, in partnership with a variety of stakeholders, 
continues to implement recovery actions for the valley elderberry 
longhorn beetle to conserve the species and its habitat. The Service is 
also working with partners in the scientific community to develop and 
implement survey protocols for the valley elderberry longhorn beetle 
that will provide important information on the distribution and 
conservation status of the species. The Service will utilize the best 
scientific and commercial information available to prepare a final 
determination regarding the status of the species to be published in 
the Federal Register later this year.

                   GREATER SAGE-GROUSE: CONSERVATION

    And of course you cannot leave here without us talking 
about the sage grouse and this is a big deal in a number of 
states, especially Nevada, and we are hearing from both bodies, 
both at the House and the Senate, and I do not want to find out 
later that the Fish and Wildlife Service could have done more 
in fiscal year 2015 to conserve the species so the listing is 
unnecessary. And so that is what we really want to do. It is 
really what we want to accomplish here because some people 
believe this could have worse consequences to the economy than 
the spotted owl.
    How much does the Service propose to spend in fiscal year 
2015 to conserve sage grouse and put that for the record? We 
would like to please have that itemized, the budget, by state 
and activity, and that would include invasive species removal, 
Candidate Conservation Agreements, et cetera.
    Mr. Ashe. All right. We would be happy to do that. We are 
spending a considerable amount.
    Mr. Calvert. And if you can get that to us for the record, 
that would be great. And how soon can we expect a decision by 
the Service as whether or not to list the species?
    Mr. Ashe. We are obligated to make a decision that it is 
either not warranted or to propose it for listing, and that 
would be in September of 2015.
    Mr. Calvert. Does that mean you are not going to list it 
before September 2015?
    Mr. Ashe. No, sir, we will not.
    Mr. Calvert. You will not list it before September 2015?
    Mr. Ashe. Correct. Now, in September of 2015 we will either 
say it is not warranted for listing or we will propose it for 
listing, and then it would be another year before we would 
actually list it.
    Mr. Calvert. If it is necessary.
    Mr. Ashe. If it is necessary, right.
    Mr. Calvert. Okay. And with that, we have to go vote but I 
am going to turn it over to Mr. Valadao because I know he is 
anxious to ask a couple more questions. And we will have some 
questions we will have submitted to you for the record.
    And with that, Mr. Valadao, any final comments?

             BAY DELTA CONSERVATION PLAN BIOLOGICAL OPINION

    Mr. Valadao. Just another quick question, and yes, water 
again.
    Recently, a judge found that the government violated the 
NEPA process when issuing Delta bio ops. It is my understanding 
that although the bio ops will remain in place, the NEPA 
process will have to be completed on the existing bio ops. 
Undertaking the NEPA process will likely uncover new data and 
science not available when the 2008/2009 bio ops were 
originally issued. Does the U.S. Fish and Wildlife Service 
intend to use the newly available science to issue new bio ops 
governing Delta operations? It seems that taking new 
information into account is imperative to ensuring we are 
managing the Delta with the best science available.
    Mr. Ashe. It is my understanding that the NEPA issue is not 
a Fish and Wildlife Service issue; it is a Bureau of 
Reclamation issue. But with regard to the best available 
science, I think what we are working on in the long run is a 
joint biological opinion between the National Marine Fisheries 
Service and the U.S. Fish and Wildlife Service on the Bay Delta 
Conservation Plan. I think what is important for us is to 
develop the science and the field capacity to support the long-
term solution. In the short-run, we are managing around a 2008 
biological opinion and we are doing the absolute best we can do 
and we are mining all of the flexibility that we can mine from 
that 2008 biological opinion.
    Mr. Valadao. All right. And just one other question. What 
other stressors upon fish abundance, aside from water exports, 
has your agency identified? I know you said salinity earlier. 
What are you doing to address those stressors?
    Mr. Ashe. I will have to respond to that for the record. 
You mentioned pollution in general. Chlorine, effluent 
controls, water temperature, salinity, all of these are factors 
that have relevance for the conservation of a fish like the 
delta smelt that is kind of hanging on the brink of extinction. 
We work in the context of all of those, but the major factor 
influencing the survival of the fish is the pumping, which 
influences the habitat quality and the ability of the fish to 
spawn successfully. That is the crux of the issue: does the 
fish have the habitat conditions that allow it to spawn 
successfully?
    Mr. Valadao. What about the largemouth or the bass 
population?
    Mr. Ashe. Well, sure, yes, predators are always an issue. 
Predator management is important and predators can be a 
significant stressor on a species that is on the brink of 
extinction.
    Mr. Valadao. Is anything being done with the bass? I know 
that is not a native species to the Delta? It was introduced 
for recreation.
    Mr. Ashe. I am not proposing that. I do not think bass has 
been identified as the limiting factor for the delta smelt. The 
limiting factor clearly is the availability of habitat to 
support the reproductive lifecycle of the fish.
    Mr. Valadao. And just out of curiosity, is some of that 
water being held back in reservoirs and released in a timely 
manner just to prevent the salinity levels from getting too 
high? Because there are timed releases, right?
    Mr. Ashe. The bureau has been trying to store water, and in 
fact, a priority of the California Water Resources Board has 
been to try to store water to prepare, for next year.
    Mr. Valadao. Prepare for what next year?
    Mr. Ashe. To meet the health and safety needs. Again, the 
California Water Resources Board has put a priority on meeting 
the kind of health and safety----
    Mr. Valadao. But just to be clear, what you mean by that is 
you are going to release water to keep the salinity levels at 
bay?
    Mr. Ashe. I think health and safety, again, is a California 
Water Resources Board issue and so I am not really the expert 
on that. I think on health and safety, the California Water 
Resources Board is thinking about municipal uses but also some 
environmental considerations.
    Mr. Valadao. Well, I was just asking you personally. I mean 
we are speaking on a personal level I guess now.
    Mr. Ashe. Are we now?
    Mr. Valadao. What happened before the reservoirs were built 
and those timed releases were not possible? Before humans ever 
showed up?
    Mr. Ashe. In the world before we ever showed up, there were 
complexes of wetlands that stored water as it came off of the 
Sierra Nevadas, and those are largely gone now. We now have 
systems that are human-controlled. In essence those reservoirs 
are providing the same function that wetlands provided in a 
pre-human context to store flows.
    Mr. Valadao. All right. Thank you.
    Mr. Calvert. Mr. Valadao, if you have some additional 
questions you would like to have asked for the record, we will 
be happy to submit them for written answer. And I have some 
questions about the National Fish Hatchery System, which I will 
make for the record, but heck, let's do some hatcheries for 
delta smelt while we are at it. Let's do that. I think it might 
be helpful. But we do have a serious question.
    I want to thank you, Mr. Ashe----
    Mr. Ashe. Thank you, Mr. Chairman.
    Mr. Calvert [continuing]. For coming out here today, 
Director Ashe, Ms. Nolin. And we are adjourned.
    Mr. Ashe. Thank you, sir.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT



                       BUREAU OF LAND MANAGEMENT

                                WITNESS

NEIL KORNZE, PRINCIPAL DEPUTY DIRECTOR

                  Opening Remarks of Chairman Calvert

    Mr. Calvert. The Committee will come to order.
    Good morning, and welcome to the Subcommittee's hearing on 
the President's fiscal year 2015 budget for the Bureau of Land 
Management. I am pleased to welcome Neil Kornze, Principal 
Deputy Director and the President's nominee for the next 
Director.
    The President's fiscal year 2015 budget proposal for the 
BLM is roughly $1.06 billion in discretionary appropriations, 
which is $13.5 million, or 1.3 percent below the fiscal year 
2014 enacted level. The most notable changes to the budget 
agreed upon for fiscal year 2014 include the following, in my 
opinion.
    The proposal includes a $4 million cut to the Rangeland 
Management program and new fees to shift a portion of the 
grazing permit administration costs to ranchers--same as last 
year. The large backlog of grazing permit applications has been 
a concern of this Subcommittee for some time now, as have fair 
costs to the taxpayer. While I am willing to engage in a 
discussion of what is fair, I fail to see how this proposal 
will improve the backlog situation and speed up the permitting 
process. Most successful proposals offer win-win solutions, 
which this one still does not appear to be.
    The budget proposes a nearly $3 million increase for the 
Feral Horse and Burro program to implement reforms recommended 
by the National Academy of Sciences. There is little 
disagreement that the current policy is unsustainable. While I 
wholeheartedly agree with the National Academy's finding that 
population estimates must be more scientifically sound, I am 
skeptical that a chemical sterilization solution can be found 
that is environmentally safe and more cost-effective than a 
spaying and neutering policy like we have for feral pets.
    The budget proposes $15 million for the Greater Sage Grouse 
Initiative. The BLM manages the most sage-grouse habitat in the 
Nation. So if the Fish and Wildlife Service decides to list the 
species, the question every western State will be asking is 
whether BLM did enough to prevent a listing. I do not want to 
find out 2 years from now that the BLM could have done more if 
they had the resources. So I am keenly interested in putting 
forth the most aggressive and responsible cross-cutting budget 
for sage-grouse conservation as possible for fiscal year 2015.
    While some are predicting the consequences of a sage-grouse 
listing to be far worse than those of the spotted owl, there is 
little disagreement that a sage-grouse listing will have 
profound negative impacts on America's ability to be energy-
independent. Energy independence is a goal that many of us here 
share along with an all-of-the-above strategy in order to get 
there and stay there. We all get that renewable energy is the 
only long-term sustainable energy solution but we disagree on 
the length of the term and its consequences. BLM's fiscal year 
2015 Energy and Minerals budget proposes to stimulate renewable 
energy production while ensuring that existing non-renewable 
energy production is clean and accountable. Naturally, this 
Subcommittee will continue to support both efforts as it did in 
fiscal year 2014.
    What concerns me, though, is the proposal to shift $38 
million in costs to non-renewable energy producers while doing 
nothing to reduce permitting delays and to stimulate 
production. As with grazing fees, for the third straight year, 
this does not appear to be a win-win proposal.
    Last but not least are proposals to establish a public 
lands foundation, and to improve maps of BLM lands. I support 
both efforts in concept, and I look forward to working with you 
in the days ahead on these and other details of BLM's fiscal 
year 2015 budget.

                      Opening Remarks of Mr. Moran

    Mr. Calvert. I am happy now to yield to the distinguished 
ranking member, Mr. Moran, for his opening remarks. Mr. Moran.
    Mr. Moran. Well, I thank the distinguished Chairman, and 
Mr. Kornze, good to see you again. When you were before the 
Subcommittee a year ago, you were heading the BLM as Principal 
Deputy Director but you had been nominated for the Director 
position, which happened in November, and yet the Senate just 
cannot seem to operate in a responsible, let alone efficient 
manner, with these nominations. I am terribly sorry that you 
are doing all the work and yet you do not get the title. Be 
that as it may, we cannot fix the Senate. There are a lot of 
things we would like to do with regard to the Senate.
    This is a particularly constrained budget for the BLM. In 
fact, it constitutes an overall decrease from last year's 
appropriation to carry out your multiple-use activities that 
would be allocated under this budget. About $4.50 for each acre 
that the BLM manages for the entire year is what it comes out 
to, and yet those very same lands that you are provided $4.50 
to manage generate $4.6 billion in revenue for the U.S. 
Treasury. We grant you that it is very much a multiple-use 
agency but it seems to me your primary job should be to protect 
the national resources of our public lands for today's 
taxpayers and citizens and for the future.
    Now, I know that public lands are not producing enough oil 
and gas, and in fact, some suggest that production has 
decreased under the current Administration, but the facts do 
speak otherwise. Oil and gas production on public lands has 
actually increased by more than 30 percent from the level that 
it was in the years of the Bush Administration.
    And I also would hope that this could be the year that we 
finally institute an inspection fee for oil and gas operations 
on public lands. In fiscal year 2012, the Subcommittee was 
instrumental in instituting an inspection fee for offshore oil 
and gas operations. I do not understand why we cannot ask the 
oil and gas industry, who profit so handsomely from the 
extraction of oil and gas from public lands to pay a reasonable 
inspection fee to ensure safe and efficient operations. And I 
do not think that they would particularly care. It is a 
miniscule expense to them, but it would mean a great deal in 
terms of BLM's ability to manage those lands.
    Now, along with other land management agencies, you are 
tasked with a vast array of natural and historic resources. I 
do want to share with my good friends a quote from Teddy 
Roosevelt, a terrific Republican President. He said, and I am 
quoting, ``Of all the questions that come before this Nation 
short of the actual preservation of its existence in a great 
war, there is none which compares in importance with the great 
central task of leaving this land an even better land for our 
descendants than it is for us.'' It is pretty obvious he was 
not talking about exploiting the public land but rather 
conserving it for the future generations.
    Now, Mr. Kornze, you and the employees of the BLM obviously 
have your work cut out for you. I will have some questions 
about grazing fees and so on. It seems strange that this side 
would be the one suggesting that we let the market operate on 
these things, but we thank you for your testimony and look 
forward to a good, vigorous exchange of questions and answers. 
Thank you.
    Thanks, Mr. Chairman.
    Mr. Calvert. Thank you.
    Welcome, Mr. Kornze, and you are recognized for your 
opening statement.

       Opening Statement of Principal Deputy Director Neil Kornze

    Mr. Kornze. Thank you, Mr. Chairman and members of the 
Subcommittee. I appreciate the opportunity to testify on the 
President's fiscal year 2015 budget request for the Bureau of 
Land Management.
    The BLM is responsible for managing over 245 million acres 
of public land, which covers about 10 percent of the Nation. We 
also manage roughly a third of the Nation's minerals. The 
breadth of the agency's mission is astounding. We are proud to 
be engaged in critical and often very difficult natural-
resource issues all across the country.
    It is worth noting that so much of what we do is made 
possible through cooperative efforts with local and State 
governments and through the support we receive from friends' 
groups and other dedicated partners.
    The President's 2015 budget request for the BLM provides 
strategic funding for our highest priorities. Our focus areas 
include oil and gas permitting, fish and wildlife conservation, 
recreation, renewable energy development and many others. These 
efforts help keep our national economy moving and are among the 
many programs we operate in order to fulfill the organization's 
multiple-use and sustained-yield mission.
    We at the BLM are proud that the lands we manage and that 
the programs we operate contribute over $100 billion to the 
U.S. economy each year. Furthermore, we are one of the only 
federal agencies that return substantial revenues to the U.S. 
Treasury far in excess of our annual appropriations.
    Now, with my remaining time, I would like to highlight key 
areas in our budget that are particularly important to the 
agency's success in 2015 and beyond.
    First is the BLM Foundation. The President's budget calls 
for the authorization of a Congressionally chartered BLM 
Foundation. This entity would operate similarly to the National 
Park Foundation or the National Fish and Wildlife Foundation 
and would provide the public with new ways to get involved with 
and support the issues that they are passionate about, whether 
that be wild horses and burros, national conservation lands, 
restoration projects or other efforts.
    Second is the inspection and enforcement fee system, which 
has been well described by both gentlemen. Today, the BLM 
oversees over 100,000 wells on public lands, and we have a 
responsibility for inspection and enforcement at every one of 
these sites. So, in an effort to be more agile and more able to 
respond to industry needs, we are seeking a transition to a fee 
system. This would parallel the fee system that was 
successfully put in place and has operated very well for 
offshore oil and gas programs. We have a well-established need 
identified by GAO and others to improve our performance in this 
area in terms of inspection and enforcement, and we need your 
help to accomplish that.
    Third is wild horses and burros. If we are going to 
sustainably manage wild horses and burros, we have to do at 
least two things. We have to slow population growth, and we 
have to find good homes for the families that are already off 
the range. We have requested an increase in overall funding for 
the program, and we hope that you will support our efforts to 
expand research into long-lasting fertility control methods and 
the implementation of National Academy of Sciences' 
recommendations.
    Fourth, is a geospatial mapping system. We at the BLM have 
an obligation to provide good, easy-to-access information to 
the public, and a solid online mapping system would be the 
foundation of making a major step forward in that program. 
Think of something akin to Google Earth or Google Maps. With 
this capability, we will be able to look at challenges across a 
broad landscape and better understand what the public, industry 
and our many partners need and have envisioned for the 
landscapes that we manage.
    Fifth is sage-grouse conservation. We are in the midst of 
an unprecedented planning effort to provide certainty to the 
Fish and Wildlife Service. The sage-grouse and sage-grouse 
habitat will be conserved in a meaningful way. We are working 
through this effort with numerous State and local partners, and 
this Committee has provided excellent support in recent budgets 
for this program, and we appreciate your continued attention. 
There is a lot at stake.
    We appreciate your support of these five key initiatives as 
well as our larger budget. By making smart investments in these 
areas, we are confident that we can make a positive and 
meaningful difference in the management of our Nation's natural 
resources.
    We appreciate the strong support that the BLM receives from 
this Committee, and I look forward to your questions and your 
feedback.
    [The statement of Neil Kornze follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT


    Mr. Calvert. Thank you for your opening statement. I will 
begin the questioning.

         HYDRAULIC FRACTURING REGULATIONS AND PERMITTING DELAYS

    We understand the Department intends to issue final 
regulations on hydraulic fracturing this year. There are a 
number of concerns about these rules including States already 
regulating hydraulic fracturing, but one of the major concerns 
is further delays in permitting. According to a GAO report 
issued last fall, the average time to receive a drilling permit 
on federal land is now 229 days, substantially beyond the 30-
day requirement. In many cases, it can take up to a year to 
issue a BLM permit. The effects of delays in leasing and 
permitting has resulted in declining rather than increasing 
production on federal lands as producers take their business 
instead to State and private property.
    The question: with the country's need for natural gas and 
now the international situation obviously, can we afford to 
have even more production delays due to a new hydraulic 
fracturing rule?
    Mr. Kornze. Chairman, I appreciate the question. When it 
comes to permitting, I think we have an excellent story to tell 
at the Bureau of Land Management. Three years ago it took us 
300 days on average to process a drilling permit. Two years 
ago, we took that down to 225 days. Last year, we took it under 
200 days, so we are definitely headed in the right direction. 
We have knocked about a third of the time off that process. We 
are also in the process of launching an online drilling permit 
system, which we will be moving into a few field offices for 
pilot testing later this year. Our hope is that we will be able 
to continue to bring down times because of the effort when it 
comes to drilling permits and having that move successfully is 
making sure that we have accountability on all sides. We need 
to do a better job at the BLM. We also, frankly, need better 
applications from the industry. Very often they come in 
incomplete, and so a lot of that time on the clock is sending 
files back and forth. So by having an online system, we can 
alert folks immediately if there are deficiencies and hopefully 
take a lot of the time out of the total process.
    We have a few offices that have already initiated pilots on 
their own. One is Carlsbad, New Mexico, and we are proud to see 
that they have drilling permit times down to about 70 days. We 
do not know if we will be able to accomplish that same number 
across the system but we certainly think there are efficiencies 
to be had.
    In terms of overall production, I am proud to tell you that 
oil production is up roughly 30 percent during the course of 
this Administration. That is something we are very proud of. In 
hydraulic fracturing, we are intending to get that rule out 
later this year if possible. We received 1.3 million comments 
and we are sorting through that, but we are very closely 
coordinating with the States. Actually, just a few weeks ago, 
we had the second major meeting with State representatives from 
oil and gas permitting organizations and from State governors' 
offices to talk about how we can best align State regulations, 
which have their own variations with the BLM programs. The BLM 
draft that is currently out there envisions a meet-or-exceed 
standard so that if a State's program is better or more 
restrictive than what BLM has called for, then the State 
program would be sufficient. Additionally, there is a variance 
process so that if the spirit of what the BLM is seeking to 
accomplish is done by State regulation, we could also wave our 
specific regulations.
    And additionally, when it comes to inspection and 
enforcement on onshore, we have an overall desire to be more 
efficient. So we are also engaged in a conversation about 
having a regular and consistent relationship with the States so 
if you have State inspectors out looking at wells and we happen 
to have one isolated well, then the State could take care of it 
for us, and likewise, if we are 4 hours in the other direction 
and there is one lone State well, we could take care of it for 
them. So overall, we are looking at coordination and taking it 
very seriously when it comes to State partnership.

                         OIL AND GAS PRODUCTION

    Mr. Calvert. What would you say on the rate of permitting 
in the United States on BLM property? Has it increased over the 
last 5 years or declined?
    Mr. Kornze. We are receiving--I cannot give you actual 
numbers but we are receiving roughly about 5,000 APDs a year. 
It is somewhat consistent.
    Mr. Calvert. That has been consistent over the last 5 years 
or so?
    Mr. Kornze. Roughly, yes.
    Mr. Calvert. And so most of the production that you are 
saying has increased in the last number of years have been on 
wells that you permitted in the last 5 years?
    Mr. Kornze. We have seen increased production on BLM and 
tribal lands.
    Mr. Calvert. Using a lot of existing wells that would 
increase productivity because of hydraulic fracking technology 
on existing wells that have been changed over from old 
technology to new technology or are these new wells that have 
been developed in the last 5 years?
    Mr. Kornze. We are seeing about 3,000 new wells brought on 
public lands each year, so a lot of that is driven by high-flow 
new wells, but I do imagine there are a number of wells that 
are going back and being refracked, which are contributing as 
well.
    Mr. Calvert. And approximately how many wells are there in 
total on BLM property?
    Mr. Kornze. A hundred thousand.
    Mr. Calvert. One hundred thousand wells? And what are you 
doing--you mentioned the number of wells, the production 
increases on those wells. Are you going out and trying to 
develop more business on federal land as far as development of 
oil and gas production?
    Mr. Kornze. Well, the development is driven largely by the 
market and by industry interest, so last year, for instance, we 
put almost 6 million acres on the table for lease. Only 20 
percent of that was leased by industry. So we are trying to 
provide a robust amount of opportunity. So on the leasing side, 
we are doing very well, and on the drilling permit side, there 
are nearly 7,000 permits in industry hands right now that are 
available for drilling tomorrow.

                          OIL AND GAS REVENUE

    Mr. Calvert. And you mentioned that obviously the rate of 
return on your department relative to other departments--what 
do you have, an approximately $1 billion budget and you have $4 
billion in revenue. What percentage of that revenue is due to 
oil and gas?
    Mr. Kornze. I believe it is in the threes, so I think our 
overall revenue is nearly $5 billion for energy and minerals, 
and approximately $4 billion of that is oil and gas.
    [Clerk's note.--BLM submitted the following correction to 
the Subcommittee. Overall revenue is nearly $4 billion for 
energy and minerals, and approximately $3 billion of that is 
oil and gas.]
    Mr. Calvert. So obviously a substantial majority of that 
revenue is oil and gas?
    Mr. Kornze. Yes.
    Mr. Calvert. Okay. Mr. Moran.

                              GRAZING FEES

    Mr. Moran. Thanks very much, Mr. Chairman.
    I did want to underscore what Director Kornze just pointed 
out, that the oil and gas industry is sitting on 7,000 approved 
permits to drill. They are just not using them. I can 
understand the push to get BLM to permit, but on the other 
hand, that is a lot of permits that have been approved and are 
not being used.
    I want to get into this grazing-fee issue because my good 
friends on the other side are probably going to get into it 
from a different perspective. Last month, the federal grazing 
fee for this year was set at the minimum allowable level of 
$1.35 per animal unit month for the seventh consecutive year. 
Western States charge substantially more to graze cattle on 
State lands. The last time that the GAO looked at the federal 
grazing fee just 8 years ago, they found it covered less than 
one-sixth of the cost to administer the grazing program. So it 
has got to be even less than that now. So here we are providing 
this deep federal taxpayer subsidy for grazing on federal 
lands. I wonder if instead of proposing a dollar surcharge per 
animal unit month that we should tie the grazing fee to what is 
actually charged in the States themselves. The States determine 
what a reasonable fee is. Why could we not use that as a 
marker? Have you considered that?
    Mr. Kornze. Congress, a number of years ago, almost a 
generation ago, set the standards for how the grazing fee is 
calculated. So part of that is beef prices, part of it is the 
cost to run a cattle operation, and part of it relates to 
private land costs, but it is all pegged to a standard cost 
that was set in the 1960s. So it is the system we operate 
under, and if Congress would like to dig into that further, we 
would be happy to provide any information we can.
    Mr. Moran. Well, that is certainly a diplomatic answer. 
That is a thing that we set back in the 1960s before these guys 
were born. I am being complimentary. It is certainly before you 
were born, Betty.
    The fact is, this is a deep subsidy. Can you just share 
with us if you were to use the fees that States themselves 
charge, let alone private landowners, would that not be a 
substantially higher figure?
    Mr. Kornze. That would be a higher figure. My sense is that 
States charge anywhere from $4 to $12, in many cases, depending 
on the quality of the land and some places like Texas have 
much, much higher grazing fees on State land.
    Mr. Moran. Like what would Texas charge? Do you have any 
idea?
    Mr. Kornze. I do not have the exact number but I think it 
is around $50.

                  WILD HORSE AND BURRO LONG-TERM PLAN

    Mr. Moran. About $50 per animal unit month, and we are 
charging a buck 35. Okay. Some of my Texas friends that rail 
and rail about taxpayer subsidies I would hope would be aware 
of that.
    Let's ask about this Wild Horse and Burro program too, but 
I do not want to get into all the details of it. I know we have 
got problems with implementing the regulations that were made 
regarding expanded research and population. It has a long and 
troubled history. We have got a lot of horses and burros, and 
it is difficult to provide humane treatment when you have got 
major droughts particularly, and they just cannot find enough 
food in the wild. But can you share with us what your long-term 
plan is to humanely deal with wild horses and burros on BLM 
land?
    Mr. Kornze. I appreciate that question. This is one of the 
more difficult programs that we operate, and it is a unique 
program in that usually when it comes to animals, if they are 
in danger or threatened, they belong to the Fish and Wildlife 
Service. If they are not, they belong to the States. Wild 
horses are the only species under the purview of the Bureau of 
Land Management.
    So in terms of long term, we need sustainability in this 
program, and to get there, as highlighted in my opening 
statement, we have to figure out a long-term way to bring 
population growth down because every 3\1/2\ years, wild horse 
and burro populations left alone will double. So horses on the 
range are rapidly multiplying, which puts pressure on grazing, 
puts pressure on wildlife, and puts pressure on rangeland 
health.
    On the other side, we need to make sure that we have good 
homes and that we have an adoption system that works and we 
have a long-term program. So one of my goals for the Bureau is 
that later this year we will put out a concept for a long-term 
sustainability effort on this program in addition to a response 
in the National Academy of Sciences' report. What we want to 
focus on may be a generational long-term goal. In order to get 
a good, clinically focused drug which we are attempting to 
develop with some trials we want to support this year, may take 
5 or 10 years to even get in place to be used broadly. So the 
tools we have are very limited but I am hopeful that we will be 
able to lay out a plan that could be followed for many, many 
years.
    Mr. Moran. Thank you, Mr. Kornze.
    Mr. Chairman, I have other questions. I think we will 
probably have a second round, and I want to give other members 
a chance to ask questions. Thank you very much.
    Mr. Calvert. I thank the gentleman.
    Mr. Cole.

                 OIL AND GAS REGULATION ON TRIBAL LAND

    Mr. Cole. Thank you, Mr. Chairman.
    Good to have you here. I appreciate the job that you do. It 
is a difficult job.
    There are two areas I want to probe. One of them is horses 
a little bit. But let me start with a question related partly 
to fracking but also to how you look at some of the lands you 
manage. Do you consider Indian lands the same as public lands?
    Mr. Kornze. Not at all, sir.
    Mr. Cole. Then why do we have the same regulatory regime 
for one as we do for the other, and what kind of role are you 
pursuing to allow tribal governments to manage their own 
resources?
    Mr. Kornze. This is an important question, and I appreciate 
you raising it. They are statutorily different and we treat 
them differently in terms of recognition. The sovereignty of 
Tribes is very important to us as a Federal Government and also 
the Bureau of Land Management, and we work hard on those 
relationships. They are very important to us.
    When it comes to hydraulic fracturing regulation or other 
oil and gas regulation, it has been laid out by Congress that 
the Secretary of the Interior has the regulation of oil and gas 
activities on tribal lands as a trust responsibility. She has 
delegated that to the Bureau of Land Management, and 
essentially the reason for having similar standards is if a 
standard for oil and gas development in terms of safety and 
responsible development makes sense for federal land, you would 
not want a lower standard for tribal land.
    Mr. Cole. I am not talking about a lower standard. What if 
a Tribe disagrees with the BLM--you know, we have legitimate 
differences now. State governments obviously regulate 
differently, I would argue more efficiently, quite frankly, and 
much more quickly as a role than the BLM does in this area, and 
if the Tribe wanted to pursue that, I can see having a regime 
for saying there has got to be a certain set of standards but 
again, if it is their land, it is not federal land. Why would 
you have that authority as opposed to them?
    Mr. Kornze. Well, speaking on the hydraulic fracturing 
rule, the same meet-or-exceed or variance concepts would apply 
with Tribes that we could work out those relationships in terms 
of regulating those activities.
    Mr. Cole. Do we have a process underway to do that? Because 
I can tell you, I get a lot of folks coming by my office from a 
variety of Tribes that are sitting on energy resources, and 
they compare again what they think is an appropriate regulatory 
statute with what exists or the speed that is happening in 
private land immediately adjacent to their reservation, they 
see how much quicker the development is under a State regime, 
and they either want the control themselves or they want the 
ability to compact with States to allow the State to implement 
that regulatory regime, and right now they do not have any of 
that and it is a real frustration to them.
    Mr. Kornze. Yes. There are certainly complexities in 
developing oil and gas, for instance, on tribal land that are 
not faced on public land, and the public-land process is 
complicated enough. So I am certainly sympathetic to what you 
are laying out, and I know Congress has attempted to tackle 
this a few times.
    Mr. Cole. Do you think the Tribes are sophisticated 
enough--and again, I recognize I think probably more than most 
the variety of levels of sophistication that Tribes have an 
administrative capability but do you see this as something 
inherently that they are capable of doing for themselves?
    Mr. Kornze. Simple answer is in places where they have a 
system in place, absolutely.

                    WILD HORSE AND BURRO MANAGEMENT

    Mr. Cole. Let me shift quickly to the wild-horse question 
and just for the record, in Oklahoma we have, I think, 21,000 
horses that are either from the West--they are not our horses. 
They are there. They are being housed there. Fortunately, you 
are paying for them because it is about 6 bucks a head, $5 to 
$6 a head every day to feed them, and by the way, I visited a 
couple facilities in Oklahoma. They are terrific. People would 
echo your testimony of the challenge that they are facing in 
terms of just managing the sheer numbers because these are 
animals that have no natural predators and they are bigger, 
faster and tougher than anything else out there.
    I must tell you, I am very dubious after talking to folks 
that the adoption program is ever going to work. It is a noble 
program, and I think you ought to continue it, but if you look 
at the numbers, it is just not even close--this idea that we 
are going to be able to find a home for all these animals is a 
fanciful notion. There are just not enough homes out there. And 
in the areas where you have the horses now, you actually see 
declining adoption rates, simply because the horses saturated 
that area. People that wanted a horse got them, and they are 
very expensive to maintain. It is not something you can do--and 
I laud your efforts. I think again this is something I know you 
take seriously and the department is working on, and some of 
the experiments you talked about are actually taking place in 
Oklahoma in terms of trying to find a means to effectively have 
mass birth control for horses, but at the end of the day, are 
there some specific things you can do to manage the size of 
these herds other than that? Because as you said, this is years 
away. And again, we manage all kinds of animals, in the United 
States. I know this is a very sensitive issue on horse 
slaughter, but again, this is not an endangered species. This 
is a species that is multiplying faster than we can sustain it. 
So are there tools that we could give you that would be helpful 
in that regard?
    Mr. Kornze. I appreciate the open-ended question. We 
definitely appreciated your visit to Pauls Valley to look at 
some of our facilities.
    Mr. Cole. Which, again, were first rate. I was really 
impressed with your people.
    Mr. Kornze. I was out there myself last year after the 
tornadoes came through to see our two offices, and I was 
impressed by what I saw, and I learned a lot in terms of 
Oklahoma and Kansas. They are really sort of the back end of 
the program in terms of when horses were removed from the 
western range. They usually end up in long-term holding 
facilities or beautiful, beautiful ranches in Oklahoma.
    In terms of tools, we do need more tools, and if I can sort 
of keep a bookmark on this, I would love to come back to you in 
a month or two.
    Mr. Cole. I would really appreciate it if you would, 
because people are very well intentioned here and I understand 
it and sympathize with it, but we have got a problem, and the 
kind of solutions so far that we have allowed you to do are not 
adequate for the kind of problem we have asked you to manage. 
So I think it is something that we as a Committee and as a 
Congress need to have a really candid discussion about, and 
your guidance and participation and suggestions would be 
extremely welcomed--I do not have any predetermined outcome 
here. I just look at the numbers and I look at what we are 
trying to grapple with here, and again, I understand the 
motivation of people that do not want to do anything in terms 
of population management, to use a benign term for a difficult 
problem. But I do not know what else to do right now, and 
again, I am willing to invest in these longer-term solutions 
but I do not think that is going to solve your problem in the 
short turn, and it eats up a lot of your budget. This is 
something that is extraordinarily expensive, and if you look at 
the expense curve, it is just simply going up.
    So again, please, I take your offer seriously and would 
love to have some suggestions, options, alternatives as to 
things you think would be useful for you to have, tools that 
would allow you to deal with this.
    Mr. Kornze. Great. I will take you up on that for sure.
    Mr. Cole. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Calvert. Thank you, and I just commented in the opening 
statement, we spay and neuter cats and dogs, so we ought to be, 
looking at horses and burros the same way.
    Ms. McCollum.

                          OIL AND GAS FLARING

    Ms. McCollum. Thank you, Mr. Chair. I am going to pass two 
pictures, and they are courtesy of NASA's Earth Observatory. I 
want to talk about oil flaring for a minute. On the lands that 
you manage, you do not allow flaring. Is that correct? The gas 
has to be captured, it is just not allowed to be burnt off?
    Mr. Kornze. In many cases actually it is flared.
    Ms. McCollum. So in the picture you are looking at----
    Mr. Moran. It is flared?
    Ms. McCollum. In the picture you are looking at, it is a 
great photo of the Great Lakes, Mr. Joyce, at night. It is a 
picture of Minneapolis-St. Paul, which is the area that I 
represent, and the Bakken oil fields. You can see that they are 
lighting up as bright as and at times brighter than 
Minneapolis-St. Paul because the gas is just flared off. It is 
not captured at all because it is not profitable right now. So 
my question is, what are we doing to be good stewards of 
capturing the gas as well as the oil because just letting this 
flare off increases global warming? It is taking a treasured 
resource and just letting it literally go up in smoke. So can 
you explain to me what we could, should or are not doing when 
it comes to flaring?
    Mr. Kornze. You bet. This is an excellent question.
    Ms. McCollum. And by the way, the Bakken is private land 
but I just use that to illustrate what concentrated flaring 
looks like and we could have this on public land as well.
    Mr. Kornze. And I think that picture is fascinating in 
terms of a recent trend in oil and gas development in this 
country. Related to venting, flaring, the Bureau of Land 
Management is starting a broad public conversation right now 
about what we should be looking at. Our regulations on this 
were put in place January 1, 1980, and they need a fresh look. 
And so we have engaged with the western States recently in a 
meeting in Denver just a few weeks ago, talking to Colorado, 
North Dakota and other States that are hoping to move on this 
issue. Colorado has put in some standards, and they are the 
first State to really step forward with industry and other 
partners to draw a bit of a line in the sand about what their 
expectations are, and so we are going to be looking at our own 
authorities and what is possible. Groups like the University of 
Texas and the Environmental Defense Fund and others are helping 
to bring data forward about where we can make the biggest 
difference. There are some great studies that have come out 
recently that are pinpointing where further effort in this 
area, whether it is valves or tanks, can make a difference. So 
we are focused on that, and we are hoping to develop a draft 
rule for potential regulation.
    Ms. McCollum. I certainly hope so, and this is something I 
am going to follow. Whether you are pro-fracking, anti-
fracking, whether you are pro-more drilling for oil or anti-
drilling for oil. I think we can all agree, letting natural gas 
just be burned off is something that future generations, will 
look back and say what were you folks thinking when energy is 
going to become scarcer as generations go on. And then also 
with the contribution that leads to global warming.

                             BAKKEN REGION

    I just want to talk about what is happening, especially in 
the Bakken region. This oil needs to get to market. I will tell 
you, when people say we are not producing more energy and more 
oil, I have a place where you can watch from St. Paul the oil 
cars. I can give you before and after from a couple years ago 
that are going through. A lot of these oil cars, these rail 
cars, are going through metropolitan areas and cities are 
grappling with what to do with it, but you also have these oil 
cars going through public areas. The railroads are trying to--I 
am not being heavy on the railroads. I mean, this just kind of 
took everybody by surprise. So you are going through tribal 
lands, you are going through public lands. What kind of 
relationship do you have with the rail companies, and 
especially with tribal areas when they are going through 
because there have been mishaps with these oil cars. Who is 
responsible for cleanup, evacuation plans and reporting on our 
public lands and our partnership with our tribal brothers and 
sisters?
    Mr. Kornze. So rail transport would usually be outside of 
our purview but if we were called in for assistance with a 
cleanup or something like that, we would certainly provide any 
expertise that we have. But on your point, I do think the rail 
side of the question is somewhat fascinating. I saw a chart 
recently showing over the last 3 years the number of oil rail 
transport facilities that have been developed. There used to be 
literally a handful 3 years ago, and now there are probably 
around 100. So it is a fast growing part of the industry.
    Ms. McCollum. Mr. Chair, I have a question on another 
topic, and I will save that for another round, but I think it 
pays to be proactive and to be prepared. I know the rail 
companies want to be prepared on this. Metropolitan 
municipalities are looking at what to do. I think we should 
also kind of have an action plan put in place for public lands 
as well as. Your work with the tribal areas where these oil 
cars are going through because for them to have the resources 
and to know how to, first responders and all that. What should 
happen? I think it is a shared responsibility between the oil 
producers, the rail companies, and I think we have a role in it 
as well. Thank you, Mr. Chair.
    Mr. Calvert. Thank you.
    Mr. Stewart.
    Mr. Stewart. Thank you, Mr. Chairman.
    Mr. Kornze, thank you for being here. We enjoyed speaking 
with you yesterday. I am going to refer to that very quickly.
    Before I get to the heart of my questions, I would like to 
respond to some of the things that have been said by other 
members. To Ms. McCollum, there is a real simple answer for the 
rail car issue, and that is build a pipeline, which many of us 
have been advocating for a long time.
    Ms. McCollum. This is not the Keystone pipeline.
    Mr. Stewart. I understand it is not, but I am just saying, 
in many case, that is the answer. It is a much safer, much more 
environmentally friendly way to transport oil in a pipeline 
rather than rail. If you are concerned about global warming, it 
is a much preferred and as I said, much safer option.

                     ANIMAL UNIT MONTH (AUM) RATES

    And to the earlier conversations about AUM and the price of 
those, I just have to respond again from my own experience. I 
was a farmer and rancher. My wife was as well. I represent 
areas where there are vast swaths of BLM land that are leased 
out to ranchers, and to compare Utah with the West is not 
comparing apples and oranges, it is comparing apples and 
alligators because the West and vast parts of my district are 
desert, and the market rate for that probably is about $1.50. 
It is not $50 like Texas, which have these beautiful green 
pastures. This is desert land. By the way, you know, those 
folks are not making a lot of money. If you increase their AUM 
rates to $50, what would be the outcome? They would be driven 
completely out of business. These are hardworking, in most 
cases not rich families, to describe them graciously. They make 
far less than your average Congressman, for example, and again, 
$1.50 or whatever that might be may be the market rate for 
those desert leases.

                              SAGE-GROUSE

    I am going to come back to that, if I could, and tie that 
in with something we have talked about a couple times here now, 
and that is with the burros and the horses, which we talked 
about yesterday. I appreciated our meeting, and I thought it 
was helpful, and in that, I felt like there were some areas 
that you and I could agree on and we do agree on, and hopefully 
we could work together, and I look forward to working with you 
on some of those things.
    I have to say, though, that in general I left that meeting, 
or actually you left the meeting because it was at my office. I 
was a little bit discouraged about some things, and I realize 
that we do see the world differently in some meaningful ways, 
and I will mention one just quickly and I will not ask you to 
respond to it here because I do not think there is time, but 
one of them was, for example, Utah's efforts and what many of 
us are trying to do, and that is to avoid the listing of the 
Greater Sage-Grouse on the endangered species list, you 
indicated that, you know, you were not at this point satisfied 
with Utah's plan, and I thought initially interpreting your 
remarks as if they had been, you know, maybe remiss or not 
diligent in doing that, and as we talked, I realized it was not 
that, it was just that you felt like they had not enough of a 
regulatory approach to this, that their plan implemented more 
voluntary efforts, and I am comfortable with that because I 
trust the people in my State. We want to protect the species. 
None of us want to see a species extinct but I felt like your 
approach was much more regulatory oriented than mine would be. 
Is that true? Is that a fair synopsis of our different 
approaches to this?
    Mr. Kornze. I think I would recharacterize it a little bit 
in terms of when it comes to sage-grouse, the BLM is not the 
decider in terms of whether or not we go far enough. It is the 
Fish and Wildlife Service. And so what I was sharing was the 
BLM has been working to preserve and bring back sage-grouse 
habitat all across the West for quite a while. We presented a 
lot of this to the Fish and Wildlife Service and their response 
was, just to summarize it into a few words, ``that is great,'' 
but that is not going to make the difference when it comes to a 
listing decision because the Fish and Wildlife Service, from my 
understanding, they have to look at regulatory certainty.
    And so my comment was more based around the idea that if we 
are a family of States and agencies approaching this problem, 
then we need to figure out what the measuring stick is and try 
to accomplish whatever that measurement is together. I want to 
make sure that we are all headed in the same direction.

                    WILD HORSE AND BURRO MANAGEMENT

    Mr. Stewart. And again, I would like to pursue that 
conversation with you maybe after or in another setting.
    Let me come back to the horses if I could, and recognizing 
that my time may be short, you indicated in your testimony it 
may be 5 to 10 years to get a plan in place. Right now, I will 
not ask you this question because I know you know the answer. 
Right now there is something like 50,000 feral horses and 
burros in the West under BLM control. Is that about right?
    Mr. Kornze. Ballpark, yes.
    Mr. Stewart. Recognizing we do not go out and count them 
every day.
    And legislatively, they are hoping for something less than 
half of that, 26,500. That is kind of what we consider an 
appropriate number in the West. Again, would you agree with 
that?
    Mr. Kornze. That is the management level.
    Mr. Stewart. The management level we are seeking. We are 
nearly double that. Well, CRS estimates that these herds have 
the potential of doubling every 3 years, and if we have a 5- to 
10-year window before we have these other, you know, some of 
the contraceptive plans in place, and we may be dealing with a 
huge number of horses here.
    Now, if I could, I will end with this. This is a letter 
that I suppose hundreds of my constituents have received, who 
are farmers and ranchers out there trying to make a living, and 
I would like to read just part of it. This is from the BLM 
office in my district: ``As you are aware, all or a portion of 
your livestock grazing allotment occurs on one of nine wild 
horse management areas.'' And then they go on to explain, you 
know, what that is and why that is regulated. But they say, 
``In order to manage the public land resources for healthy 
rangelands, we would appreciate and encourage you to evaluate 
your livestock operation and review your options and make 
adjustments so that livestock numbers can keep your use within 
these habitat areas below 50 percent.''
    Now, that is a scary thing for a rancher, to be directed by 
the BLM to say you have got to find ways to reduce your 
allotment by 50 percent, and the reason being is because you 
are in a horse management area when the horses are exploding in 
number. It is a real concern for me, as it is for many of them. 
I know it is a concern for you as well, and I am just pleading 
with you, a 10-year plan before we begin to use contraceptives, 
which will allow maybe double or triple the number of horses 
now is not a viable plan. I think we have got to be more 
aggressive. We have got to come up with something that brings 
some relief to these folks.
    Mr. Kornze. Thank you, Congressman, and I did appreciate 
the chance for us to talk through some tough issues yesterday. 
Your district is overwhelmingly public land, and I appreciate 
that things like wild horses and sage-grouse have an outsized 
impact on you and your constituents, and we want to give them 
the attention that they fully deserve.
    In terms of a plan, I think one can come together in the 
coming months, but because of the FDA and others, it may take a 
while to get a drug in place that is workable. I think there 
are some other solutions we can bring to bear but we may need 
Congressional help. So if I could also keep that same bookmark 
that I have with Congressman Cole and come visit with you and 
the Chairman and the Ranking Member in a few months and talk 
through these issues in a little bit more detail, that would be 
excellent.
    Mr. Stewart. Thank you.
    Mr. Calvert. Again, a comment. I think we ought to look at 
some money in the bill this year for spaying and neutering 
horses and burros. That will help resolve the issue.
    Mr. Stewart. Yes, we would certainly support that. Thank 
you.
    Mr. Calvert. Mr. Joyce.

                          HYDRAULIC FRACTURING

    Mr. Joyce. Thank you, Mr. Chairman.
    Good morning, Mr. Kornze. I want to follow up on some of 
the questions that our Chairman had started with. On the 
eastern side of Ohio, we have Congressman Johnson, Congressman 
Tiberi and myself representing an area with the Marcellus shale 
development. Hopefully it will continue and maybe even boom, 
which would be fantastic for us.
    But I know how states, Pennsylvania and Ohio, have worked 
hard to develop sound and environmentally protective rules for 
hydraulic fracturing. State rules have evolved as technology 
has evolved, and the states do the permitting and also enforce 
the rules. If we have federal rules on hydraulic fracturing, 
can you tell me how this is all going to be worked out with the 
rules already set in place by these States? Will producers now 
be subject to both State and federal rules, or will the federal 
rules override the States, and do you believe the States have a 
better perspective in issuing rules for their own geography and 
terrain than a uniform rule from federal agencies? I am just 
concerned that these rules may cause serious confusion in 
States and the developers.
    Mr. Kornze. So if a developer was working on public assets, 
whether just minerals or surface property, the way it operates 
today, there would be no change to hydraulic fracturing. The 
developer would have to look at both sides and would have to 
basically meet the higher standard. And so that is the way that 
oil and gas works today and that is the way it will work in the 
future. I do not think that will be a surprise to any operators 
out there.
    Mr. Joyce. I yield back, Mr. Chairman.
    Mr. Calvert. I thank the gentleman.
    Mr. Simpson.
    Mr. Simpson. Thank you, Mr. Chairman, and Neil, welcome to 
the Committee and it is good to see you again. I hope the 
Senate actually decides to act on your nomination at some point 
in time, but as the Ranking Member said, we have tried to 
improve the Senate a number of times. We keep sending people 
over there, but they seem to get lost. No, I am just kidding.
    Before I ask you what I want to ask you about, which you 
might guess, is sage-grouse, I have to respond to some of the 
comments that have already been made, and I want my good 
Ranking Member friend to know that I agree with your opening 
statement and TR's statement. I would also point out that there 
is a difference between use and abuse. TR never suggested that 
we do not use our public lands. And some of the best people 
trying to manage our public lands are the ranchers and other 
people that are out using them because that is how they make a 
living. So they try to--that is where the term ``multiple use'' 
comes from, which we like in the West.

                                 WOLVES

    The other thing, and this has nothing to do with you, Neil, 
so you can just listen to this part. I understand yesterday 
after I left--and I am sorry I had to leave yesterday because 
we had to start another hearing in Energy and Water, but I 
understand the debate about wolves came up and the delisting of 
wolves. I would have liked to have been here for that debate, 
and what I would like to do, and if maybe the Chairman would 
allow us to do it, I will bring you a great big picture that we 
will frame and put on the back wall, and it is of the 200 sheep 
that were killed one night, the five dogs and a horse that were 
killed one night by wolves in Idaho. I will not have the 
picture of the 40 that were killed the two nights before that 
from the same sheeper. You have to remember, these wolves were 
reintroduced as a non-essential experimental population. Idaho, 
Montana and Wyoming have complied with what the requirements 
were when they were reintroduced, and it has now gone over to 
State management. Anybody who believed that we were actually 
going to reintroduce wolves into this environment and that they 
were not going to explode in numbers and that we were not going 
to have to manage them like we do other species was living in a 
fantasy world. That is why the Fish and Wildlife Service looked 
at all the plans that we put in place and said you know what? 
They have done and exceeded what we asked them to do, and that 
is why we delisted them in Idaho and Montana, particularly, and 
then later Wyoming.
    Anyway, that has nothing to do with you. Sorry about that. 
Although they do come on your land.
    You know, one of the other things I will say, just 
comparing the prices of what we charge for an AUM on public 
lands versus what the State charges is not a really good 
comparison. I find it interesting that when I talk to most 
ranchers that have allotments on both public lands and State 
lands, even though they are paying more on State lands, they 
would rather have the State land allotment than they would the 
public land allotment, the BLM allotment, because of the 
difficulties of dealing with the Federal Government, and I am 
not saying it is Neil's responsibility, but all of the issues 
that surround being on public lands makes it much more 
expensive. So you have to look at all of the factors that go 
into determining what you charge for an AUM. Does it need to be 
looked at again? I have no problem looking at it and seeing 
what the fair rate is and such, but it should be done in a 
holistic manner rather than just comparing prices.

                         SAGE-GROUSE MANAGEMENT

    So anyway, let me ask you about sage-grouse. What is the 
biggest threat to sage-grouse habitat?
    Mr. Kornze. It depends on where you are. So if you look at 
the broad range of sage-grouse across 11 different States and 
if you look at the west side, which is basically the great 
basin, it is fire and invasives and conversion to grasslands, 
and then on the east side, it is fragmentation.
    Mr. Simpson. Which gets us to the point. We did not do too 
much better in terms of wildfire management, and we can do a 
lot better in terms of invasive species. One of our problems we 
have had is that we do not know in this Federal Government how 
much money we spend on invasive species. We really do not. We 
have tried to figure that out, and there is a bill being 
proposed or thought about--I do not know what stage it is in 
right now--about trying to coordinate what we do spend on 
invasive species and make sure it gets on the ground. Some 
people have said 80 percent of what we spend in the Federal 
Government on invasive species never makes it to the ground. I 
do not know if that is true or not because we cannot find out 
what we spend.
    So I would hope you would work with us and the other 
federal agencies, whether it is the Forest Service or others, 
to try to develop an invasive species plan to address some of 
these issues. Where do we stand with State management plans? 
How many management plans have you approved? And of course, I 
am obviously interested in the State of Idaho's management 
plan, and how do you respond to what I hear from those people 
involved, whether it is a governor or other ranchers and people 
that are involved in developing the State management plan, that 
while they were going to be active participants in developing a 
management plan to start with, they now feel relegated to just 
being public witnesses more or less, and they want to be active 
players in development of the State management plan. What are 
your thoughts on that?
    And finally, is the $15 million you propose in your budget 
for sage-grouse management that you have done in similar years 
past, is that enough to actually address this issue so that we 
can--I think what we all want is not to list sage-grouse.
    Mr. Kornze. All right. A lot to cover there. I will try to 
do it quickly. In short form, we are all working with the Fish 
and Wildlife Service to figure out how high the bar is. In 
Idaho, I am proud to tell you that every week our team and BLM 
sits down with the State and the Fish and Wildlife Service and 
we work through discussions and conversation about what a final 
plan could look like for the management of public lands in 
Idaho related to sage-grouse.

                        SAGE-GROUSE COORDINATION

    Mr. Simpson. Along that same line, if I could ask you that 
the BLM and Forest Service and others sit down with the State 
people in Idaho. Are the D.C. BLM people coordinating with the 
State people? Because sometimes we hear, you know, Fish and 
Wildlife and BLM in Idaho agree with the State people or they 
come to some agreement, and it gets lost when it comes to 
Washington. What is the coordination between D.C. and the 
States?
    Mr. Kornze. So there is coordination but I think in the 
Idaho context, it is important to explain that there is the 
Fish and Wildlife Service, which is sort of the judge and jury 
on this issue. They offered a letter to the State of Wyoming 
that said your plan is golden, and that was a plan not just for 
public lands but also for private lands, so we are all sort of 
tiering in and connecting to that plan. In Idaho, the State got 
a letter saying we think the concepts you put forward for the 
BLM EIS are laudable and there are some parts of that stand 
above but they did not bless the Idaho approach fully, the 
State's approach.
    So what we did is, we co-identified--we do not do this very 
often but we picked two preferred alternatives, both the one 
that we had developed with all of our partners including the 
State and then the State's alternative. So right now we are 
trying to mesh those into a plan that will work and that will 
meet the standards that the Fish and Wildlife Service has put 
out there. And so we coordinate that on the west side of the 
sage-grouse range, on the east side, and then with the D.C. 
operation as well.
    Mr. Simpson. Thank you.
    Mr. Calvert. Thank you.
    Mr. Valadao.

                       MONTEREY SHALE DEVELOPMENT

    Mr. Valadao. Thank you, Mr. Chair.
    Mr. Kornze, please describe the department's resource goals 
and objectives with respect to development of the Monterey 
shale resources that are likely to be found on BLM lands in 
California. The existing goal for energy development and 
resources management plan of BLM's Hollister, California, 
district balances resource conservation and ecosystem health 
with the production of commodities and with public use of land 
from a policy standpoint. In view of the language BLM uses to 
describe its multiple-use mission in the discussions of the 
Federal Land Policy and Land Management Act on the agency 
website, does the department plan to achieve this balance in a 
manner that allows development of the Monterey shale as one of 
BLM's multiple-use goals?
    Mr. Kornze. I appreciate the question. The Monterey shale 
is somewhat of a fascinating corner of what we manage in that 
it is the source rock for many of the large oil and gas plays 
that have historically been seen in California, and some people 
think it is one of the largest oil and gas plays anywhere in 
the world. There is also thought that it might be one of the 
more fractured geologic formations that has ever been 
approached in terms of oil and gas, and so I think that may be 
part of the reason why we have not seen vast exploitation of 
the resources to date.
    We are undertaking sort of a fresh look at some of our 
planning efforts in California right now to make sure that we 
have a good, legally defensible foundation to move ahead should 
those resources turn out to be economically viable, and so we 
are working through that. It may take us a year or two but I 
think we are headed in the right direction.
    Mr. Calvert. I think we should probably call it Fresno 
shale rather than Monterey. We would probably shave about 3 
years off the permitting process.
    Mr. Calvert. Because of the vote and because of another 
hearing we are going to here at 11 o'clock, I will adjourn and 
ask that members submit any remaining questions and comments 
for the record.
    I am going to call you Director to give you good luck, 
Neil.
    So with that, we are adjourned.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT


                                             Friday, April 4, 2014.

      BUREAU OF OCEAN ENERGY MANAGEMENT AND BUREAU OF SAFETY AND 
                       ENVIRONMENTAL ENFORCEMENT

                               WITNESSES

TOMMY BEAUDREAU, DIRECTOR, BUREAU OF OCEAN ENERGY MANAGEMENT
BRIAN SALERNO, DIRECTOR, BUREAU OF SAFETY AND ENVIRONMENTAL ENFORCEMENT

                  Opening Remarks of Chairman Calvert

    Mr. Calvert. Good morning, and welcome to the fiscal year 
2015 budget hearing for the Bureau of Ocean Energy Management, 
and the Bureau of Safety and Environmental Enforcement, the two 
agencies charged with management, safety, and environmental 
protection of energy produced on the Outer Continental Shelf. 
Energy is the backbone of the United States economy, and 
reliable domestic sources of energy are vital for our economic 
growth and homeland security. We depend on your efforts to help 
produce domestic energy and domestic jobs in a responsible way, 
and the revenue from oil and gas production is a substantial 
boost to the United States Treasury. We also depend on your 
efforts now more than ever, as energy costs continue to rise. 
And, given this Administration's clear approach to restrict 
production from other energy sectors, namely the coal industry, 
without cheap, reliable energy, businesses that operate in the 
United States will look elsewhere, and we cannot afford that.
    Unfortunately, production in the Gulf is still 20 percent 
below levels prior to the Administration's moratorium to deep 
water drilling in the Gulf. Some companies have invested 
billions of dollars in the Arctic, with nothing to show for 
their efforts. Unfortunately, despite good intentions, 
production has yet to expand in the Arctic. Thankfully, the 
future for increased production in the Gulf does look bright, 
or at least the projections for the Gulf are quite positive. 
Nonetheless, companies are operating in a new regulatory 
climate, with more stringent safety standards, and additional 
requirements for cleanup plans. While we all agree that it is 
important to get it right, certainly uncertainty created by 
indecisiveness, or bureaucratic overreach, will inevitably 
raise energy costs and extend drilling periods. I look forward 
to working with you to ensure that we do get it right so that 
we are responsibly recovering more of our resources, reducing 
our energy costs, and ensuring a proper return on our 
investments.
    Also, we have had many conversations about staffing needs 
since your agencies were established in 2011. We recognize both 
the Bureaus' difficulty filling many positions, due to 
competition from the oil and gas industry. We also recognize 
the needs of an aging workforce, and for the need to keep up 
with attrition, so we included the authority needed to pay 
higher salaries for certain positions in the omnibus. With that 
said, I do have some questions about the requested increase in 
personnel for BSEE. After four years in a row of significant 
increased hiring, we want to know where both Bureaus are in 
terms of staffing, and what they are going to do in the long 
term.
    I am pleased now to yield to the Ranking Member, Mr. Moran, 
for his opening remarks.

                      Opening Remarks of Mr. Moran

    Mr. Moran. Thanks very much, Chairman Calvert, and I 
welcome Director Beaudreau and Director Salerno, and thank you 
for your service in taking on an enormously challenging 
responsibility.
    On April 20 we will mark the fourth anniversary of the 
Deepwater Horizon oil spill disaster. The explosion, the fire, 
the resulting oil spill resulted in lives lost, the environment 
severely damaged, and people and businesses far beyond the oil 
and gas industry being adversely affected. We learned a 
terrible lesson as a Nation from that tragedy about the over-
reliance on technology, the complacency of operations, and the 
laxity of regulation. Out of the Deepwater Horizon disaster, 
the Bureau of Ocean Energy Management and the Bureau of Safety 
and Environmental Enforcement were created to address the 
severe and systemic shortcomings in the government's regulation 
of what is a high risk enterprise. I appreciate the changes 
that have been made in both of your agencies to protect the 
public and the environment.
    In January of 2011 the National Commission on the BP 
Deepwater Horizon Oil Spill issued its report and 
recommendations. It was a ringing indictment of the oil and gas 
industry, and the regulators that oversaw it. The Commission 
provided Congress, the executive branch, and the oil and gas 
industry with a whole host of recommendations to address the 
sheer serious shortcomings identified with OCS operations and 
regulations. I do commend the Department of the Interior for 
moving quickly to address these serious shortcomings, and 
instituting a new safety and environmentally protective 
culture.
    Unfortunately, while this Subcommittee took a leadership 
role in approving the establishment of these two agencies, as 
well as providing the fiscal resources for the Department of 
the Interior's reorganization of its OCS management functions, 
the Congress as a whole has not made a single fix to the 
legislative shortcomings identified in the Commission's report. 
And so now it is nearly four years after the disaster, and we 
cannot help but be concerned that with the Macondo Well capped, 
and the public spotlight turned off, the urgency to address the 
problems the disaster exposed has waned, and will continue to.
    As Martin Luther King always said, it is always right to do 
what is right, and I do think it is right to follow through 
with those recommendations that we have been presented with. We 
should not lose sight of that enormous, chaotic catastrophe 
that occurred just a few years ago. And so, Director Beaudreau 
and Director Salerno, I am hopeful that we will be able to 
provide you with the fiscal tools that you need to ensure that 
safety and protection of the environment are the highest 
priorities in drilling operations on the Outer Continental 
Shelf. And with that, we thank you, Mr. Chairman.
    Mr. Calvert. Thank you. Director Beaudreau and Director 
Salerno, thank you for being here today to testify. Please 
share with us your thoughts regarding the proposed budget for 
fiscal year 2015. First Mr. Beaudreau.

              Opening Remarks of Director Tommy Beaudreau

    Mr. Beaudreau. Thank you very much, Chairman Calvert, 
Ranking Member Moran, Members of the Subcommittee. I am pleased 
to appear before you today to discuss the President's fiscal 
year 2015 budget request for the Bureau of Ocean Energy 
Management, or BOEM. This will be my final appearance before 
the Subcommittee as the Director of BOEM. At the end of this 
month I will be transitioning into another position at the 
Interior Department.
    Mr. Calvert. Would you like to share that position with us 
for the----
    Mr. Beaudreau. I will be the Chief of Staff for Secretary 
Jewell.
    Mr. Calvert. So you will be the one we will be calling 
quite often?
    Mr. Beaudreau. Yes.
    Mr. Calvert. Good. I just wanted to make that for the 
record.
    Mr. Beaudreau. More to talk about, but obviously an open 
door too. I joined the Interior Department in June 2010, in the 
midst of the Gulf spill. My charge from the President, and then 
Secretary Salazar, was to help reform offshore energy 
development by raising safety and environmental standards for 
offshore drilling, and by strengthening, and raising, and 
restoring the public's confidence in Federal oversight of that 
activity, which is central to the Nation's energy portfolio, 
but also carries significant risk to worker safety and the 
environment.
    Key to those reforms was the reorganization of the former 
Minerals Management Service, and the establishment of these two 
still relatively new agencies, BOEM, and the Bureau of Safety 
and Environmental Enforcement, led by Director Salerno, whom I 
am proud to join this morning. As we approach the fourth 
anniversary of that terrible spill, and discuss the budgets of 
these two agencies born of our reforms, I would like to take a 
moment to remind ourselves of how important these agencies are.
    We established BOEM and BSEE to separate out the multitude 
of responsibilities that, at that time, all resided in MMS, 
and, in doing so, provide higher priority and management focus 
on the discreet and important missions of each Bureau. Also key 
to the oversight reforms was ensuring that each of these 
agencies receive sufficient and proper resources, which MMS 
lacked. Congressman Moran in particular knows that history. 
This Subcommittee, in helping provide BOEM and BSEE with proper 
resources, has been a big part of the answer, and I thank you 
all for that.
    A little bit about BOEM, and its identity, and 
responsibilities. BOEM is responsible for management and 
development of the Nation's offshore energy and mineral 
resources in a balanced way that promotes diligent and 
environmentally responsible development. BOEM's mission 
includes overseeing offshore oil and gas leasing and plan 
reviews, resource evaluation, standing up offshore renewable 
energy, conducting thorough NEPA analyses, ocean science and 
environmental studies, and ensuring that the American people 
receive a fair return for offshore resources. The Bureau is 
committed to applying the best available science to decision-
making, using research and rigorous analysis to support smart 
decisions about developing the Nation's offshore, conventional, 
and renewable energy resources. For a relatively small agency, 
we have a tremendous breadth and diversity of subject matter 
expertise. I will tell you that our people are some of the best 
in the business. I am tremendously proud to work with them, and 
this budget, while modest and mindful of the tight fiscal 
constraints facing all of government, is designed to provide 
them with the resources and tools necessary to do their jobs, 
and do them the right way.
    I am pleased to report we have been effective. Since BOEM 
was founded in October 2011, our offshore oil and gas lease 
sales have garnered well over $4 billion for the American 
people. We completed the current five year offshore oil and gas 
leasing program for 2012 through 2017, which makes available 
areas containing more than 75 percent of the Nation's estimated 
undiscovered, but technically recoverable, conventional energy 
resources, but also does so in a manner that is tailored to 
each region's specific conditions and environment.
    And, as reflected in our budget request, we already are 
beginning work on the 2017 through 2022 plan. Last year we held 
the first two commercial competitive offshore wind lease sales 
in U.S. history, and more of these renewable energy auctions 
are on the way, offshore Maryland, Massachusetts, and New 
Jersey, as well as other States. BOEM's marine minerals program 
has been a key player in providing OCS sand resources in 
support of beach restoration and resiliency projects, including 
helping coastal States recover from Hurricane Sandy. Our 
environmental studies program is a leading contributor to 
advancing our scientific understanding of marine and coastal 
ecosystems and environments, with ongoing work across many 
areas, including marine mammals, birds, marine hydrokinetic sea 
ice, air quality, and evaluating long term and cumulative 
impact, all with an emphasis on collaboration and partnership.
    These are the priorities and values reflected in the 2015 
budget proposal. Again, I am grateful for this Subcommittee's 
support, and I look forward to discussing the budget proposal, 
and also answering your questions. Thank you.
    [The statement of Tommy Beaudreau follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT


    Mr. Calvert. Thank you for your testimony. Next, Director 
Salerno.

               Opening Remarks of Director Brian Salerno

    Mr. Salerno. Good morning, Chairman Calvert, Ranking Member 
Moran, and Members of the Subcommittee. Thank you for the 
opportunity to appear before you and discuss the President's 
fiscal year 2015 request for the Bureau of Safety and 
Environmental Enforcement. Under the Administration's ``all of 
the above'' energy strategy, the Bureau of Safety and 
Environmental Enforcement works to promote safety, protect the 
environment, and to conserve energy resources on the U.S. Outer 
Continental Shelf. Since its establishment 2\1/2\ years ago, 
the Bureau has worked diligently to earn the confidence of the 
American people in our conduct of oversight activities.
    The Bureau's 2015 request is $204.6 million. This includes 
$81 million in direct appropriations, plus $123.6 million in 
offsetting collections. In total, this budget will provide the 
resources that we need to continue to fulfill our full set of 
mission responsibilities, and to pursue organizational 
enhancements which will contribute towards greater efficiency 
and effectiveness. The budget proposes a net increase of two 
million over the fiscal year 2014 enacted level. Of note, this 
includes a program increase of $905,000 to support enhanced 
review of emerging technologies.
    Funding in the budget will also be used to recruit expert 
engineers and scientists to support the development of sound 
scientific and technical information, as well as the timely and 
thorough review of permits. As Director, I am focused on 
enhancing our ability to assess and manage risk. I am also 
committed to strengthening our workforce, and preparing for the 
future. Accordingly, our 2015 budget will enable us to continue 
enforcing compliance with Federal regulations, while at the 
same time lead the effort to establish a meaningful safety 
culture within the offshore oil and gas industry, including a 
focus on risk management.
    We will increase our capacity to analyze and share data 
gained through enhanced incident investigations, routine 
reporting requirements, as well as through a near-miss 
reporting system which is now under development, and through 
the expanded use of real-time monitoring. We will refine our 
methodologies for evaluating emerging technologies, and for 
keeping pace with a very dynamic and very innovative industry, 
and we will invest in human capital so that we attract and 
retain the best available support for our mission 
responsibilities.
    The 2015 budget request will ensure we have the means to 
properly oversee the ongoing expansion in domestic energy 
activity from the Nation's offshore resources, while supporting 
the safety of the offshore workforce, and protection of the 
marine environment. I thank the Committee for inviting me here 
today, and I look forward to your questions.
    [The statement of Brian Salerno follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT


                            BUREAU STAFFING

    Mr. Calvert. I thank the gentleman for his statement. As I 
noted in my opening statement, we focused on ensuring, and you 
both spent some time discussing that, proper staffing at both 
BOEM and BSEE since the reorganization, in order to meet the 
large demand for timely leasing and permitting. Director 
Beaudreau, your budget asks for no additional personnel from 
your current level, I believe it is 551, so it appears that 
BOEM has met its goal for hiring engineers? I understand you 
have some challenges remaining as far as an aging workforce, 
but does that mean you are fully staffed up, and you have met 
your hiring goals?
    Mr. Beaudreau. The current configuration for the Bureau, in 
terms of our personnel needs, and how we validated those, we 
are comfortable it provides us with the manpower necessary to 
perform our missions. We have a real-time challenge, as people 
retire or move on, back-filling those positions, so at any 
moment in time we are not necessarily fully complimented. But, 
that said, under our budget, and the current configuration, we 
believe we have the right amount of resources, in terms of FTE, 
to fulfill our broad responsibilities.
    Mr. Calvert. You have the right mix of talent, the right 
type of people to do the job properly?
    Mr. Beaudreau. Correct. And I will just say, and you 
mentioned it at the outset, the Committee's work on providing 
us with hiring authority for some of these positions that are 
extremely competitive, particularly at times like this of high 
oil prices, as we compete with the industry for the same 
petroleum engineers and geologists, has been extremely helpful, 
and we do appreciate your leadership on that. In fact, and I am 
sure Bureau of Land Management Principal Deputy Director Neil 
Kornze talked about it this morning, it is part of that type of 
reform that, on the onshore, BLM is looking to implement as 
well.
    Mr. Calvert. Director Salerno, your budget requests an 
additional 51 full time equivalents, for a total of 869 
personnel. Where are you at with respect to your hiring goals, 
and what are your metrics of a success?
    Mr. Salerno. We continue to attract and hire new employees, 
but I will tell you that the competition from the industry from 
a salary basis is extremely challenging for us. Last year, in 
2013, we hired 178 new employees. 116 of these were in critical 
fields, such as scientific capabilities, inspectors, and 
engineers.
    But out of that 178, the net gain was only about 94, 
because as new people come in, many of our people, who are very 
good, very talented people, are offered opportunities to work 
in the industry at substantially higher pay rates. So that is 
an ongoing challenge for us. We are appealing to other 
motivations, patriotism, and the desire to serve the public. 
There are many people who are attracted to that, and we are 
very grateful for that, but for some people it is not enough to 
offset the very, very attractive salaries from the industry. It 
is an ongoing challenge for us. We continue to recruit from a 
variety of sources, from colleges, from the industry itself, 
and from the military, to get the right mix.
    Mr. Calvert. Have you used the additional inspection piece 
from the 2012 Omnibus to help you accommodate that----
    Mr. Salerno. We----
    Mr. Calvert [continuing]. Hiring issue?
    Mr. Salerno. We have used the special salary rates that 
Congress has provided, and, echoing Director Beaudreau, we are 
very grateful for that. That is enormously helpful. Without 
that, we would be in a far worse position.

                              SUBMERSIBLE

    Mr. Calvert. I guess this question would be for you. I just 
saw on the news that a submersible went down in the Gulf, down 
where the oil spill occurred, to get to the bottom, a deep 
water submersible. Is there any initial response from that 
submersible, any news?
    Mr. Salerno. I do not have any late breaking news on that, 
sir, but we can certainly follow up.
    Mr. Calvert. Just kind of curious. It went down this week, 
I understand, so I was just curious if anything occurred from 
that. Okay. Mr. Moran.
    Mr. Moran. Thanks very much, Chairman. Both of you have 
done a fine job in resurrecting respect and credibility for 
this mission, and I really admire both of you. And 
congratulations, Mr. Beaudreau, for being bumped up to run the 
whole Department. Clearly the Secretary got a lot of good 
feedback from your work.
    Mr. Beaudreau. It is like winning a pie eating contest and 
getting a pie.

                    GULF OF MEXICO OFFSHORE DRILLING

    Mr. Moran. Yeah. I like that. That is a great expression. I 
will use that sometime. I would like to know whether drilling 
is increasing, decreasing, or staying level in the Gulf of 
Mexico, Director Beaudreau.
    Mr. Beaudreau. The trend we have seen, in terms of 
exploration drilling, as well as development, has been that the 
activity is increasing. There are more rigs working today in 
the Gulf of Mexico than prior to the spill. Director Salerno 
can amplify this, but the companies that I speak with, when we 
talk strategically about where you are going, three, four, five 
years down the road talk about acquiring additional rigs, 
including new builds, and moving additional rigs into the Gulf 
of Mexico. It is still a world class basin. It is incredibly 
mature, in terms of infrastructure, including emergency 
response capacity, and it is still one of the most profitable 
places in the world to work offshore.

                            OFFSHORE LEASES

    Mr. Moran. Um-hum. Well, let me ask, Director Salerno, how 
many leases are there in the Outer Continental Shelf where only 
the minimum is being done to retain the lease interest?
    Mr. Salerno. The underlying philosophy in our regulations, 
and what we enforce, is use it or lose it. There are defined 
lease terms, which are set by BOEM.
    Mr. Moran. Yeah.
    Mr. Salerno. We manage that within BSEE to make sure 
activity is conducted on those leases, and that the companies 
are not sitting on them indefinitely. There is an expectation 
that they will produce from those lands, and if they fail to do 
so, they stand to lose that lease.
    Mr. Moran. Do you have any estimate of the number of acres 
that are leased, versus those in production?
    Mr. Salerno. I do not have that by acreage at the moment, 
sir, but I am sure, together with BOEM----
    Mr. Moran. I think that----
    Mr. Salerno [continuing]. We can provide that.

                ATLANTIC ENVIRONMENTAL IMPACT STATEMENT

    Mr. Moran [continuing]. Might be useful to know. I 
obviously have a particular interest in seismic testing in the 
Atlantic, and I understand that you have completed the EIS. 
When do you expect seismic testing in the Atlantic to begin? 
And I would like to know what safeguards are being planned to 
be put in place, particularly with regard to impact on 
shipping, on tourism, and on military operations.
    Mr. Beaudreau. Thank you for that question. We recently 
published the final programmatic EIS relating to G and G 
activity in the mid and south Atlantic. That EIS really is a 
set of alternative suites of mitigation to mitigate the types 
of impact you described, Congressman Moran, including Chimera 
closures in certain places because of well migrations, or 
turtle nesting, including requiring operators, seismic 
operators, seismic contractors, to utilize emerging 
technologies, like passive acoustic monitoring, which currently 
exist, and is employed to avoid conflicts, and to shut down 
where there may be conflicts.
    In terms of when activity may begin, the programmatic EIS 
is out for comment now. A ROD will be issued that will select 
among the alternatives. Our preferred alternative is the most 
protective set of mitigation measures. We currently have 
pending applications from G and G contractors to conduct those 
surveys, and it is possible, depending on what the contractor 
wants to do, that the first survey could be as early as later 
this year.

                        OIL SPILL LIABILITY CAP

    Mr. Moran. And it will take into consideration interference 
with naval operations, I am sure. Just one other question, Mr. 
Chair. The oil spill liability cap, you have proposed raising 
it from $75 to $134 million. That is the largest you could do 
without Federal legislation. It is the first increase since 
passage of the Oil Pollution Act back in 1990, a quarter 
century ago. I understand that opposition has surfaced, of 
course, from the industry, and that the cap adjustment may be 
delayed. When do you expect that cap adjustment to be 
implemented on spill liability?
    Mr. Beaudreau. We have done everything we could, from an 
administrative standpoint, to adjust the liability cap. It is 
essentially an inflation adjustment, but since the adjustment 
has not been made since 1990, and actually the statute requires 
that it be adjusted periodically every three years, we had some 
catch-up to do. And so that accounts for the adjustment from 75 
to 134 million. We did get requests for additional time to 
comment on that adjustment, and because we want to hear from 
everybody about it, we accommodated those requests. We will 
consider the comments we receive, of course, but assuming we 
move forward on the track that we feel we are statutorily 
obligated to continue on, we will finalize that rule, and the 
new cap will be in place this year.
    Mr. Moran. Okay, good. Thank you, Director. Thank you, Mr. 
Chairman.
    Mr. Calvert. Thank the gentleman. Mr. Simpson.

          DIRECTOR TOMMY BEAUDREAU PROMOTION TO CHIEF OF STAFF

    Mr. Simpson. Thank you, and thank you for being here. Like 
I said, I do not know if that is a step up or what, becoming 
Chief of Staff with the Secretary. That is going to be a 
challenging job.
    Mr. Beaudreau. Yes.
    Mr. Simpson. I hate to see somebody with a name like 
Beaudreau leave the oil industry and go to the main offices. I 
mean, that name was made for the industry that you are in, is 
it not? Every time Billy Tauzin had a joke, and he had a lot of 
them, his members will remember, there was always a Beaudreau 
in there somewhere. Congratulations.
    Mr. Beaudreau. Usually involves, like, an outhouse----
    Mr. Simpson. Yes.
    Mr. Beaudreau. Familiar with those.
    Mr. Calvert. None of the jokes you can repeat.

                            BUREAU STAFFING

    Mr. Simpson. I was going to say, I was not going to talk 
about them. But anyway, congratulations, and we look forward to 
working with you in your new capacity. Following up on what the 
Chairman asked, how many unfilled positions do you currently 
have today?
    Mr. Beaudreau. I can get you the specific number. It 
changes on a daily basis, depending on retirements, and 
attrition, and that sort of thing. But we are, speaking for 
BOEM, we are at an equilibrium, I believe, in terms of our 
staffing. We are obviously trying to recruit, make sure we are 
fully complimented, but that is evolving every day.
    Mr. Simpson. How long does it take to fill a position, on 
average?
    Mr. Beaudreau. It can take months and months, and that is, 
honestly----
    Mr. Simpson. Is that because of competition with the 
private sector?
    Mr. Beaudreau. In part, but also we have given a lot of 
focused attention to trying to streamline and accelerate the 
bureaucratic process of on-boarding personnel, and that has 
been a major part of what we have been trying to do with the 
Interior Department, and our agency's HR offices, to try----
    Mr. Simpson. Federal hiring policy sometimes makes it much 
more difficult than the private sector to actually hire 
somebody----
    Mr. Beaudreau. And you get very far along in the process 
with a good person, they are waiting around, and they get 
poached.
    Mr. Simpson. Yeah.
    Mr. Beaudreau. And that is a very frustrating thing to 
experience.
    Mr. Simpson. Okay. Same questions for BSEE.
    Mr. Salerno. Sir, as far as the delta, I would echo 
Director Beaudreau's comment that on a daily basis it changes. 
Certainly with the 51 plus up, those are vacant, and those are 
ones that we are actively seeking to fill. We can get you more 
detailed information. And as far as on-boarding, same comment. 
It is more challenging bringing people into the Federal system, 
regardless of department or agency. There are just rules that 
we have to comply with that are time consuming. And that is 
often a challenge we have to manage.

                          OFFSHORE PERMITTING

    Mr. Simpson. Okay. One of the other reasons that we split 
the MMS--is that what it was? Minerals Management Service, 
yeah, why we split that into BOEM, and BSEE, was not only to 
split the management from the enforcement sort of agencies, it 
was also to kind of concentrate on the fact that we had 
companies who were complaining that they never got a permit 
done. The permitting process took an extraordinarily long time, 
with permits kicked back and forth, and ping-ponged back and 
forth between the Bureau, and between the agency and stuff. How 
is the timing of permits now? Are we bringing down that timing 
that it takes to actually get a permit?
    Mr. Salerno. We have. In fact, I have some numbers here. In 
2011, it took 71 days, on average. Now, there are a whole 
variety of permits, so this is an average. In 2013 that was 
brought down to 59 days, on average. We are looking at further 
improvements in the permitting system, automating it----
    Mr. Simpson. Yeah.
    Mr. Salerno [continuing]. Which we believe will help 
correct some of the problems with incomplete submissions. If 
there is an automated process, almost like Turbo Tax, people 
can see where elements need to be inserted so that a submission 
is complete from the outset. We feel as we progress in this 
investment in our IT technology, that we can further refine the 
process.
    The numbers are coming down. It is a different process than 
prior to Deepwater Horizon spill. More is required of the 
applicant. Our review process is more stringent. But even with 
those added features, the time is being reduced.
    Mr. Simpson. Well, that is good to hear, because one of the 
things I heard repeatedly when this debate was going on, when 
we first did this, from companies was that they are willing to 
pay more in fees and stuff. What we want to see as a result 
from that, and their complaint was, we would submit something, 
and the government would send it back, saying, you need to fix 
this, or you need to address this that you have not done. And 
then they would do that, send it back, and say, by the way, you 
need to do this one also. You know, a more complete analysis 
was what they were looking for, so that they could move on. And 
it is extremely expensive to get these permits and stuff too, 
and time consuming, in companies, employees, and so forth and 
so on. So I appreciate the fact that that is coming down.

                  GULF OF MEXICO ENVIRONMENTAL CLEANUP

    Just one last question. And I know you are not in charge of 
this, but what is the cleanup going like in the Gulf since the 
Deepwater Horizon spill? You know, we heard when this happened, 
a tragic environmental disaster that we all recognize. But you 
heard things like, jeez, the Gulf will never be the same, we 
destroyed it forever, and, you know, all that kind of stuff. 
How is the recovery of that spill going down there?
    Mr. Salerno. Well, it is an ongoing effort. There is still 
a cadre of people that conduct monitoring of beaches and marsh 
areas to look for long term effects, and also to respond in the 
event of any discovered oil. Typically it is very hard tar ball 
type oil, if it is discovered at all. There are a number of 
scientific activities, and studies being conducted, throughout 
the Federal Government, not necessarily within Interior, but 
certainly by NOAA, EPA, and others, to look at long term 
effects of things like dispersant use. We are very interested 
in the outcomes of those things, because they are response 
tools that are included in many companies' response plans, and 
we have the role in approving their response plans.
    Ongoing activity, I think, just as in the Exxon-Valdez 
case, these things take a long time to ultimately resolve 
before the environment fully recovers, but a lot of progress 
has been made. I certainly keep in touch with my former Coast 
Guard colleagues on that front. They still maintain the Federal 
on-scene coordinator role, and are actively managing all 
aspects of the spill, and the lingering effects of that.
    Mr. Simpson. Thank you, and thanks for being here today.
    Mr. Calvert. Thank the gentleman. Ms. McCollum.

                             ALASKAN TRIBES

    Ms. McCollum. Thank you, Mr. Chair. I am going to start out 
my question by reading a resolution, and I ask my colleagues' 
forgiveness, because I do not want to mispronounce the name of 
this Tribe, and have it mispronounced by all of us in future 
references to them. The Shishmaref, I am probably not even 
close. They are in Alaska, but I think you will know who I am 
talking about as I read this. And I am reading their resolution 
3-09.
    ``Whereas Alaska's indigenous people are inextricably 
linked to the land and sea, depending upon the natural world 
for our food security, community, and well-being, and cultural 
identity, whereas the Arctic Ocean and surrounding ecosystems 
have sustained the indigenous peoples for thousands of years, 
whereas the Arctic Ocean has been recognized, through science 
and traditional knowledge, as one of the most biologically 
important places on Earth, whereas the Arctic Ocean is home to 
whales, seals, walrus, and other migratory animals that many 
Alaskan Tribes depend on for their food security, whereas many 
animals and fish that Tribes across Alaska depend upon for 
their food security migrate to and from the Arctic each year, 
whereas many Tribes along the Arctic Coast continue to share 
trade, traditional foods from the Arctic Ocean with other 
indigenous communities, whereas food security is a basic human 
right, and recognized by the United Nations, and affirmed by 
the United States in the international covenant of civil and 
political rights, whereas climate change is causing severe 
coastal erosion, loss of sea ice, ocean acidification, and 
changes to the migratory animals we depend on for our food 
security, whereas a loss of sea ice and other impacts from 
climate change are having an impact on our ability to hunt and 
provide for our families, whereas increased shipping vessels 
and traffic through Arctic waterways threatened with the 
threats of offshore drilling and exploration puts additional 
impacts on the ocean and coastal communities, whereas the 
United States Government and other Arctic nations are moving 
forward with plans to make further development in the Arctic 
Ocean, whereas Alaska's indigenous Tribes must stand together 
and support addition for the Arctic that protects our way of 
life and puts our people first, whereas Tribes must be in the 
forefront of planning for the future or the Arctic ecosystem, 
whereas traditional knowledge and wisdom of the elders passed 
down through generations is invaluable for understanding the 
Arctic ecosystem and best management, therefore, now be 
resolved that a comprehensive and scientifically proven 
mitigation and monitoring plan must be developed to provide 
oversight for Arctic industry activities that could impact our 
food security, way of life, and health of our peoples.'' It 
concludes with, ``Be it resolved that the United States must 
consult and engage in a process with Tribes to determine the 
appropriate deferral areas and other protective measures for 
the important cultural, biological, and subsistence use of the 
areas of the Arctic Ocean ecosystem to ensure our food 
security, cultural identity, and protect our way of life.'' And 
it was voted on May 14 of 2013 at the village.
    I bring this up because our office has had an opportunity 
to engage with these folks. I am not saying that you do not 
talk or speak with them, but it is clearly not in a way that 
they feel is a partnership, engaging, or respectful. Some of 
the activity that is impacting them is out of your control. It 
is clearly climate change. They are seeing species that they 
have never seen before, birds, fish, that are totally unusual 
to their way of life. They are losing land mass at a great 
length, and now when they see the drilling, perceived drilling. 
They are very, very concerned about just losing their culture, 
their way of life, their land, everything altogether.
    This document that I have from you, it is the budget 
justification for 2015, and on page 76 over to 77, at the 
bottom. You talked about the assessments of the Alaska region. 
Now, I think my friends here, my colleagues, would all say 
that, when it comes to NEPA and some of those other things, I 
am rock solid. I am there. So this in no way is, dismisses the 
importance I place on NEPA. But it is the last two lines of 
that paragraph, where you even acknowledge Alaskan natives in 
the integration of traditional knowledge, interpretive 
documents and decision-making.
    Certainly the devotion that is given to NEPA under the 
environment, should not our brothers and sisters, the 
Aborigines, the first Alaskans, come first? Could you please 
explain to me and the Committee your process from beginning to 
end on how you engage Alaska native villages, and what you 
could, or will be doing better in the future?
    Mr. Beaudreau. I would actually like to do that. I am an 
Alaskan myself. I grew up in Alaska. My father moved our family 
to Alaska in 1979, when he got a job working on the North 
Slope. Part of the most important and gratifying aspect of my 
job over the last almost four years has been the opportunity to 
reconnect with my home State across these issues. I spend a lot 
of time personally on the North Slope. I was on the North Slope 
in February just a few weeks ago, meeting with the Native 
Village of Nuiqsut. I met with Johnson, who was a 
representative from the Village of Shishmaref, the folks you 
met with last week, to talk about all of these issues. Let me 
put it this way. I take, and we all do, extremely seriously our 
relationships with the people of the North Slope, and the 
Native Villages. We have developed relationships over the past 
several years that I think are much different than perhaps 
historically they were. I think we are understood to be 
extremely respectful, engaged, and concerned about the changing 
situation on the North Slope.
    Everything you described and read from the resolution, in 
terms of climate change, is true, and I have seen it first-
hand. Part of what is happening with receding sea ice is not 
only polar conditions warming to the point where you have 
receding sea ice, it also affects the permafrost. And then you 
have these compounding wave effects where coastal communities 
are literally being washed into the sea. And that is part of 
the situation in Shishmaref today.
    And so, when folks there talk about climate change, they 
are on the point of the spear with it. They see it every day. 
It is literally changing the way their communities work. And it 
also affects subsistence hunting. On the North Slope today, 
more than 60 percent of the caloric intake in these villages is 
still from subsistence hunting and fishing. And so when folks 
like the villagers in Shishmaref tell you the ocean is our 
garden, that is true. That is where they literally go for food. 
And so I take that with me, and I know Brian does too, into 
these jobs every day. We have a high level of concern for the 
people on the North Slope, for protecting their way of life, 
and for working with them through our decision-making process.
    When you referred to the reference on traditional knowledge 
in that report, that was not a throw-away line. That is an 
extremely important part of our information collection system, 
in terms of evaluating where potential leasing may be 
appropriate, and where it is not appropriate. We do a lot of 
scientific studies to get Western science data around these 
issues, but I found it, personally, extremely valuable to go to 
a hunter and say, where do you go to find walrus? Where do you 
have to go to find whale today? And it is different than it was 
when their fathers were hunting. They have to go a lot farther 
out. That carries risks in and of itself.
    And so that is a long way of saying we are completely 
committed to working with indigenous people wherever our 
programs are relevant, but especially in Alaska, and I 
personally take that extremely seriously.
    Ms. McCollum. Mr. Beaudreau, I do not doubt your sincerity 
for a second, I truly do not. I do not doubt for a second that 
you have elevated this up, as you said, higher than before, but 
if we do not have a formalized process, if we do not have 
something that is written on paper that is implemented, there 
is very little security. There is very little opportunity to 
build on a more trustful relationship. So if the Bureau of Land 
Management is doing something next to a county, city, or even a 
tribal area on the lower 48, there is much more of a formal 
process involved in here than what I have been able to tangibly 
pick up with those native Alaskans in the North Slope.
    I would look to you to come up with a formal, respectful 
guidance procedure or policy that we can work on together with 
this Committee, and with the Alaskan natives in that area, so 
that there is consistency. They are citizens of America, the 
same as the citizens around in the Bakken Oil area, and they 
are having challenges being heard, although that is not public, 
it is private land.
    So I look forward to working with whoever is going to be 
taking your place. Mr. Chair, thank you very much for your 
indulgence of the time. This is a very important issue.
    Mr. Calvert. I thank the gentlelady. Mr. Joyce.

                         NATIONAL OCEAN POLICY

    Mr. Joyce. Thank you, Chairman Calvert. Gentlemen, good 
morning, still. In the fiscal year 2014 Omnibus, it included a 
60-day deadline to report back to this Committee on all 
expenditures to date on National Ocean Policy implementation, 
as well as funding for your fiscal year 2015 request. Since 
that deadline passed on March 17 of this year, when will you 
submit the requested information, and how much funding is in 
your fiscal year 2015 request for the National Ocean Policy?
    Mr. Beaudreau. I will look into the specific response. I 
know we have provided responses to requesters in the past about 
specific expenditures related to NOP. I know we went through 
that exercise recently. And so, if there is miscommunication, 
or it has not gotten to you yet, I will clear that up. The 
bottom line answer, with respect to the amount of our budget 
devoted to NOP, is, other than a small number of personnel who 
part of their job description is to attend meetings with 
regional councils, we do not have any line items specifically 
devoted to NOP.
    That said, big picture part of what National Ocean Policy 
is meant to be is stakeholder engagement across the entire 
spectrum of stakeholders, including industry, local community, 
and the States. That is endemic to what BOEM does as part of 
our planning process. You see it with conventional energy, as 
well as with renewable energy. And so, while we do not have any 
line items devoted specifically to expenditures on NOP, our 
entire process is about engagement with that whole range of 
stakeholders.
    Mr. Joyce. What is your view of NOP? Do you feel that some 
of the authority granted to the Secretary of Interior under the 
OCS Lands Act is potentially undermined by a marine spatial 
plan that each regional planning body must create?
    Mr. Beaudreau. No, I do not see it that way. I see, again, 
good stakeholder driver processes and engagement to make sure 
that the entire range of concerns--take offshore wind as an 
example. That entire process is about talking to wind 
developers on the one hand, folks who are interested in the 
commercial prospects, but the fishermen who may be impacted, 
the military uses that may be impacted, concerns with sister 
agencies about endangered species, the whole host of 
stakeholders, try to, in a smart and up front way, reconcile 
all those issues. That is, if done properly, what the Secretary 
is supposed to be doing under OCSLA. And so I do not feel that 
NOP in any way erodes our authority. If done right, it is 
completely complimentary with the way we should be doing 
business.
    Mr. Joyce. Thank you. I yield back, Mr. Chairman.
    Mr. Calvert. Mr. Moran, any additional questions?

                            GULF FISH STUDY

    Mr. Moran. Yes, thank you, Chairman Calvert. I was just 
told that they found that in the Gulf young fish have their 
breathing and heart systems compromised, so they do not expect 
them to live as long. Have you seen any of that? There was an 
article in the Washington Post in that regard.
    Mr. Beaudreau. Yes, I believe you are referring to a recent 
study completed by NOAA that looked at impacts on tuna 
populations, and the potential effect of the spill on those 
species. And I believe that was the finding, that it affected 
cardiovascular systems in those species in a way that is still 
under study, on terms of what the total impacts were. But that 
study was undertaken as part of the Natural Resource Damage 
Assessment process, under NRDA.

NATIONAL COMMISSION ON THE BP DEEPWATER HORIZON OIL SPILL AND OFFSHORE 
                                DRILLING

    Mr. Moran. Interesting. What is the status of the 
implementation of the safety of environmental recommendations 
that were made by the BP Oil Spill Commission? Mr. Salerno.
    Mr. Salerno. Yes, Congressman. There were quite a few 
recommendations, as you know. I think the Commission 
specifically made 33 recommendations to BSEE, to the Bureau of 
Safety and Environmental Enforcement, or its predecessor 
organizations, MMS, or BOEMRE. Of those, about 25 of them have 
been addressed, or are being addressed through ongoing 
initiatives, such as rulemakings. One example would be a 
rulemaking now under development for blowout preventers, which 
would enhance the requirements for that very vital piece of 
equipment.
    Many of the remaining ones that we have not addressed were 
addressed in a different way. For example, there was a 
recommendation that we adopt a safety case approach, similar to 
what is being done in Norway. We are following a somewhat 
different track. We think we are covering essentially the same 
ground, with very good results. We have taken some 
recommendations, and acted upon them, but maybe not 
specifically in the way the authors intended, but in the spirit 
of what they intended.
    Overall, there were about 15 different studies performed 
after Deepwater Horizon. The Oil Spill Commission was very 
prominent, but there was also one with the National Academy of 
Engineers. Again, it is a whole host of them. And, in 
aggregate, about 200 recommendations that are directly 
applicable to my organization, and roughly I would say \3/4\ of 
them are either being acted upon, or addressed in some way. 
When you get that many recommendations, they are not all 
consistent, so you kind of have to sift through them and get 
the intent behind it.
    But it is very much an active effort on our part to take 
all of those recommendations that make the most sense and yield 
the greatest effect to bring those to conclusion.
    Mr. Moran. Well, we have a responsibility for oversight, 
and it is going to be important to understand to what extent, 
and how many of the recommendations actually were fully 
implemented in Federal policy. And I trust you are absolutely 
determined to do that.
    Mr. Salerno. Yes, sir.

                  BP OIL SPILL SETTLEMENTS FOR DAMAGES

    Mr. Moran. I have obviously been critical of BP for some of 
the laxity, and the expedient decisions that were made. This is 
not a question I really expect you to answer with any 
precision, but it does seem to me that, in the wake of the oil 
spill disaster, there have been an awful lot of folks who have 
jumped on the bandwagon and tried to get settlements for 
damages that are kind of spurious. It seems as though BP 
actually has a point to be made in some of these organizations 
and individuals that are claiming damages that are very 
questionable. Do you have any observations, either of you, on 
that?
    Mr. Beaudreau. No.
    Mr. Moran. Yeah, I kind of suspected.
    Mr. Beaudreau. That is okay.
    Mr. Moran. Yeah.
    Mr. Beaudreau. I do not want to wade into territory----
    Mr. Moran. Yeah, I know.
    Mr. Beaudreau. Right.
    Mr. Moran. Yeah.
    Ms. McCollum. Good job.

                              ARCTIC OCEAN

    Mr. Moran. Yeah. Okay. Well, I did not expect any different 
answers. Yeah, I, you know, Ms. McCollum has referenced Alaska. 
We are concerned, obviously, about the Arctic Ocean 
particularly. Do you look at the Arctic Ocean in a kind of 
particularly sensitive way due to the fragile environment up 
there? I trust the answer is yes, but that is the last question 
I would have. Is there a uniqueness about the Arctic Ocean, and 
its vulnerability, given all of the resources that are claimed 
to be there?
    Mr. Beaudreau. You are absolutely right, and Representative 
McCollum is right about that as well. When I described in my 
opening statement a region specific approach to leasing, that 
is what I was referring to. You look at the Gulf of Mexico, 
very mature, very well developed, a lot more resources, a 
broader approach to leasing may be appropriate there. For 
offshore Alaska, what we have described in the Five Year Plan 
is a totally different model that flips that on its head, and 
is actually more similar to what we do with siting of renewable 
energy, where we look at what the resource potential is.
    Because there is significant resource potential, especially 
in the Chuckchi Sea, we look at what we know about well 
migration patterns, subsistence fishing, including 
incorporating traditional knowledge, and try to de-conflict all 
of that and, we have a much more targeted and focused area that 
we would even consider for leasing. And it is really an 
entirely different model.
    Mr. Moran. Very well put. Thank you very much. Thank you 
both, and, Mr. Chairman, I appreciate----
    Mr. Calvert. I have been to Alaska a number of times, and 
of course, I served for many years on the Resources Committee, 
and went to Alaska when Don Young, ran a codel up on the North 
Slope, and spent some time in Barrow, and we met with a lot of 
Native groups up there, and in the years on the Committee, met 
with many folks, discussing those issues. And I find, as many 
issues with Native Americans, there is a diversity of opinion.
    Mr. Beaudreau. Yes, that is true.
    Mr. Calvert. And----
    Mr. Beaudreau. Not monolithic.
    Mr. Calvert. It is not monolithic. But I would say, just 
for the record, most of the Natives in that area believe that 
they have been worked with, with the oil exploration companies. 
Is that a reasonable statement to make, that they have 
discussed this in detail with them?
    Mr. Beaudreau. I agree with how you described it. These are 
not monolithic communities. They are small towns, and in any 
small town, there are a lot of dynamics going on. And they are 
very sophisticated people, who have a range of views. One 
viewpoint that I hear quite often when I am up there is, if oil 
and gas activity is going to go forward, what is in it for us?
    Mr. Calvert. Yeah.
    Mr. Beaudreau. What does that mean for us? Both in terms of 
impact, but also in terms of potential economic benefits. And, 
in my mind, that is a very compelling question.
    Mr. Calvert. As you know, the late Ted Stevens spent a lot 
of time up there, and a lot of resources in those communities, 
had directed to those communities, a lot of jobs with the 
Native populations in that region. And many of the folks in 
that area participate in the revenue that is generated in that 
area, I just wanted to bring that up.

                   DECOMMISSIONING OFFSHORE PLATFORMS

    And in the issue of the Gulf, we have got a lot of old rigs 
out there. One of these days, somebody is going to run into one 
of those things. How many rigs are in the Gulf right now that 
have been abandoned?
    Mr. Salerno. I do not have the exact number that are 
abandoned. What I have are total number of rigs. It is about 
2,600 platforms, fixed facilities, that are out there. There 
are probably a number of additional ones that are not producing 
right now. And when they cease to produce, there is an 
obligation, under the law, that they be removed. That is 
something that is within the purview of my agency, and we work 
with the companies to see that happens in a reasonable 
timeframe.
    Mr. Calvert. How many applications are out there for 
decommissioning right now?
    Mr. Salerno. I will have to get back to you.
    Mr. Calvert. Is it in the thousands?
    Mr. Salerno. I will get that number for you.
    Mr. Calvert. Well, that is what I hear. Maybe that is----
    Mr. Salerno. No----
    Mr. Calvert [continuing]. Total, but does that seem----
    Mr. Salerno. There----
    Mr. Calvert [continuing]. That might be close to correct?
    Mr. Salerno. It may be close. The number of rigs, even just 
a year or two ago, was substantially higher out in the Gulf. A 
number of them have been removed. Some have been converted into 
reefs. We have a rigs to reefs program.

                         RIGS-TO-REEFS PROGRAM

    Mr. Calvert. And that is actually my next question. It can 
be a win-win. One is that they have an obligation to remove the 
rig, but they do not have to remove the whole rig down to the 
sea bed. They could potentially cut that, and use that for 
artificial reefs to help the fish population.
    Mr. Salerno. That is correct. There are criteria for doing 
this in an environmentally sound way. It is done in conjunction 
with the States. But often the States and local communities, 
like fishermen, really want those artificial reefs because an 
ecosystem has been built around them, and they want to preserve 
that. We have found ways to do that and accommodate it. And 
this was an issue a few years ago, and I think we have found a 
path forward that has worked quite well in the last year or so. 
We are going to continue with that.
    Mr. Calvert. Okay. Any additional questions? Yes.

                            SHELL OIL KULLUK

    Ms. McCollum. This is kind of current news, Shell Oil 
Kulluk, am I saying that right?
    Mr. Beaudreau. Kulluk.
    Ms. McCollum. Kulluk.
    Mr. Beaudreau. Right.
    Ms. McCollum. Are you French-Canadian? They were teasing 
you about being Louisianan. Yeah. Not all Beaudreaus are South. 
So thank you for helping with the pronunciation. Anyway, it was 
stranded off the coast of the Kodiak Island on December 31, 
2012. The rig became stranded as a result of being towed into 
the Alaskan Arctic to Washington State repairs. So there are 
many questions as to why Shell decided to move the rig from 
Alaska to Washington during bad weather.
    Now, tax law has been one of the big speculations that have 
been out there in order to make sure that Shell received as 
much profit as possible. So yesterday the Coast Guard released 
a report stating inadequate assessment and management of risk 
was the biggest reason for the grounding. So what is the 
Bureau's takeaway from this report to work to ensure that there 
are adequate safety measures before towing like this takes 
place again? Who is paying for the Coast Guard, the involvement 
in that, and everything else?Were taxpayers on the hook, or 
were funds able to be recovered since 2012 on this grounding?
    Mr. Salerno. First of all, let me say, we are going through 
the report from the Coast Guard. I have looked at it 
personally. I think they have done an excellent job, and I am a 
former Coast Guard officer, so I am a little bit biased, in 
characterizing the elements that went into that casualty. What 
they have found, in great detail, is an absence of adequate 
risk management, on the part of Shell, and its contractors, in 
particular Chouest, their assessment of the environmental 
conditions, the selection of towing equipment, the vessels that 
were used, the fact there was only a single towing vessel going 
through the Bering Strait, the Bering Sea, that time of year 
without any redundancy. It is very difficult to re-make a tow 
in those extreme conditions once the tow line is broken.
    All of those things are included in the report, and I think 
it does an excellent job of characterizing the absence of 
preparation, for operations that time of year. It is very 
consistent with a report that was done over a year ago, led by 
the Department of the Interior, both with other agency 
involvement. Secretary Salazar at that time commissioned a 60-
day review. He wanted to understand what went wrong in the 
aftermath of that event. And it found something that I think is 
entirely consistent with the Coast Guard's review, and that is 
different operating elements of Shell's organization were not 
very well synchronized. It was a classic left hand not knowing 
what the right hand was doing. They had spent a lot of time and 
effort focusing on the drilling activity. They really did not 
spend a lot of time integrating the maritime activity and the 
marine transportation related activity, so overall risk 
management suffered.
    Now, as a result, the 60-day report required that, for 
future operations, Shell, and any operator, would be required 
to develop an integrated operations plan. And that is what we 
have communicated to Shell. They were actively working on that, 
until they decided not to go forward this year. But that 
requirement remains, that, if they choose to go back, we want 
an integrated operations plan, that needs to be audited by an 
external entity. We will go over this with a fine-tooth comb 
because we do not want a repeat of that lack of internal 
coordination within their organization that contributed to this 
event.
    We work very closely with other Federal agencies on 
anything in the Arctic, in particular with the Coast Guard, but 
there are a whole host of them. There is an inter-agency 
working group, and it is all of the alphabet soup of government 
that has a stake in Alaska. We watch this very, very closely. 
But we learned from that event. Shell learned from that, we 
learned from it, the Coast Guard has learned from it, and that 
has our attention and our focus.
    Ms. McCollum. Were there any indirect or direct costs to 
taxpayers that have not been recovered?
    Mr. Beaudreau. I do not know the answer to that question, 
but we will look into it.
    Ms. McCollum. Because it seems to me that they should pay 
for their own mistake, their mess, their hurry-up to get 
something moved to their advantage. Thank you, Mr. Chair.
    Mr. Calvert. Any further questions? I believe we will 
probably have some questions for the record that we will submit 
to both of you, but thank you for attending this hearing. We 
are adjourned.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT



</pre></body></html>
